<html>
<title> - BORDER SECURITY: INFRASTRUCTURE, TECHNOLOGY, AND THE HUMAN ELEMENT PART I AND II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
   BORDER SECURITY: INFRASTRUCTURE, TECHNOLOGY, AND THE HUMAN ELEMENT
                             PART I AND II

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                  FEBRUARY 13, 2007 AND MARCH 8, 2007

                               __________

                            Serial No. 110-4

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________






                  U.S. GOVERNMENT PRINTING OFFICE
35-263 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                        Todd Gee, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (ii)
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security
  Oral Statement.................................................     4
  Prepared Statement.............................................     4
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    25
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    27
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    29
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................   105
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas
  Oral Statement.................................................    34
  Prepared Statement.............................................    35
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    32

                               Witnesses
                       Tuesday, February 13, 2007

David V. Aguilar, Chief, Border Patrol, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
David Pekoske, Rear Admiral, U.S. Coast Guard, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                        Thursday, March 8, 2007

Dr. Jeffrey Scott McIllwain, Co-Director, Homeland Security 
  Program, San Diego State University:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Mr. Michael O'Hanlon, Senior Fellow, Brookings Institution:
  Oral Statement.................................................    57
  Prepared Statement.............................................    59
Mr. Andrew M. Ramirez, Chairman, Friends of the Border Patrol:
  Oral Statement.................................................    74
  Prepared Statement.............................................    76
Mr. Michael Wermuth, Director, RAND Homeland Security Program:
Accompanied by Mr. Jack Riley:
  Oral Statement.................................................    88
  Prepared Statment..............................................    70


                    BORDER SECURITY: INFRASTRUCTURE,
                   TECHNOLOGY, AND THE HUMAN ELEMENT
                                 PART I

                              ----------                              


                       Tuesday, February 13, 2007

              U.S.House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairman of the subcommittee] presiding.
    Present: Representatives Sanchez, Lofgren, Jackson Lee, 
Cuellar, Green, Thompson, Souder, and Bilirakis.
    Ms. Sanchez. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
border security, infrastructure, technology and the human 
element.
    And I want to begin by thanking the witnesses, Chief 
Aguilar and Rear Admiral David Pekoske, who are joining us 
today at this important hearing on border security, 
infrastructure, technology and the human element.
    This is the first hearing in the Border, Maritime and 
Global Counterterrorism Terrorism Subcommittee, and I hope 
today's discussion will be the first of many useful discussions 
between this committee and the department. And I look forward 
to a very productive Congress this year.
    One of the top issues that this subcommittee will focus on 
is border security. And today, we have the opportunity to 
explore broadly the challenges we face in securing our borders 
and the ways in which infrastructure, technology and personnel 
can be used to secure our country.
    To begin with, I am interested in discussing the diversity 
of the issues that we face on the northern, the southern and 
the coastal borders, and how Customs and Border Protection and 
the Coast Guard work independently and how you work jointly to 
get this done.
    In addition, I would like to learn more about the various 
mix of the infrastructure, the technology and the personnel 
resources that are used to address the different challenges at 
the different borders, and to sort of get a best practices or 
some idea from you on how this works, what is working well, and 
what we need to do to improve, and what kind of resources you 
need, because I believe--and I think most of us realize now--
that a one-size-fits-all doesn't work with respect to securing 
our borders, and because we have limited resources, we are 
trying to figure out how to prioritize those resources and use 
them effectively.
    I also want to hear about the fencing and the barrier 
situation, because there have been many misinterpretations, I 
think, in particular in the press, about what the new 700 miles 
of wall or fence would be and what that looks like. My 
interpretation of the language is that it could be technology 
sensors; it could be personnel; it doesn't necessarily have to 
be a physical barrier. So I hope you will give us or enlighten 
us on what you think works effectively with respect to that.
    And, of course, the SBInet technology project, I look 
forward to seeing the Project 28 pilot when it is complete. And 
I want to let our members know that we will have ample time to 
review this project. And today I hope we will discuss the 
technology currently being used at both Customs and Border 
Protection and the Coast Guard.
    And in terms of the human element, I would like to hear 
about, not just the plans for increasing the Border Patrol, 
because I know we have challenges in recruitment, in training, 
and retention, but also, again, how do we use them to maximize 
what we are doing at our border?
    Given the variety and the complexity of the issues, I am 
sure that we will hold additional hearings on these topics. And 
today's hearing is really just a starting point for this 
subcommittee, so that hopefully we can get this right. With 
this looming issue of whether we do a comprehensive immigration 
reform or not, you know, I just want to be on record saying 
that we want to get this part of this reform correct in order 
for the rest of it to work.
    So I would like to thank my ranking member for his interest 
in this topic, and I look forward to working with him on this 
and on other issues of importance in the future.
    And the chair now recognizes the ranking member of the 
subcommittee, the gentleman from Indiana, for an opening 
statement.
    Mr. Souder. I thank the chairlady, and I appreciate her 
leadership and interest. And I look forward to working with her 
on a complex issue that probably never will be solved and on 
how we totally protect our borders that clearly we have.
    And the challenges here are mixed. And those of us who have 
worked with it realized their mixed, because you have the 
people problem, which would be terrorists, smugglers, as well 
as probably 2 million illegal aliens coming across. And it is 
hard to tell when somebody is coming whether they are initially 
a drug smuggler, a people smuggler, or a terrorist, or just 
somebody coming to work in Indiana.
    The second part is contraband, whether it is chemical, 
biological, nuclear, or narcotics, which up to this point, 
since 9/11, we have had 20,000 people a year die from illegal 
narcotics in the United States or, at this point, 100,000 since 
9/11, that is a continuing form of terrorism in the United 
States, or protection, where China, India, other countries send 
things in that are stolen and can put different industries out.
    So you have both on the Border Patrol and in the Coast 
Guard multitask missions that are huge challenges. My 
questions--reflect two concerns.
    One as is the stated goal of the President, and many of us 
in Congress realize we need some type of, at some point, 
comprehensive immigration reform, but what has to be in place 
before that occurs? How secure does the border have to be? How 
secure does our exit visa program have to be? And how secure do 
our IDs need to be, prior to implementation of that?
    Because the general consensus is, is the failure of 
Simpson-Mazzoli was that there was amnesty with no enforcement, 
so the American people believe that, when we come forward and 
say, ``Oh, we are going to do comprehensive immigration reform, 
but the other things aren't in place,'' that they are fearful 
that there is going to be another sleight of hand, that we 
agree for some type of work permit amnesty, but there is no 
real commitment to finishing off border security. And that is 
why many of us feel we need to show more progress there before 
we do immigration reform.
    The second part of this is much more complex; not more 
complex overall, but more in particular policies. In Colombia, 
the only way we could tell we were making progress on 
eliminating coca is if they shoot. Because if they never fight 
back, it means it is just cost of goods, you know, it is a bad 
debt.
    So if they don't shoot at your spray planes, if they don't 
shoot at the Coast Guard ships, if they don't fire at our 
Border Patrol, it means so many narcotics are pouring across 
the border and so much is being grown that they don't even feel 
a need to protect their asset.
    So as we get better at sealing the border, and one measure 
of some success to me, rather than just the stacks that the 
Border Patrol shows or the Coast Guard claims each year of how 
many narcotics we are getting or how many people we are 
interdicting--because we know the numerator. We don't know the 
denominator.
    We know how much we are seizing, but we don't know how much 
is coming, that when you look at that statistic, that, quite 
frankly, if there is no conflict, it means so much is coming 
through that what we interdicted is irrelevant. What we are 
seeing on the border is more violence right now. That suggests 
that there is some success right now in the drug smuggling area 
and in the people smuggling area.
    However, that, I believe, means we need to look at other 
policies such as the two Border Patrol agents who admittedly 
committed some doctoring of evidence crimes. The question is, 
what policy underneath that led them to be fearful of 
prosecution? Has there been a chilling effect on the Border 
Patrol for their willingness to defend our borders?
    Similarly, the National Guard, from my district, as they go 
to the border, can't have bullets if they are working on the 
fence. Well, if our deterrent in between the ports of entry 
are, in effect, have to wait until shot at, which is one of the 
problems we have had in Iraq, do we really have border security 
at a time when we are continuing to clamp down and the pressure 
for violence is increasing?
    Similarly, if we don't have adequate boats, if we don't 
have HITRON helicopters, if we don't have the ability to defend 
ourselves and to keep up with the go-fast boats and take them, 
it isn't going to work.
    So a lot of my questions are going to be related to those 
type of things. I thank you both for your service. I look 
forward to continuing to work with you.
    Ms. Sanchez. Thank you.
    The chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Madam Chairman. And I, 
too, am looking forward to the testimony of our two witnesses 
today. Hearing their testimony, I am looking forward to seeing 
where infrastructure, technology and personnel will be needed 
to strengthen America's border security.
    For decades, our men and women on the Border Patrol have 
done a wonderful job. But at this point after 9/11, we all know 
that they have taken on additional responsibilities in the 
fight against terror.
    One of the things I want to know is, now that we are 
getting 6,000 new agents, can we really bring them on line in a 
reasonable period of time? If so, how do we plan to do that 
over the next year, year and a half?
    With respect to the Coast Guard, I thank you for what you 
did during Katrina. You made all of us feel that some part of 
government really works. And because of that, Deepwater is a 
vital program for us. If we can't get the ships redone, there 
is only so much life left in them. But in doing that, I want to 
make sure that we get a product.
    The National Security Cutter and the 123-foot cutters are 
real problems for us. We can't spend $700 million on a ship and 
it not perform the duties for which it was designed. And that 
is a real problem. I have shared it with the commandant and 
others, but we will have hearings on that later.
    The other thing is whether or not, given the substantial 
miles from a maritime standpoint that the Coast Guard is 
charged with guarding, whether or not the present personnel is 
sufficient to do the job, or have we taxed the Coast Guard with 
new missions that stretches them beyond their capacity?
    But I look forward to this hearing and the testimony. And I 
yield back the rest of my time, Madam Chairman.

                         FOR IMMEDIATE RELEASE

                Statement of Chairman Bennie G. Thompson

                   ``Border Security: Infrastructure,

                  Technology, and the Human Element''

    February 13, 2007 (WASHINGTON)--Today, Committee on Homeland 
security Chairman Bennie G. Thompson (D-MS) delivered the following 
prepared remarks for the Border, Maritime, and Global Counterterrorism 
Subcommittee Hearing entitled ``Border Security: Infrastructure, 
Technology, and the Human Element'':
    For decades, the men and women of the United States Border Patrol 
have been on the front lines of our border security efforts. In the 
wake of the attacks of 9/11, they have taken on added responsibilities 
in the fight against terror. I know I join my colleagues in thanking 
the approximately 13,000 Border patrol agents who work hard every day 
to help keep the American people safe.
    I have also long supported increasing the size of the Border 
Patrol, so we have the personnel required to manage our borders 
effectively. President Bush has made a commitment to doubling the size 
of the Border Patrol during his term in office., which would mean 
adding an additional 6,000 agents over the next two years. This is an 
ambitious goal, and I am looking forward to hearing more about Border 
Patrol's plans to recruit, hire, train, and retain these agents.
    In addition, I am a strong proponent of providing Border Patrol 
with the technology in infrastructure they need to get their job done. 
At the same time, any such initiatives need careful oversight to ensure 
that we are making the best possible use of our homeland security 
funding.
    As Chairman, I can assure you that the Homeland Security Committee 
will provide such oversight this year.
    As we strengthen our security along the northern and southern 
borders with more manpower and other resources, it is likely that our 
maritime borders will become an increasingly attractive target for 
those seeking to enter the United States illegally or to bring drugs or 
other contraband into the country. Therefore, securing our nation's 
maritime borders is also vitally important to our homeland security.
    About 95 percent of goods coming into the United States arrive by 
ship, and our economy depends on a continuous flow of commerce. Also, 
though our maritime borders are 12,400 miles long, there are actually 
95,000 miles of coastline in the United States and 3.4 million square 
miles within the United States Exclusive Economic Zone. Facilitating 
legitimate trade and travel while also addressing threats across this 
vast area is no easy task.
    It is up to 40,150 active duty Coast Guard men and women to protect 
this immense area. It is essential that these men and women have the 
necessary tools to be successful. Recently, however, we learned about 
structural problems with the National Security Cutters and the 123 foot 
cutters.
    I am deeply concerned about these problems. The valiant men and 
women of the Coast Guard, who risk their lives each, must be able to 
depend on Coast Guard assets.
    As Chairman of this Committee, I intend to work closely with the 
Coast Guard to ensure that similar problems do not occur in the future. 
I am also committed to working with the Commandant to ensure that he 
has an adequate number of personnel to meet the Coast Guard's mission.
    We can not afford for maritime security to be the weak link in the 
fight against terrorism. I look forward to continuing to work with my 
congressional colleagues and the Department of Homeland Security on 
these and many other important border security issues in the 110th 
Congress.

    Ms. Sanchez. Thank you, Mr. Chairman.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    And so, I welcome our panel of witnesses.
    Our first witness, Chief David V. Aguilar, is the chief of 
the United States Border Patrol, a position that he has held 
since June of 2004. And his career in the Border Patrol spans 
nearly three decades and includes service as the chief patrol 
agent of Border Patrol's Tucson sector, which is one of the 
most active areas of the border region, and a great area, I 
might add. It is the home of my father.
    And our second witness, Rear Admiral David Pekoske--it is a 
difficult one to pronounce--was assigned as the Coast Guard's 
assistant commandant for response in July of 2006. And his 
responsibilities include management, oversight of a wide range 
of Coast Guard programs essential to public safety, to national 
and to homeland security.
    So, without objection, the witnesses' full statements will 
be inserted in the record. And I now ask each witness to 
summarize his or her statement for 5 minutes, beginning with 
Chief Aguilar.

   STATEMENT OF CHIEF DAVID V. AGUILAR, BORDER PATROL, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Chief Aguilar. Good morning.
    Chairwoman Sanchez, Ranking Member Souder and Committee 
Chairman Thompson, it is a pleasure and an honor to be here 
this morning to be able to speak to you and answer any 
questions that you might have, relative to Border Patrol, 
Border Patrol operations, and our activities along our nation's 
borders with the Canada, Mexico and, of course, the coastal 
borders that we share responsibility with our partners, the 
U.S. Coast Guard.
    I would like to cover just a little bit about what we do, 
how we do it, and where we do it, which summarizes my 
statement.
    The Border Patrol is responsible for over 6,000 miles of 
land border with Canada and Mexico. Last year, we apprehended 
over 1.1 million apprehensions between the ports of entry. In 
addition to that, we apprehended over 1.3 million pounds of 
narcotics, again, between the ports of entry. We apprehended 
over 98,000 other than Mexicans, within that group of 1.1 
million apprehensions that we apprehended between the ports of 
entry.
    Now, there were several initiatives that were undertaken 
last year that made a world of difference, in my opinion, from 
an enforcement activity for the Border Patrol, the commencement 
of Operation Jump Start.
    Operation Jump Start began about July 15th. We deployed up 
to 6,000 National Guard personnel. These citizen-soldiers are 
doing a tremendous job for us.
    As an example, I will state that, by implementing these 
National Guard personnel, one of the very important things that 
they did for us was entry identification teams, whereby they 
literally gave us an additional eyes and ears subset of our 
operations, over 300 miles of border, that we just didn't have 
in the past. So we had a tremendous increase in our 
surveillance capability.
    We commenced Operation Streamline in Del Rio sector, a very 
specific operation that we worked in conjunction with our ICE 
partners, with the judiciary down there in the Del Rio sector 
of operation, the U.S. attorney's office, and the U.S. 
magistrates, whereby we basically concentrated our joint 
efforts in prosecuting every entry that occurred within a 
specific area of that piece of the border.
    We commenced with an area no larger than four miles of that 
border. Within about eight months, we expanded to over 200 
miles of that entire border. As a result of that collaborative 
effort and partnership with the state, local, tribal and 
federal entities, we reduced the levels of activities by over 
66 percent, tremendous increase in operational effectiveness.
    We had additional bed space given to the Border Patrol. We 
are literally in the process and have ended what was known as 
catch and release. We are now basically applying catch and 
return, where all OTMs that are being apprehended are now being 
placed in detention. There are some that are being released 
only for humanitarian purposes. An example would be a female 
who is pregnant, for example, that cannot and probably should 
not be detained.
    But other than, upwards of 95 percent of all OTM 
apprehension by the United States Border Patrol are, in fact, 
being detained and returned to their country of origin. To 
date, on a national level, we have reduced the levels of OTMs 
coming into this country by over 52 percent. In past years, we 
were releasing on own recognizance over 90 percent; today, we 
are holding the vast majority, over 95 percent of all OTMs.
    Border violence protocols. We have instituted with the 
government of Mexico, where we are working with them in order 
for them to be responsive on the south side, in order to 
address what Congressman Souder just spoke to. We actually use 
within the Border Patrol as a measure of our success and a 
measure of our effectiveness the levels of violence and 
assaults against our officers.
    Simply stated, the way I put is that, when the smugglers 
are reluctant to give up areas that they have built 
historically, that they have owned and operated with impunity, 
they are reluctant to give up those areas. They fight us for 
that piece of the border. Violence escalates. It is critical 
that the government of Mexico work with us--and they are 
working with us--in order to be responsive on the south side.
    SBInet. SBInet is something that, September of last year, 
the contract was let. We will probably be speaking more about 
this, but, succinctly, it is a system of systems, technology-
based, as a backbone to the system that will maximize the 
effectiveness of Border Patrol agents on the ground.
    Today, as we speak, we have over 12,500 agents on the 
ground, 6,000 to be added by the end of calendar year 2008. I 
feel confident that we are on track to do that. We will hire 
2,500 this year, 3,000 next year, and 500 by the end of 
calendar year 2008, to get us at 6,000 net new.
    I would like to address just very succinctly the fence 
issue. We are on track this year to build 70 miles of 
additional fence, in addition to the already existing 70, 72 
miles that we have. We are on track to build 225 miles of fence 
next year, that will get us to the 370 miles that we are 
looking to build.
    Fence is absolutely a critical part of our enforcement 
initiatives, but I will summarize by saying that the fence is 
important where it makes sense. Where it makes sense is 
specifically in our urban areas and some rural and remote areas 
that will specifically give us the latitude to operate more 
efficiently and maximize our Border Patrol agents. Technology, 
the virtual fence, 21st-century fence is where we look to 
expand our infrastructure in the out years.
    With that, I will close out my oral summary. I thank you 
for the opportunity, and I look forward to answering any 
questions that you might have.
    [The statement of Chief Aguilar follows:]

                  Prepared Statement Of David Aguilar

    Chairwoman Sanchez, Ranking Member Souder, and distinguished 
Subcommittee Members, it is my honor to have the opportunity to appear 
before you today to discuss the successes and challenges of border 
security, as demonstrated by the operations and law enforcement 
initiatives of the United States Border Patrol, a component of the 
Department of Homeland Security's (DHS) U.S. Customs and Border 
Protection (CBP). My name is David Aguilar, and I am the Chief of the 
U.S. Border Patrol. I would like to begin by giving you a brief 
overview of our agency and mission.
    CBP, as the guardian of the Nation's borders, safeguards the 
homeland--foremost, by protecting the American public against 
terrorists and the instruments of terror, while at the same time 
enforcing the laws of the United States and fostering the Nation's 
economic security through lawful travel and trade. Since 1924, the 
Border Patrol has grown from a handful of mounted agents patrolling 
desolate areas along U.S. borders to today's highly-trained, dynamic 
work force of almost 13,000 men and women supported by sophisticated 
technology, vehicles, aircraft, and other equipment. Contributing to 
all this is the Border Patrol's time-honored duty of interdicting 
illegal aliens and narcotics and those who attempt to smuggle them 
across our borders. We cannot protect against the entry of terrorists 
and the instruments of terror without also reducing the clutter that is 
caused by illegal migration across our borders.
    To most effectively secure the border, we must reform our 
immigration system to relieve this pressure. We need comprehensive 
immigration reform that increases border security, establishes a robust 
interior enforcement program, and creates a temporary worker program. 
The Administration is dedicated to comprehensive reform of America's 
immigration laws by increasing border security, while maintaining the 
Nation's tradition of welcoming immigrants who enter the country 
legally. For immigration reform to succeed, it must be based on five 
pillars: 1) strengthening security at the borders; 2) substantially 
increasing enforcement in the interior to remove those who are here 
illegally, and to prevent employers from deliberately or inadvertently 
hiring illegal immigrants; 3) implementing a Temporary Worker Program 
to provide a legal channel for employers to hire foreign workers to do 
jobs Americans are unwilling to do; 4) addressing the millions of 
illegal immigrants already in the country; and 5) helping new 
immigrants assimilate into American society. The Administration's plan 
will deter and apprehend migrants attempting to enter the country 
illegally and decrease crime rates along the border. The plan also will 
serve the needs of the economy by allowing employers to hire legal 
foreign workers on a temporary basis when no American is willing to 
take the job, bring illegal immigrants out of the shadows without 
providing amnesty, and restore public confidence in the Federal 
Government's ability to enforce immigration laws.
    The Border Patrol's national strategy is an ``all threats'' 
strategy with anti-terrorism as our main priority. This strategy has 
made the centralized chain of command a priority and has increased the 
effectiveness of our agents by using a risk-management approach to 
deploy our resources. The strategy recognizes that border awareness and 
cooperation with our law enforcement partners are critical. 
Partnerships with the Department of the Interior; Immigration and 
Customs Enforcement; Drug Enforcement Administration; Federal Bureau of 
Investigation; State, local, and tribal law enforcement agencies; and 
State Homeland Security offices play a vital role in sharing and 
disseminating information and tactical intelligence that assists our 
ability to rapidly respond to an identified threat or intrusion, which 
is essential to mission success.
    Recognizing that we cannot control our borders by merely enforcing 
the law at the ``line,'' our strategy incorporates a ``defense in 
depth'' component, to include transportation checks away from the 
physical border. Traffic checkpoints are critical to our enforcement 
efforts, for they deny major routes of egress from the borders to 
smugglers intent on delivering people, drugs, and other contraband into 
the interior of the United States. Permanent traffic checkpoints allow 
the Border Patrol to establish an important second layer of defense and 
help deter illegal entries through improved enforcement.
    To carry out its mission, the Border Patrol has a clear strategic 
goal: to establish and maintain effective control of the border of the 
United States. Effective control is defined in the Border Patrol's 
strategy as the ability to detect, respond, and interdict border 
penetrations in areas deemed a high priority for threat potential or 
other national security objectives. In order to establish effective 
control in a given geographical area, we must be able to consistently:
        <bullet> Detect an illegal entry;
        <bullet> Identify/Classify the entry and determine the level of 
        threat involved;
        <bullet> Respond to the entry; and
        <bullet> Bring the event to a satisfactory law enforcement 
        resolution.
    Gaining, maintaining, and expanding a strong enforcement posture 
with sufficient flexibility to address potential exigent enforcement 
challenges is critical in bringing effective control to the borders. 
Guidance at the national level for planning and implementation ensures 
resources are initially targeted to gain and maintain effective control 
in the most vulnerable, highest-risk border areas, and then to expand 
this level of border control to all Border Patrol Sectors.
    Crucial to our mission is SBInet. Through SBInet, the technological 
component of the Secure Border Initiative (SBI), the Border Patrol will 
continue to assess, develop, and deploy the appropriate mix of 
technology, personnel, and infrastructure to gain, maintain, and expand 
coverage of the border in an effort to use our resources in the most 
efficient fashion. The expansion of a system of cameras, biometrics, 
sensors, air assets, improved communications systems, and new 
technology will provide the force multiplier that the Border Patrol 
needs to perform its mission in the safest and most effective manner.
    While it is key that the right combination of personnel, 
infrastructure, and technology be achieved, it must be coupled with 
improved rapid response capability and organizational mobility. Each of 
these components is inter-dependent and is critical to the success of 
the Border Patrol's strategy. We are fully engaged with the DHS Science 
and Technology (S&T) Directorate in our efforts to identify, develop 
and acquire technology to help us gain enhanced awareness and control 
of our borders. Our participation in S&T's Integrated Process Team on 
Border Security, for example, will help us use S&T resources to develop 
technology that will better secure our borders. Systems with the 
technological ability to predict, detect, and identify illegal entries 
and other criminal activity, but lacking the capacity for a rapid 
response or reaction, cannot complete the enforcement mission. 
Conversely, enforcement personnel with inadequate intelligence or poor 
technological support to provide situational awareness, access, and 
adequate transportation or equipment necessary to conduct enforcement 
activity are much less likely to be effective in today's dynamic border 
environment.
    There is no stretch of border in the United States that can be 
considered completely inaccessible or lacking in the potential to 
provide an entry point for a terrorist or terrorist weapon. Therefore, 
securing every mile of diverse terrain is an important and complex task 
that cannot be resolved by a single solution, such as installing fence 
alone. To secure each unique mile of the border requires a balance of 
technology, infrastructure and personnel that maximizes the 
government's return on investment and is tailored to each specific 
environment. Some of the components included by the Border Patrol and 
SBInet in evaluating tactical infrastructure needs are border access 
(the existence of all-weather roads), border barriers (vehicle and 
pedestrian), and the lack of non-intrusive inspections equipment at 
checkpoint facilities.
    The hiring and training of agents present both a challenge and an 
opportunity for the Border Patrol. CBP expects all training directed at 
achieving the President's target of 18,000 Border Patrol agents on 
board by December 31, 2008, to be conducted at the Border Patrol 
Academy in Artesia, New Mexico. CBP and the Federal Law Enforcement 
Training Center (FLETC) have agreed upon a plan to train a minimum of 
3,600 new trainees in fiscal year 2007, 4,350 trainees in fiscal year 
2008, and 850 trainees in the first quarter of fiscal year 2009. The 
Academy has increased the number of permanent instructors, detailed 
instructors, and rehired annuitants to meet the increased training 
load. Advanced Instructor Training to ensure that instructors have 
appropriate technical and teaching skills is being conducted at the 
FLETC facility in Charleston, South Carolina. CBP and FLETC have agreed 
to do everything possible to ensure that the Artesia facility is fully 
prepared for the Border Patrol training requirements, and with the 
addition of infrastructure, it is anticipated that the facility will 
meet the need. However, both CBP and FLETC have committed to exploring 
other options should there be a need for a contingency.
    The proper mix of personnel, technology, and infrastructure will 
vary with differing border environments and enforcement challenges. The 
Border Patrol operates in three basic geographical environments: urban, 
rural, and remote. Each of these environments requires a different mix 
of resources.
    In an urban environment, enforcement personnel generally have only 
minutes, or sometimes seconds, to identify an illegal entry and to 
bring the situation to resolution. This dynamic is a result of the fact 
that significant infrastructure exists to facilitate an illegal 
entrant's approach to the border and entry and to permit the violator 
to escape within moments of effecting the entry by blending in with the 
legitimate traffic in the community. Typically, smugglers and potential 
illegal entrants prefer urban areas due to the available 
infrastructure.
    In urban areas, the deployment mix will lean heavily on SBInet-
provided tactical infrastructure, such as lights and fences, supported 
by sufficient personnel to quickly respond to intrusions. The 
deployment tends to be of high visibility in that a potential intruder 
actually sees the barriers, lights, detection capability, and patrols 
occurring on or near the immediate border. The goal of deployment in an 
urban area is to deter and/or divert potential illegal traffic into 
areas where the routes of egress are not immediately accessible and 
enforcement personnel have a greater tactical advantage.
    In a rural environment, response time to an incursion can be 
greater, as the time from the point of entry to assimilation into the 
local infrastructure may be minutes or hours, exposing the violator for 
a longer period of time and allowing for a more calculated enforcement 
response. Deployment in a rural area will be less dependent upon such 
things as pedestrian fences and stadium lighting and more dependent 
upon SBInet solution sets involving detection technology, rapid access, 
and barriers designed to limit the speed and carrying capability of the 
violators.
    In remote terrain it may take a violator hours or even days to 
transit from the point of entry to a location where the entry may be 
considered successful. This allows for a significantly more deliberate 
response capability geared toward fully exploiting the terrain and 
environmental advantages. Deployments in remote areas will lean very 
heavily on detection technology and will include infrastructure geared 
toward gaining access to permit enforcement personnel to confront and 
resolve the event at a time and location that are most tactically and 
strategically advantageous. Other infrastructure/facilities that may be 
employed in a remote area include remote operating bases to provide for 
full enforcement coverage in areas that are difficult to access on a 
shift-to-shift basis.
    Historically, major Border Patrol initiatives, such as Operation 
Hold the Line in the El Paso Sector, Operation Gatekeeper in the San 
Diego Sector, Operation Rio Grande in Rio Grande Valley Sector, and the 
Arizona Border Control Initiatives in Tucson and Yuma Sectors, 
respectively, have had great border enforcement impact on illegal 
migration patterns along the Southwest border, proving that with the 
proper resources, a measure of control is possible. Collectively, they 
have laid the foundation for newer strategies and enforcement 
objectives and an ambitious goal to gain effective control of our 
Nation's borders, particularly our borders with Mexico.
    These initiatives will significantly affect illegal migration as we 
seek to bring the proper balance of personnel, equipment, technology, 
and infrastructure into areas experiencing the greatest level of cross-
border illegal activity along our Nation's borders. The most recent 
example of these initiatives is the Arizona Border Control Initiative, 
currently in its fourth phase. In this effort, we partner with other 
DHS components and other Federal, State, and local law enforcement 
agencies and the Government of Mexico, bringing together resources and 
fused intelligence into a geographical area that has been heavily 
impacted by illicit smuggling activity. Our efforts include building on 
partnerships with the Government of Mexico to create a safer and more 
secure border through the Border Safety Initiative, Expedited Removal, 
and Interior Repatriation programs. In doing so, we continue to have a 
significant positive effect on fighting terrorism, illegal migration, 
and crime in that border area.
    On the Northern border, the vastness and remoteness of the area and 
the unique socio-economic ties between the U.S. and Canada are 
significant factors in implementing the Border Patrol's national 
strategy. Severe weather conditions on the Northern border during 
winter intensify the need to expand ``force-multiplying'' technology to 
meet our enforcement needs. The number of actual illegal border 
penetrations along the U.S.-Canada border is small in comparison to the 
daily arrests along the U.S.-Mexico border. The threat along the 
Northern border results from the fact that over ninety percent of 
Canada's population of 30 million live within one hundred miles of the 
U.S.-Canada border. It is most likely that potential threats to U.S. 
security posed by individuals or organizations present in Canada would 
also be located near the border. While manpower on the U.S.-Canada 
border has significantly increased since 9/11, the Border Patrol's 
ability to detect, respond to, and interdict illegal cross-border 
penetrations there remains limited. Continued testing, acquisition, and 
deployment of sensing and monitoring platforms will be key to the 
Border Patrol's ability to effectively address the Northern border 
threat situation.
    Nationally, the Border Patrol is tasked with a very complex, 
sensitive, and difficult job, which historically has presented immense 
challenges. We face those challenges every day with vigilance, 
dedication to service, and integrity as we work to strengthen national 
security and protect America and its citizens. I would like to thank 
both Chairwoman Sanchez, and the Subcommittee, for the opportunity to 
present this testimony today and for your support of CBP and DHS. I 
would be pleased to respond to any questions that you might have at 
this time.

    Ms. Sanchez. Thank you for you testimony.
    I now recognize the rear admiral for his testimony.

  STATEMENT OF DAVID PEKOSKE, REAR ADMIRAL, U.S. COAST GUARD, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Pekoske. Thank you. And good morning, Madam 
Chairwoman, and Representative Souder, Ranking Member and 
members of the committee. It is a privilege for me to appear 
before the subcommittee as your very first Coast Guard witness.
    It is also a privilege to share this table with Chief 
Aguilar, one of my colleagues at the Department of Homeland 
Security. I very much appreciate the subcommittee's leadership, 
and we very much value your oversight of our operations.
    In my oral summary, I will briefly describe why the 
maritime border is unique and then, given the nature of the 
borders that I describe, I will discuss our strategy to provide 
for maritime security. And then, finally, I will describe our 
plans to increase our capability to achieve the strategy's 
objectives.
    The maritime border is quite different than the land 
border. And I would just like to highlight a couple of aspects 
of the maritime border that make it unique and make our border 
security operations different.
    First off, it is longer than the land border. The chief 
testified that the land border is about 6,000 miles long. The 
maritime border, if you just go in a straight line, is about 
12,400 miles long. But if you account for all the bays, the 
inlets, and go around the islands, count for Puerto Rico, Guam 
and Alaska, the maritime border is about 95,000 miles long. And 
so the task is enormous.
    And then when you think about the maritime border, rather 
than thinking of a line in the sand, you really need to think 
in two dimensions, because the border extends outward from the 
United States. And if you include the United States' 200-
nautical-mile exclusive economic zone, the size of our maritime 
border is about 3.3 million square miles.
    And within this border, in addition to its size, it is made 
additionally complex by the different regimes that are in place 
as you move from the inlet waters of the United States, out 
into the territorial sea, into the United States contiguous 
zone, out into the exclusive economic zone, going further off-
shore, and then onto the high seas. The laws, the regulations, 
the regimes that operate in each one of those is different.
    The other aspects of the maritime border and maritime 
border security operations that make it exceedingly complex are 
the pure logistics and pure communications challenges that 
occur at sea that don't occur on land. At sea, you can't pick 
up a landline telephone and talk to somebody reliably. It is 
all by either satellite or radio communications at sea.
    The other aspect of maritime border security is, its very 
nature makes it more expensive. And certainly there is a 
weather impact, a weather factor, not just on our ability to 
operate at sea, but importantly our ability to surveil and 
detect targets of interest on the water.
    Another important and final distinction I will make between 
the land border and the maritime border is, the land border is 
essentially shared with two countries, Canada and Mexico. Our 
maritime border really is shared with all coastal nations.
    Now, our strategy--and I have placed a copy of our brand-
new ``U.S. Coast Guard Strategy for Maritime Safety, Security 
and Stewardship'' at each one of your chairs--our strategy 
reflects the uniqueness of this border. And essentially what 
our strategy calls for, for border security, is a defense in 
depth.
    We want to not make the ports our last line of defense; we 
want to be able to move our security operations as far off 
shore as we can to be able to handle all security issues at 
sea. Our strategic priorities are awareness, regimes, 
partnerships, and unity of effort. And I would like to take 
this opportunity to highlight our partnerships with the U.S. 
Customs and Border Protection, which I consider to be at an 
all-time high and truly outstanding.
    The commissioner of customs and the commandant of the Coast 
Guard have commissioned workgroups that regularly meet and look 
at issues like joint boardings, joint operation centers. One of 
the issues that was raised in opening statements was joint 
professional exchanges, so that our people are familiar with 
each other and we adopt standard procedures as we have worked 
together, and, importantly, common platforms.
    The final topic that I would like to highlight in my 
opening statement is our capability to be able to implement the 
strategy. We have a project, the biggest project in the history 
of the Coast Guard, called the Deepwater project. When this 
project is done, it will be a $24 billion over the course of 25 
years.
    That means that this project won't be complete until the 
year 2030. But when it is complete, we will have doubled the 
number of maritime patrol aircraft in the Coast Guard 
inventory, and will have doubled the number of patrol boats 
that patrol in our coastal regions.
    And I would just like to highlight one aspect. It just 
happened last week, last Thursday, to illustrate to you the 
importance of getting on with the Deepwater project. We just 
decommissioned the older commissioned Coast Guard cutter in 
service, the Coast Guard Cutter Storis, 65 years old. It was 
first commissioned in 1942. So, clearly, we need to move on 
with this project.
    One other aspect that I would like to briefly highlight is, 
we have worked a proof of concept, along with Customs and 
Border Protection and the U.S. Attorney's Office, in the Mona 
Pass, which is between the Dominican Republic and Puerto Rico. 
This biometrics project allows us to identify through 
fingerprints individuals that we intercept at sea.
    Over the course of this proof of concept, which has been 
going on since November, we have intercepted 500 persons. Of 
those 500 people, 22 percent have had some criminal history in 
their background. And we have importantly achieved, through the 
cooperation of the U.S. attorney, 16 prosecutions already, 
where there were none last year. And prosecutions are very 
important to a deterrent effect.
    Madam Chairman, that concludes my oral statement. I think 
that, in my opinion, we are making good progress. Our efforts 
are well-coordinated within the Department of Homeland 
Security. Again, I appreciate your interest and your oversight, 
and thank you very much for the opportunity to testify today.
    I would be happy to answer any questions.
    [The statement of Admiral Pekoske follows:]

Prepared Statement of Radm David P. Pekoske Assistant, Commmandant For 
     Operations, U. S. Coast Guard, Department Of Homeland Security

Introduction
    Good morning Madam Chair, Ranking Member Souder, and distinguished 
members of the subcommittee. It is a pleasure to be here today to 
discuss the Coast Guard's role in border security.
    When most Americans think of border security, they often think of a 
line in the desert sand along the Southwest border. There has 
understandably been much emphasis placed on the need to secure this and 
other U.S. land borders. There have also been considerable efforts to 
secure America's air borders. The fact that you have called the Coast 
Guard to testify at this hearing is a testament to the priority this 
Subcommittee places on all border security domains _ air, land and sea. 
America's vast maritime borders and approaches must be protected as 
part of an effective approach to border security efforts.

Effective Border Security Depends on Cooperative Relationships
    The U.S. maritime border extends as far as 200 miles offshore, 
protecting our national sovereignty and resources. Inside this border 
are relatively open ports and coastlines that present an attractive 
avenue for entering illegally, conducting terrorist attacks, 
trafficking contraband, smuggling aliens or conducted other illicit 
activities. As the United States improves control over its air and land 
borders, the nation's expansive maritime borders could become a less 
risky alternative for illegally bringing people and materials into the 
country. The key to an effective, layered system of border controls, 
then, is balance and coverage across the air, land and maritime 
domains. Just as there are controls for the nation's airspace and land 
crossings, there is an essential ``wet'' component to securing the 
nation's borders.
    The thick blue line in figure 1 shows the expanse of our maritime 
borders.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A fundamental responsibility of national government is to protect 
its citizens and maintain sovereign control of its land, air and sea 
borders. In the maritime domain, this means exerting and safeguarding 
sovereignty in the nation's internal waters, ports, waterways and the 
littorals, as well as protecting vital national interests on the high 
seas.
    The U.S. maritime border, like the land and air borders, is 
integral to the global system of trade. Securing the maritime border is 
an international activity that requires developing a layered approach 
to border security--through U.S. waters, onto a well governed ocean 
commons, then seamlessly joining the secure maritime domain of foreign 
partners. It also requires extensive partnerships that integrate and 
build unity of effort among governments, agencies, and private-sector 
stakeholders around the world.

Coast Guard's Relationship with Customs and Border Protection (CBP)
    Leveraging its longstanding partnerships and unique maritime 
authorities and capabilities, the Coast Guard and CBP have 
significantly enhanced nationwide maritime security. Significant 
challenges remain and much more work needs to be done, but we're 
focused on the right priorities.
    The Coast Guard and CBP are working closely and collaboratively in 
areas of shared responsibility. Just this past year, ADM Allen and 
Commissioner Basham reported to Secretary Chertoff on a number of 
cooperative ventures undertaken by the two agencies. As a result, 
numerous Coast Guard/CBP Working Groups were formed to address such 
issues as:
        <bullet> KJoint boardings;
        <bullet> Joint operation centers;
        <bullet> Cooperative development of a Small Vessel Security 
        Strategy;
        <bullet> Container security;
        <bullet> International Ship and Port Facility Security (ISPS) 
        code compliance initiatives;
        <bullet> Information sharing and professional exchange; and
        <bullet> Maritime recovery.
    In addition, the Coast Guard and CBP currently work together daily 
through the following initiatives:
        <bullet> KIntegrated Border Enforcement Team (IBET)--The Coast 
        Guard, CBP and Immigration and Customs Enforcement (ICE) are 
        the core U.S. partners, and the Royal Canadian Mounted Police 
        and Canada Border Services Agency represent the core Canadian 
        partners. This includes eight maritime IBET regions (one on the 
        west coast, one on the east coast, and six on the Great Lakes) 
        where CBP/Office of Border Patrol (OBP) and the Coast Guard 
        conduct joint inter-agency operations. The maritime threats in 
        these regions are many, including migrant smuggling vessels, 
        stowaways, absconders, international vessels arriving from 
        high-risk countries, containers arriving from high-risk 
        countries, ferry services (international and domestic), use of 
        busy marinas and harbors by recreational vessel operators and 
        fishermen to conceal illicit activities, and the use of remote 
        marine locations along coastlines for illicit purposes. Some of 
        the criminal acts prosecuted include human, drug, currency, and 
        weapons smuggling. Drug smuggling continues to be the most 
        prevalent illicit activity in the IBET regions.
        <bullet> The Coast Guard Intelligence Coordination Center and 
        CBP's National Targeting Center (NTC) have exchanged liaison 
        representatives and work closely together to facilitate 
        information exchange on any passenger or crew member of 
        interest aboard commercial vessel to enhance and coordinate 
        enforcement efforts with the Department of Homeland Security 
        (DHS) components working at the national level
        <bullet> In Fiscal Year 2006, the Coast Guard's Intelligence 
        Coordination Center (ICC) COASTWATCH processed 270,702 Notice 
        of Arrivals (NOAs), an increase of approximately 140 percent 
        from Fiscal Year 2005, and 41.5 million crew and passenger 
        records, a ten-fold increase from Fiscal Year 2005. One hundred 
        percent (100%) of the crew and passengers onboard foreign and 
        U.S.-flagged merchant vessels over 300 gross tons, are checked 
        by the Coast Guard against intelligence and law enforcement 
        databases. Cruise ships crews are checked by COASTWATCH on law 
        enforcement databases; passengers are checked on law 
        enforcement databases by CBP.
        <bullet> USCG/CBP/OBP patrol assets are now co-located at 
        Station Bellingham, Station Alexandria Bay, Station Washington, 
        DC, Sector New York, Sector Miami, Sector Key West, Sector 
        South Padre Island, Sector San Diego and Sector San Juan. CBP/
        OBP Massena, NY will soon have space for a Coast Guard 
        detachment and we have new Joint Operations Center for Puget 
        Sound.
        <bullet> CBP/OBP is using an existing USCG contract to purchase 
        the 25' safe boat and 33' Special Purpose Craft--Law 
        Enforcement, enabling them to obtain proven assets, ensures 
        interoperability through use of a common platform while 
        leveraging economies of scale.
        <bullet> In Florida, the USCG and CBP have joint standard 
        operating procedures (SOP) for maritime law enforcement (MLE) 
        operations in Counterdrug and migrant interdiction. In recent 
        years there has been in illegal migrant smuggling across the 
        Caribbean and southern border; USCG/CBP/OBP have worked 
        together to adapt tactics, techniques and procedures to more 
        effectively execute the illegal migrant smuggling interdiction 
        mission.
        <bullet> In Texas and California the USCG turns over illegal 
        migrants from Mexico to CBP for repatriation via the expedited 
        removal process.
        <bullet> Joint patrols, boardings and inspections are 
        commonplace. Examples can be found anywhere both agencies 
        operate.
        <bullet> CBP/OBP supports USCG Search and Rescue (SAR) efforts 
        throughout the U.S. as needed
        <bullet> CBP/Air and Marine Operations (AMO) and the Coast 
        Guard provide the bulk of the Maritime Patrol Aircraft (MPA) 
        support for JIATF-South in the Transit Zone.
        Joint design and procurement of proof of concept Manned Covert 
        Surveillance Aircraft.
    Finally, in the event that a significant incident occurs the USCG 
and CBP are working extremely close and focused on collaboration on 
marine transportation system (MTS) recovery, including resumption of 
commerce. This effort will result in the development of protocols and 
communications mechanisms to ensure rapid resumption of maritime trade 
and limit negative economic ramifications to the nation following a 
significant disruption to the MTS.

Coast Guard's Role in Securing the Maritime Border
    The Coast Guard's overarching strategy is to, through a layered 
security architecture, ``push out our borders.'' The National Strategy 
for Maritime Security emphasizes the need to patrol, monitor and exert 
control over our maritime borders and maritime approaches. It goes on 
to emphasize that at-sea presence reassures U.S. citizens, deters 
adversaries and lawbreakers, provides better mobile surveillance 
coverage, adds to the warning time, allows seizing the initiative to 
influence events at a distance, and facilitates the capability to 
surprise and engage adversaries well before they can cause harm to the 
United States. Our unambiguous goal is to meet threats far offshore in 
order to avoid hostile persons, vessels or cargoes entering our ports 
or coastal regions. The Coast Guard operates in every maritime layer in 
anticipation of, or in response to, changing threats, adversary tactics 
and operational conditions. During the course of routine operations, as 
well as specified security missions, Coast Guard cutters and aircraft 
operate in the offshore waters of the Atlantic and Pacific Oceans, and 
in the Caribbean Sea, to provide Maritime Domain Awareness (MDA), 
command and control and capability to respond to maritime threats.
    In the maritime realm, a goal line defense is no defense at all. 
This principle is exemplified daily as we intercept drug and migrant 
laden vessels as far away as the Galapagos Islands. Last year, Coast 
Guard units, working with an interagency team, intercepted a suspect 
cargo ship over 900 miles east of Cape Hatteras, NC. In this case the 
threat was determined to be benign, but we demonstrated that our 
ability to push the borders out is an essential element in protecting 
our homeland.
    Admiral Allen's has directed the establishment of a Deployable 
Operations Group (DOG) to provide adaptable force packages for a myriad 
of contingencies, ranging from environmental clean up to 
counterterrorism events. The DOG will provide organized, equipped, and 
trained deployable, specialized forces (DSF) to Coast Guard, DHS and 
interagency operational and tactical commanders. These forces will 
deploy in support of national requirements as tailored, integrated 
force packages, throughout the United States and to other high interest 
areas. Organizing these units into a single command maintains a 
national focus, enhances inherent unit capabilities for execution of 
daily Coast Guard missions and rounds out the nation's ``tool kit'' for 
maritime disaster and threat response. Under a unified command 
structure, these units are better positioned to integrate with the 
Department of Defense (DOD), DHS and other Federal entities. The DOG is 
not an operational commander, but rather the sole DSF force provider 
and force manager for operational commanders.

Improving Maritime Security--Coast Guard Equipment
    The centerpiece of the Coast Guard's future capability is the 
Integrated Deepwater System. This 25-year $24 billion acquisition 
program reflects post-9/11 mission requirements, Deepwater assets are 
the first layer in a defense-in-depth strategy to push out our nations 
borders and intercept threats further from our shores.
    For example, figure 2 shows the current gap in Coast Guard patrol 
boat hours; it is affected most adversely by the difficulties 
encountered in the 123-foot patrol boats conversion program. This 
project has not provided the bridge to the future Fast Response Cutter 
(FRC) that we had hoped. As a result, we have taken steps to advance 
the design and construction of the Fast Response Cutter (FRC) in order 
to restore this critical capacity as quickly as possible and have 
entered into a Memorandum of Understanding (MOU) with the U.S. Navy for 
use of three 179-foot patrol coastal (WPC) to mitigate this gap in the 
near term. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 2

    Similarly, figure 3 shows the pre-existing Maritime Patrol Aircraft 
(MPA) gap. The revised Deepwater implementation plan strives to 
mitigate this gap by keeping more legacy HC-130H aircraft in service 
longer, while concurrently adding new HC-144A Maritime Patrol Aircraft 
(CASA-235's) to the Coast Guard's aviation fleet. Additionally, the 
USCG and Customs and Border Protection are working together to fill the 
gap with a Manned Covert Surveillance Aircraft, currently under joint 
development projected to serve as a surveillance platform in the 
Caribbean risk vectors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 3

Improving Maritime Security - Coast Guard Technology
    Vessel Tracking: Securing our vast maritime borders requires 
improved awareness of the people, vessels and cargo approaching and 
moving throughout U.S. ports, coasts and inland waterways. The most 
pressing challenges we now face involve tracking the vast population of 
vessels operating in and around the approaches to the United States, 
and detecting and intercepting the small vessels used for migrant and 
drug smuggling; such vessels can easily be used by terrorists seeking 
to do us harm. It is against this threat that we need to continually 
improve, and we are taking significant steps in the right direction. 
The Coast Guard needs as much information as possible about vessels 
operating in the maritime domain, particularly their location and 
identity, in order to enable effective and timely decisions and 
identify friend from foe. In support of this requirement, the Coast 
Guard has:

        <bullet> Established the Automatic Identification System (AIS) 
        to provide continuous, real-time information on the identity, 
        location, speed and course of vessels in ports that are 
        equipped with AIS receivers. AIS is currently operational in 
        several major U.S. ports for vessels greater than 300 gross 
        tons, and the Coast Guard's Nationwide Automatic Identification 
        (NAIS) project will expand AIS capabilities to ports 
        nationwide; and
        <bullet> Initiated development of a long-range vessel tracking 
        system to receive information on vessels beyond the scope of 
        the existing and planned AIS system. Long-range vessel tracking 
        systems are designed to extend tracking capabilities up to 
        2,000 nautical miles offshore.
        <bullet> In partnership with US-VISIT, CBP/OBP and the U.S. 
        Attorney in San Juan, the Coast Guard has deployed mobile 
        biometrics collection equipment on our cutters operating in the 
        Mona Passage between the Dominican Republic and Puerto Rico as 
        a proof of concept. Since implementing this operation in mid-
        November, we have found that 22 percent (103 of 464) of the 
        interdicted undocumented migrants attempting illegal entry into 
        Puerto Rico, were enrolled in the U.S. VISIT database as prior 
        felons, prior violators of U.S. immigration laws or other 
        persons of interest.
    Weapons of Mass Destruction (WMD) Detection and Response: The Coast 
Guard is an active partner and ardent supporter of the Department's 
Domestic Nuclear Detection Office (DNDO). As part of this cooperative 
arrangement, we have initiated and implemented a Joint Acquisition 
Strategy Plan with the DNDO for the development, procurement and 
deployment of next generation radiation detection equipment. This plan 
includes the development of ``stand-off'' detection capability and the 
use of transformational technology to counter the ``small vessel'' 
threat. Similarly, we are working diligently with the Department's 
Science & Technology Directorate and the Interagency Technical Support 
Working Group (TSWG) to enhance and expand our capabilities in the 
detection and interdiction of chemical and/or biological agents, 
specifically with the WMD threat in mind. We are fully aware of the 
trauma that infiltration of WMD could cause our nation, and remain 
determined and vigilant in preventing this from ever happening.
    Since 9/11, the Coast Guard is outfitting all of its boarding and 
inspection teams with personal radiation detectors, and we are 
deploying hand-held isotope detectors and other equipment that can be 
used to identify illicit radiological material and Special Nuclear 
Materials, as well as to transmit critical related information to 
appropriate agencies for action. We have effectively deployed such 
equipment throughout the Coast Guard to include: 212 Cutters, 189 Boat 
Stations, 35 Sectors, 12 Maritime Safety and Security Teams (MSST), 1 
Maritime Security Response Team (MSRT), 2 Tactical Law Enforcement 
Teams (TACLET), and 3 National Strike Force (NSF) Teams. This effort 
encompassing the fielding of over 3,000 gamma/neutron radiation pagers; 
560 handheld isotope detectors and 140 wide-area search gamma/neutron 
Backpacks. We have established a resident radiation detection operator 
course at the Maritime Law Enforcement Academy in Charleston, SC, with 
a throughput of 510 students annually. We continue to work closely with 
the Federal Bureau of Investigation (FBI), CBP, and the Department of 
Energy (DOE) to respond immediately to any indications of radiation 
encountered aboard a vessel at sea or in port.
    In the area of WMD response, the Coast Guard continues to train for 
and equip its NSF, MSST and MSRT personnel with the capabilities they 
need to respond to all types of WMD incidents. As part of this process, 
we are developing a ``First Responder'' capability to address WMD 
incidents. The purpose of this program is to address the time-gap that 
exists from the onset of an event until the arrival of fully mission 
capable units (e.g., MSSTs, MSRT, NSF). Aspects of this program include 
training; detection equipment; personal protective equipment; and 
tactics, techniques, and procedures.
    Personnel security and credentialing. The Coast Guard has made a 
number of critical improvements to the security and vetting procedures 
surrounding the issuance of merchant mariner credentials. This effort 
has been bolstered with funding provided in fiscal year 2006 to 
restructure the merchant mariner licensing and documentation program by 
centralizing security and vetting functions in a new, enhanced National 
Maritime Center. Future efforts will focus on:
        <bullet> Working on an accelerated schedule with the 
        Transportation Security Administration to implement the 
        Transportation Worker Identification Credential (TWIC). A final 
        rule was published on January 25, 2007, establishing 
        application and enrollment requirements for the credential. TSA 
        and the Coast Guard are currently working on a second 
        rulemaking project regarding the technology requirements for 
        the card readers pursuant to the SAFE Port Act. A contract has 
        been awarded by TSA to Lockheed Martin for TWIC enrollment, 
        which is expected to begin soon.
        <bullet> Streamlining the credential application process. 
        Simultaneously with the TWIC final rule, the Coast Guard 
        published a Supplementary Notice of Proposed Rulemaking 
        proposing the consolidation of the four current Coast Guard-
        issued credentials into a single credential called the Merchant 
        Mariner Credential (MMC). This proposed rule works with the 
        TWIC rule, and is intended to streamline the application 
        process, speed application review time and lessen burdens 
        placed on mariners.
        <bullet> Continuing to explore technologies that will allow 
        Coast Guard boarding teams to access existing databases and 
        information sources such as US VISIT.
    Command, Control, Communications, Computers, Intelligence, 
Surveillance and Reconnaissance (C4ISR): C4ISR systems and operational 
concepts must be re-oriented and integrated with current and emerging 
sensor capabilities and applicable procedures. Similar to the nation's 
air space security regime, the maritime security regime must integrate 
existing C4ISR systems with new technologies and national command and 
control systems and processes. For example:
        <bullet> The Common Operating Picture (COP) and corresponding 
        Command Intelligence Picture (CIP) must continue to grow and 
        expand to federal, state, and local agencies with maritime 
        interests and responsibilities. The COP provides a shared 
        display of friendly, enemy/suspect and neutral tracks on a map 
        with applicable geographically referenced overlays and data 
        enhancements. The COP is also a central element of the 
        Deepwater solution, tying Deepwater assets and operational 
        commanders together with dynamic, real-time maritime domain 
        information. This link is essential to ensure effective command 
        and control of all available Coast Guard assets responding to a 
        myriad of border security threats.
        <bullet> Our ability to coordinate responses and provide the 
        correct response to the myriad of maritime and border threats 
        has improved greatly. The Coast Guard was instrumental in 
        drafting the Maritime Operational Threat Response plan (MOTR) 
        for use by all government agencies charged with responding to 
        threats within the maritime regions. The plan was signed by the 
        President and ensures threat response is fully coordinated both 
        inside DHS and outside with our partner agencies such as 
        Department of Justice (DOJ) and Department of State (DOS). We 
        use the MOTR coordination process on a daily basis to prosecute 
        illegal migration and drug smuggling cases, as well as the 
        resolution of radiation alarms and response to intelligence 
        reports of suspicious people. It has proven to be a model 
        process to coordinate U.S. government response across all 
        agencies
        <bullet> An expansive and interoperable communications network 
        is critical for maritime security operations and safety of life 
        at sea. In the coastal environment, the Coast Guard's Rescue 21 
        system will provide the United States with an advanced maritime 
        distress and response communications system that bridges 
        interoperability gaps, saves lives and improves maritime 
        security.
        <bullet> Hurricanes Katrina and Rita demonstrated the need for 
        robust and resilient port and coastal command and control. 
        Through test-beds at command centers in Miami, FL, Charleston, 
        SC and elsewhere; and joint harbor operations centers 
        established with the U.S Navy in Hampton Roads, VA, and San 
        Diego, CA; the power of partnership, technology and co-location 
        has been proven. The Coast Guard will continue working to 
        expand on these successes and export them to other ports 
        nationwide.

Conclusion
    Madam Chair, we are proud of the great strides we have made to 
enhance maritime security. I credit the innovation, resourcefulness and 
devoted service of the American people for much of our progress to 
date. The United States Coast Guard has a clear strategy with well 
understood goals and we continue to refine our tactics, techniques and 
procedures to attain those goals. We are actively pursing acquisition 
strategies that will deliver more capable and reliable operational 
assets and systems to the men and women of the Coast Guard.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Ms. Sanchez. I thank both witnesses.
    And I will remind each member that he or she will have 5 
minutes to question the panel. And with that, I will recognize 
myself for the questions I have.
    Admiral about a year ago, I was in Miami, and I had the 
opportunity on a recreational boat with friends, and they were 
telling me that, if they would go off--I think it was to 
Bermuda for the weekend, and come back in, what they are 
technically supposed to do when they come back to Miami is 
motor up--now, they are one of these people that has one of 
those little slips on some condo right on the coast in Miami, 
that they would motor up one of the rivers and go to a certain 
point, maybe about a mile or two miles up, get out, make a 
phone call, talk to officials they said would be at the 
airport, the Miami Airport, tell them they had come back in, 
and that then they were requested to photocopy their passports 
and send that by mail, you know, the next Monday or what have 
you.
    They said, however, nobody does it. I mean, the reality is, 
people go out, and they come back, and they go straight to 
their slips. And they don't motor up the riverway. They don't 
make the phone call. They don't go back into the office on 
Monday morning with all their passports, and photocopy them, 
and send them off to the people at the airport.
    And they said, you know, you can just as easily go to 
Bermuda, and pick somebody up there, and bring them in, and 
nobody will ever know. So my question to you is: Is that true? 
Is that the way it works? And is that happening in other areas?
    I mean, if somebody gets into Catalina, do they have a free 
ride into California because that is just, you know, 16 miles 
away from where I live? And what kind of resources do you need? 
Or what do you envision you need to do in order to get this 
under control? Because it seems to me like that is a big hole 
in our border.
    Admiral Pekoske. Yes, Madam Chairman. You have identified a 
very significant issue for us. If you look at the global 
maritime security regimes in place right now, the only vessels 
that are required to give us advanced notice of arrival before 
they come into the United States are those that are 300 gross 
tons and larger, basically our largest commercial ships calling 
in our ports.
    We recognize that the vast number of smaller vessels, 
recreational vessels, small passenger vessels, fishing vessels, 
that operate in our ports, that operate internationally, as you 
described, that operate in our fishing grounds just off our 
country, do not have the same reporting requirements.
    We are looking very carefully at that issue. In fact, we 
plan to hold a seminar in June to discuss what the various 
interest groups, from the fishermen, to the recreational 
boaters, to the organizations that represent their interests. 
What we might do, to be able to provide a greater degree of 
awareness of those vessels, move right now--and I mentioned in 
my opening statement that one of our strategic priorities is to 
improve our awareness.
    We do not have the level of awareness that we desire for 
all the vessels that operate in the maritime arena. We clearly 
need to do that. So you have identified an issue that we are 
working very hard on, and I think you will see more on that 
over the course of the next several months.
    Ms. Sanchez. Now, these friends of mine also said that 
there is a Coast Guard patrol boat, about one, in the port 
during the weekend, where there are many, many vessels, you can 
imagine. It was pretty interesting. And they said you may, you 
know, once in a while get stopped, but it is incredibly rare, 
and that is why they thought anybody could really get into our 
country this way.
    What is the process for handling people trying to enter the 
country illegally when they are picked up by the Coast Guard?
    Admiral Pekoske. When they are picked up by the Coast 
Guard, Madam Chairman, we pick up. As I mentioned in our 
project with biometrics in the Mona Pass, if we have the 
capability--and we will, over the course of time, be able to 
move this biometric project to other parts of the country--we 
identify them, and then we work closely with our counterparts 
in Customs and Border Protection, the Border Patrol, 
citizenship and immigration services, to come to a mutual 
agreement as to what the disposition of those persons would be.
    One of the other issues that you highlighted--I mentioned 
that we need to improve our awareness. What is also very 
important for us is to improve and increase our presence on the 
water. The Coast Guard, as you know, has a very limited number 
of vessels on the water. Those vessels are awareness platforms 
in and of themselves, but they are also presence platforms that 
deter illegal behavior, and certainly response platforms, when 
you do detect it, to be able to prosecute it.
    Ms. Sanchez. So in Miami, if you boarded a recreational 
boat, and you found people whose documents didn't coincide with 
being into the country, you would land, where--you would take 
them, what, to the airport, would be the nearest place to take 
them to somebody to take them in custody? Or do you have a 
place there? Or what is the process there?
    Admiral Pekoske. Ma'am, the process is that we deal with it 
on a case-by-case basis. It depends on where we interdict the 
individuals and then what, either Immigration and Customs 
Enforcement, customs and border patrol, or the Border Patrol 
want to do with those individuals. And what we do is we 
coordinate with them over the radio, make those arrangements 
before we come into port.
    Oftentimes, we will come right into our base in Miami 
Beach.
    Ms. Sanchez. Thank you very much. And I see my time is up.
    And I now recognize the ranking member from Indiana for 5 
minutes.
    Mr. Souder. I thank the chairwoman.
    I want to make a brief comment for the Coast Guard. I know 
we will be following this up as we go into future hearings, 
because, as we have success in the land border, presumably more 
of this is going to move to the water. In narcotics, the 
Bahamas, the upper gulf, where we have historically not focused 
very much. British Columbia has become a narco-province. If we 
could control the north border there, it is going to move into 
the San Juan.
    On terrorism, if indeed, we do increasingly, and we have 
had tremendous improvement on OTMs, its greatest potential is 
through the north border. And that means Saint Lawrence River. 
It means the Lake Huron islands, where you can literally swim 
for 2 minutes and be from one island to the other.
    And the challenges of the Coast Guard are to ramp up, 
because, as we focus on southwest border, the question is: Are 
you ramping up to prepare for the movement? So we don't go, 
``Oh, what happened over here?'' And we don't do a balloon 
effect, moving it to water, and the north border is going to 
become vulnerable as we do the south border.
    You can't put all of your eggs in any one place. Just like 
fixing eastern Arizona is good, but it isn't the only--not that 
it is fixed yet, but making progress in eastern Arizona moves 
it along the border. That has been one of my concerns with the 
Boeing project, is that you have a ``A.'' But while you are 
doing ``A,'' you are doing ``B,'' and you are preparing for 
``C,'' because overall we need a holistic strategy.
    So I presume that pressure is going to get even greater on 
the water, which is why we have a little bit of lead time to 
work through Deepwater, but it is absolutely essential--not to 
mention the whole eastern Pacific question.
    But I wanted to get to Chief Aguilar, if I could, for a 
couple of questions.
    First, I remember when you were stringing together your own 
portable cameras, putting together in the Tucson sector, wich 
Boeing is getting lots of millions to do. You were a very 
innovative leader early on in trying to figure out how to do 
this.
    But part of my concern, as I mentioned in my opening 
statement, about this escalating level of violence and what 
your response is going to be, and I feel that right now we have 
sent a double chilling message. One is, to our own Border 
Patrol agents, they are afraid of being prosecuted, what 
actions they can take. We have more or less told the other side 
that they can only shoot when fired upon and that our Guard 
isn't armed.
    How do you propose to deal with this? And what message can 
we send to our agents? Let me ask a particular thing in the 
case of the two agents that are imprisoned. Had that been 
chemical, biological or nuclear weapons, and this person was 
trying to flee the border, and his capture may have taken down 
a whole cell that was going to blow up thousands of people, 
were they prohibited from shooting unless fired upon?
    Chief Aguilar. The men in which you pose a question, 
Congressman, is kind of difficult to answer, and for the 
following reason. Our officers are not constrained in any 
matter of firing upon an individual when that individual is 
posing a threat to the officer or an innocent third party.
    Mr. Souder. What about to the nation?
    Chief Aguilar. Absolutely. Absolutely. Had we known that 
that was a WMD in that van, then the actions of those officers 
should have been and would have been, I assure you, very 
different.
    In the case of these officers, they did not know what was 
in the van. They had made a stop with an individual. The 
individual was running.
    Mr. Souder. Presumably he is not bringing a van over and 
running because he is innocent. The question here is, if you 
know there is nothing--in other words, if one individual is 
walking across and doesn't appear to have anything on them, 
which even itself is an assumption--why does the assumption go 
to the person who has committed a violation of the law?
    I am not proposing shoot to kill, by the way. I am 
proposing disable so they can't escape, which is a normal law 
enforcement technique that you would use in domestic 
situations.
    Chief Aguilar. Well, Congressman, I hope I understood your 
question correctly. But if I did, I do not know of any one law 
enforcement agency that would shoot to disable in the situation 
such as what these officers faced. We make all attempts to 
apprehend, given the situation that we are facing. Our officers 
are very familiar with the policy.
    If there is a threat against the officers, an innocent 
third party, or, as you stated, against the nation, absolutely, 
they are authorized to take deadly force. An escalation of 
force is what our officers encounter everyday. Our people, day 
in and day out, perform a very, very dangerous job, a very 
volatile job, and a job that demands split-second decisions.
    One of the things I looked at, Congressman--for example, I 
received the invitation to come to this hearing on February the 
7th. Since February the 7th, there have been 12 assaults on our 
officers. There has been a very serious shooting against our 
officers, and we have apprehended over 34,488 pounds of 
marijuana. That is just since I received the invitation.
    In all of those, the potential for violence was there. In 
none of those instances were our officers in any way 
constrained to take deadly force had the need been identified 
by those officers. This is the border, volatile, dangerous.
    Our people are trained; our people are equipped. And they 
had the intermediary weapons to do what they needed to do 
before they take deadly force actions, if, in fact, that is the 
determination made by the officer at the point that the 
incident is occurring.
    Mr. Souder. The problem is the uncertainty.
    Chief Aguilar. I am sorry?
    Mr. Souder. The problem is the uncertainty, what you 
don't--
    Chief Aguilar. Absolutely, yes, sir. And unfortunately, 
that is a part of our job. That is a part of our job.
    Congressman if you don't mind, I will just address one 
other thing, because I think it is very important that you 
brought up, and that is the morale of the agents, the impacts 
on the agents. I travel our border quite a bit, because I am 
very interested in what our officers are feeling, what they are 
reading, what they are seeing from the media, from the American 
public.
    I can assure that the agency population understands the 
situation that we are facing as an organization with these two 
officers. Criminal actions were identified by a jury. 
Prosecutorial actions were taken by our United States attorney. 
And our officers on the line understand this. They do not feel 
constrained. They do not feel as if they will be prosecuted for 
taking the appropriate action.
    Ms. Sanchez. I will now recognize the chairman of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairman. I 
appreciate the testimony of our two witnesses.
    Chief, can you tell me if we now have the capacity to bring 
the 6,000 agents online within 2 years?
    Chief Aguilar. Yes, sir. I feel certain about that. We have 
a very professional staff that is actually recruiting, hiring, 
and in the process of training the 6,000 net new agents that we 
will bring on board by the end of calendar year 2008. Of 
course, they will be hired over that 2 1/4-year period.
    Mr. Thompson. Now, is that the stack and level that you 
feel you need? Or do you feel that we need more than 6,000 
agents?
    Chief Aguilar. At the present time, Congressman, the target 
level we are shooting for is 18,319. We feel that that is 
appropriate because of the technology and the infrastructure 
that we are getting as a part of SBInet. That force 
multiplication effect of technology and infrastructure is such 
that we feel that 18,319--we have got an exact figure?
    Mr. Thompson. So, excuse me, would the 6,000 bring you up 
to 18,000?
    Chief Aguilar. Yes, sir.
    Mr. Thompson. Okay.
    Chief Aguilar. Yes, sir. We will be at 18,000 by the end of 
calendar year 2008. That, in combination with the technology 
and infrastructure, should suffice.
    Mr. Thompson. All right. Two things, then. Can you provide 
the committee with your timetable for bringing those 6,000 
people on board?
    Chief Aguilar. Yes, sir.
    Mr. Thompson. Can you also provide us with how much it will 
cost us to train each agent, each of those 6,000 people? There 
has been some discussion in the past about how much the 
training actually costs.
    Chief Aguilar. We can provide you with that, yes, sir.
    Mr. Thompson. And if you can break it out, not the lump 
sum, but the sum total.
    Chief Aguilar. I understand. Yes, sir, we will provide you 
with it.
    Mr. Thompson. Thank you.
    Admiral I mentioned our National Security Cutter. What 
should the Coast Guard have done differently to prevent that 
situation from occurring? And if something we didn't do, have 
we instituted a plan that would not let it occur again? I hope 
you understand where I am going.
    Admiral Pekoske. Yes, sir. And we are focused on ensuring 
that this never happens again. In fact, the commandant has a 
blueprint for acquisition reform that we hope and we are 
convinced will ensure that these problems will not reoccur in 
the Deepwater fleet or in any other of the major acquisitions 
that we are doing.
    In looking back, some of the things that perhaps we should 
have done that we didn't do--and we have since done these 
things--is, one, designate our chief engineer as the technical 
authority for the project. That has since been done.
    I am the sponsor for the Deepwater project; one of my 
colleagues is the technical authority. We meet on a regular 
basis with the program executive officer. So that high-level 
interaction is occurring on a regular basis, and those 
conversations are very frank.
    The other thing, sir, that we recognize and we are working 
very hard to address is, we need to improve the size and the 
professionalism of our acquisition staff. This is a very, very 
complex acquisition. It was originally conceived as a system of 
systems approach.
    We think that that idea at the beginning was the right 
idea, but now that we are in the production phase of this 
project, we need to take an approach that looks at the prime 
vendor that we are dealing with to produce those assets and 
have a better discussion, a franker discussion with them, a 
clear discussion with them.
    Mr. Thompson. Well, I think one of the things that some of 
us are concerned about is that the Coast Guard could not even, 
in this situation, when they identified something that was gone 
wrong, under the procurement, they really didn't have the 
authority to change it or stop it. And so what you are telling 
me is, we have now put someone in place with the authority to 
stop construction or anything if there is a question from the 
Coast Guard perspective?
    Admiral Pekoske. Yes, sir. When that person raises his or 
her hand and says, ``This is not right,'' we stop, and we go 
back and reassess. And it goes all the way up to the 
commandant. So it is not resolved at some lower level; it goes 
up to the boss. And then he makes a judgment as to how we 
should proceed.
    Mr. Thompson. Chief, one last thing. You mentioned SBInet--
    Chief Aguilar. Yes, sir.
    Mr. Thompson. --giving you the force multiplier. Can you 
share with the committee how much actual involvement that you 
have or your department have in this procurement?
    Chief Aguilar. Yes, sir. SBInet is a part of Customs and 
Border Protection. It is actually a component of CBP. It is 
headed by Mr. Greg Giddens, who is a director for purchase for 
the acquisition portion of SBInet and working with Boeing.
    But very importantly, the actual stand-up director before 
Mr. Greg Giddens was my full deputy, Deputy Chief Stevens, who 
actually stood up this department. We handed off to the 
professional in the area of acquisition. He is now managing. 
His full deputy is now one of my chiefs in the field, so that 
we give the operational input into that very important 
acquisition project.
    The program management office, which is a subset component 
of the overall SBInet, also has one of my Border Patrol agents, 
very high-ranking division chief within headquarters Border 
Patrol, as a full deputy. So the inclusion of the operators is 
absolutely essential.
    We have learned. We have learned from the Coast Guard. We 
have learned on the acquisition portion of this. And I feel 
very confident that the operators will be at the helm, if you 
will, of this effort.
    Mr. Thompson. Thank you. And my time is gone, but I look 
forward to more discussion around SBInet as we go forward, 
because we are just beginning the process, Madam Chairman. And 
I am sure at some point we will kind of zero in on that project 
specifically, but it is a big project.
    Ms. Sanchez. I think we specifically have it as an item of 
this subcommittee's jurisdiction that we want to take a look 
at.
    Mr. Thompson. Thank you.
    Ms. Sanchez. The chair will now recognize other members for 
questions they may wish to ask the witnesses. And in accordance 
with our committee rules and practice, I will recognize members 
who were present at the start of the hearing, based on 
seniority on the subcommittee, alternating between the majority 
and the minority. And those members coming in later will be 
recognized in the order of their arrival.
    With that said, I would now like to recognize the gentleman 
from Florida, Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I appreciate it 
very much.
    Chief, how far away are we from, as you refer to in your 
written statement, the ambitious goal of gaining effective 
control of our nation's borders?
    Chief Aguilar. SBInet, Congressman, is basically moving 
forward at a rate that we feel that, by 2012, we will have the 
southwest border. This does not mean that this will be to the 
exclusion of the northern border, because, of course, we will 
be working on the northern border, also, but that is the 
objective of SBInet, to get us that operational control of the 
southwest border.
    We will commence on the northern border. I will share with 
you that, on the northern border, SBInet will also be 
concentrating. And the backbone up there, more so than the 
southern border, will be heavy technology, because of the 
vastness and the remoteness of our northern border with Canada.
    Mr. Bilirakis. Thank you. Is securing the southwest border 
simply a question of providing increased funding to hire more 
Border Patrol agents?
    Chief Aguilar. No, sir. What we have always put forth, as 
operators within the Border Patrol, is that to bring 
operational control to any section of our nation's borders is a 
proper mix of technology, personnel and infrastructure. Now, 
personnel is absolutely key, because tactical infrastructure 
and technology wouldn't do us any good if we couldn't be 
responsive to any kind of incursion that occurs.
    It is that proper mix that we need to literally design for 
every piece of that border that we are approaching. Area of 
operation, for example, that proper mix would be very different 
from what we would be doing in California, because of the 
terrain that we are addressing, the infrastructure that is on 
the south side. So it is a very specific system that we apply, 
specific to the area of where we are focusing on.
    Mr. Bilirakis. With regard to the Border Patrol agents, 
what is the average salary of the rank-and-file Border Patrol 
agent?
    Chief Aguilar. At the journeyman level, our Border Patrol 
agents are GS-11s. Of course, they are GS-11s and earning 
uncontrollable overtime, administrative and uncontrollable 
overtime. At the present time, we do assign them overtime.
    Congressman I would rather get back to you on the average 
time. Because of those overtime applicabilities, I would rather 
get you and accurate number. So if you don't mind, I will get 
that for you.
    Mr. Bilirakis. Sure. Are you having difficulty retaining 
and recruiting agents?
    Chief Aguilar. Recruiting is a little bit of a challenge, 
but we are on track to get us to where we need to get for the 
6,000 net new. That we feel very confident about. Because of 
the enhanced recruiting requirements, we are looking to areas 
that we have never looked at before and conducting our 
recruitment processes.
    Let me give you an example. We are looking at places such 
as NASCAR. We are looking at places such as a rodeo circuit. We 
have got a chief, for example, on the northern border, Chief 
Harris from Spokane, who is actually a bull-rider. We are using 
him as a means of reaching out to this population, if you will, 
of individuals that are a sturdy breed that we feel they need 
to be in order to survive on the border out there.
    So, yes, but we are going the extra mile, and we feel 
confident that we can do it and we will do it.
    Mr. Bilirakis. Okay. Two more questions. Do you agree with 
the comments of Secretary Chertoff that he made before our 
committee last Friday, that Border Patrol agents have the 
necessary authority and resources to do their job effectively?
    Chief Aguilar. Absolutely, yes, sir.
    Mr. Bilirakis. Do you think the average Border Patrol agent 
feels that way, as well?
    Chief Aguilar. I believe so. Does everybody have the 
system, if you will, of SBInet that Tucson is experiencing 
right now? No, because that is evolving. We are incrementally 
adding that. But as far as tools such as weaponry, such as 
vehicles and things of that nature, yes, sir.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I appreciate 
it.
    Ms. Sanchez. I had a question with respect to your 
recruitment.
    Chief Aguilar. Yes, ma'am.
    Ms. Sanchez. What I find with my law enforcement officers, 
especially with the war in Iraq, and the recruitment that is 
going on by our military, and the inability for us to graduate 
from our high schools, high school graduates who can actually 
pass academies and the tasks, that there is a lot of lateral 
movement going on between law enforcement, at least in 
California, meaning people are stealing from each other.
    Do you find that in any case that you are trying to take 
from other law enforcement agencies, which are already 
impacted?
    Chief Aguilar. We are not doing it intentionally, but that 
is, unfortunately, happening, yes. We are recruiting some of--
the state, municipal and county law enforcement entities are, 
unfortunately, losing their officers to us.
    Now, that also happens in our case, where DEA, FBI, CIA, 
everybody else is looking at our pool of very well-trained 
officers that they can go to and take into their ranks. ICE, 
for example, is going to grow this coming year. We fully expect 
that some of our officers will go over to the ICE ranks, which 
is not a bad thing. That is actually a good thing.
    Ms. Sanchez. And are you finding that, in particular, the 
lateral movements that you are seeing are of more seasoned 
personnel coming over? Or are you seeing that you are taking 
entry-level people?
    I am just asking, because you are growing so fast that, not 
only do you have to worry about coming in from the bottom, but 
you have to worry about what you have got at the management 
layers and the seasoned people in between.
    Chief Aguilar. You have hit on something that is of very, 
very high interest to me and my executive staff within the 
Border Patrol, because we have one band of officers, if you 
will?this is what we refer to the band of first-line 
supervisors, that is absolutely critical to the United States 
Border Patrol.
    That is the critical link between that agent in the ground 
that finds himself or herself out in the middle of the night, 
in the middle of nowhere, having to make a decision. And that 
supervisor is the one that is going to give the input and the 
clarity to how that officer conducts his or her job.
    We are finding ourselves promoting people that have been in 
service at a younger rate. When I came into the Border Patrol, 
if you were promoted to first-line supervisor anywhere below 9 
years, you were considered a riser. Today, we are promoting 
people with 3 years, 4 years of service.
    And we are also digging into that band and promoting into 
the upper echelons of the Border Patrol, but we are taking some 
actions to mitigate that situation. As an example, OMB has 
given us the ability to now bring back rehired annuitants, 
individuals that have retired that we now bring back, not as 
full officers, but as mentors for that band of officers. We are 
bringing back retired trainers or retired Border Patrol agents 
as trainers to assist us with that kind of a situation.
    So it is a challenge. We are looking at it. And we are 
working with a situation, and we feel that we are doing 
everything that we can to mitigate that potential for a 
situation where our balance of supervisors to agents is not 
enough.
    Ms. Sanchez. Thank you, Chief.
    I would like to recognize now the gentleman from Texas, Mr. 
Cuellar, for 5 minutes.
    Mr. Cuellar. Thank you, Madam Chair.
    And to both of you, thank you very much.
    Being from Laredo, being from the border, let me go ahead 
and focus on the fence issue. As you know, the issue of the 
border fence has been a subject of debate, not only in 
Congress, but in, I think, a lot of members' districts that we 
have. Let me go ahead and just focus on what you said.
    Fencing is necessary if it makes sense, I believe you said 
something like that. Let me focus on what makes sense.
    Under what circumstances is fencing useful to the Border 
Patrol mission? What are the specific circumstances?
    Chief Aguilar. Specifically, to the Border Patrol mission, 
a fence becomes very critical in the urban area of operation. 
The reason for that is it serves two purposes. One is a 
deterrent for those people looking to cross into the United 
States, whether they are illegal immigrants or people trying to 
bring narcotics into the United States. It creates a deterrent 
situation.
    In addition to that, it also acts as an obstacle, so that 
people that are going to move into our country have to cross 
that fence. We literally slow them down. It gives us a greater 
opportunity to make the apprehension.
    Very quickly, in an urban environment, Laredo, River Drive 
Mall, for example, I worked it many, many years ago. In the 
absence of a fence--and we are not saying we need one there--
but in the absence of a fence, they will cross a river and go 
up to River Drive Mall. They are there literally within 
minutes. Under 3 minutes, they can go onto River Drive Mall.
    Would a fence make sense there? It may, but one of the 
things that we are looking at is this virtual fence that we are 
talking about, whereas opposed to a physical pedestrian fence, 
we have ground surveillance radar, which is being actually used 
right now in Tucson, Arizona, whereby an officer sitting behind 
a screen will actually be able to identify that an incursion 
across that river has occurred, be able to tag and track that 
individual as he or she moves towards River Drive Mall.
    That kind of fence is the kind of technology we are looking 
to potentially implement.
    Mr. Cuellar. Or if you get rid of the carrizo--
    Chief Aguilar. The carrizo, yes, sir--
    Mr. Cuellar. And what is the status on that? I know that I 
added some language to the last homeland security bill that we 
had. What is the status? I know there was an issue of what 
herbicide to use to make sure that we keep the Rio Grande safe, 
and I am in full agreement with that. But my understanding, 
talking to Carlos Marin from International Boundary Commission, 
that you all have reached an agreement.
    Because, I mean, if you get rid of that carrizo--and I know 
it is--you know, you find it some areas of the border, in some 
areas, but I know that, in the Laredo area, for example, if you 
get rid of that, you provide a line of sight that would be 
tremendous to your men and women working there.
    Chief Aguilar. Absolutely. Yes, sir. And we are very 
appreciative of the fact that you put that into language, 
because it has now given us the ability to take a look at 
actually taking actions on that. Of course, because of the 
environment and the sensitivities associated with it, we need 
to be very careful.
    Our science and technology branch of DHS is actually 
looking at what is known as a biological agent. It is a little 
animal that actually eats away this non-indigenous carrizo 
cane. It is going through the study and through the research 
right now.
    If we can do that, that will be a tremendous solution. In 
the absence of that, we have moved forth, as we have at the 
gravel pit in Laredo--and, by the way, I know Laredo, because 
that is where I started off my career--
    Mr. Cuellar. 1978?
    Chief Aguilar. Yes, sir. And I know that carrizo very well. 
At that gravel pit area, we actually cleared that carrizo out 
of that point there, and it is helped tremendously.
    So we will continue moving in that direction of clearing 
the carrizo cane as much as we can, until we get the solution, 
such as possibly that biological agent that we are referring 
to.
    Mr. Cuellar. Okay. Going back to your circumstances, urban 
area is one. What is another circumstance that would be good? 
You can just list them.
    Chief Aguilar. Yes, sir. Well, an urban area is more than 
likely where we are going to apply it. That is where most of 
our fencing is right now. If there is an area where 
infrastructure is being built up on the south side, new ports 
of entry, things of that nature, where there are some areas, 
especially in Texas, we would look to basically build fence 
around the immediate ports of entry areas.
    There is another more important utility of vehicle barrier 
to keep vehicles from driving. As you know, in Placido, 
vehicles actually drive across the Rio Grande, and they go 
straight into our highways of egress. They keep them from 
driving across the Rio Grande in very remote areas.
    So fencing is actually going to be a small portion of the 
2,000 miles that is operationally required. Does it add up to 
700 miles? Potentially could, 370 right now. We know it 
absolutely makes sense, and that is what we are building 
towards.
    Mr. Cuellar. Do you have--
    Ms. Sanchez. The gentleman's time has expired.
    Oh, I am sorry.
    Mr. Cuellar. I have 7 seconds. But could you give me, in 
the last 7 seconds, can you turn in the specific--I still want 
to know the specific circumstances where you think a fence is 
required. If you can just turn that into me and the committee, 
I would really appreciate it.
    Chief Aguilar. Yes, sir. Definitely.
    Mr. Cuellar. Thank you.
    Ms. Sanchez. I will give you more time on the second round. 
How is that?
    We will recognize the gentleman from Texas, Mr. Green, for 
5 minutes.
    Mr. Green. Thank you, Madam Chair.
    And I also thank the chairman of the full committee for 
being with us today.
    Thank you, Mr. Ranking Member, as well.
    And I thank the two outstanding witnesses who are here.
    If I may, I would like to ask--well, let me start with a 
comment for the admiral. Our records indicate that, on a 
average day, you save 15 lives, assist 114 people in distress, 
protect $4.9 million in property, interdict 26 illegal 
immigrants at sea, conduct 82 search and rescue missions, seize 
$2.4 million worth of illegal drugs, conduct 23 waterfront 
facility safety or security inspections, respond to 11 oil and 
hazardous chemical spills, and you board 202 vessels.
    I think you should be commended, if that is a typical day 
for you, because I think that is outstanding work. And the 
record ought to reflect that we salute you for this.
    A question for you--and I ask that you not answer right 
now, but at the end of my comments and questions. But the 
question for you will deal with the fleet that you have of 123-
foot cutters, 15 percent of the cutter fleet, as I understand 
it, and it is right now dry-docked. So I would like for you to, 
if you would, give a comment on what the situation is with 
those cutters.
    To Chief Aguilar, I compliment you, as well. You have 
12,000 agents, and you are about to double in size at some 
point, and you have a very large border that you are 
patrolling.
    But I ask, if you would, to shed some additional ocularity 
on this concern, with reference to the agents that are involved 
in the shooting. And my first question to you, sir, is: Is 
there a policy that prohibits you from defending your officers 
if you believe that they are right?
    Chief Aguilar. That prohibits us?
    Mr. Green. You. You.
    Chief Aguilar. Or the organization--
    Mr. Green. Yes, sir.
    Chief Aguilar. --defending our officers? No, sir.
    Mr. Green. And would you defend your officers if you 
thought they were right?
    Chief Aguilar. Yes, sir.
    Mr. Green. Were you briefed on this case of the shooting?
    Chief Aguilar. Of the Compean-Ramos case?
    Mr. Green. Yes, sir. Were you briefed?
    Chief Aguilar. Personally, no.
    Mr. Green. Did you receive any information concerning this 
case, such that you can claim that you have some understanding 
of what occurred?
    Chief Aguilar. Yes, sir. Every time that we have a high-
profile instance such as this, we receive what are known as 
significant incident reports. We depend on our chiefs on the 
ground to actually handle and manage those situations.
    Mr. Green. And pursuant to your briefing and your 
understanding, if you had thought the officers were right, 
would you speak up on behalf of the officers?
    Chief Aguilar. Yes, sir, as we have in the past.
    Mr. Green. And in this case, have you made comments with 
reference to your believing that these two officers were right 
in doing what they did?
    Chief Aguilar. No, sir, we have not.
    Mr. Green. May I assume that, because you have not made 
comments, that you think that the finding of the court is an 
appropriate finding?
    Chief Aguilar. The assumption that can be made, 
Congressman, by yourself and the American public is that I am 
confident in the investigation. I am confident that the 
investigation that was handled by the Department of Homeland 
Security inspector general. I am confident in the judicial 
system and the trial that was held and the outcome, yes, sir.
    Mr. Green. And if you discovered that something 
improprietous took place that changed your opinion, would you 
then call that to our attention?
    Chief Aguilar. I would call it to the immediate attention 
of the proper authorities in order for a follow-up, yes, sir.
    Mr. Green. Have you at any point discovered anything that 
would cause you to report to the proper authorities that your 
opinion has in some way changed?
    Chief Aguilar. No, sir.
    Mr. Green. Now, with reference to the case itself, were the 
only witnesses to this persons who were not citizens of the 
United States? Or did we have some United States citizens to 
witness this incident? Citizens would include Border Patrol 
agents.
    Chief Aguilar. Right. Congressman, let me just say, of 
course, that I was not there, and that is a given. What I can 
give you is my understanding on the case on the readings of the 
incident that I received.
    Mr. Green. I would like for you to do that. And then, 
Admiral, I would like for you to answer the question that I 
posed, and I will yield back the balance of time that I have 
afterwards. Please do.
    Ms. Sanchez. The gentleman has no time, so as expeditiously 
as you may answer his question.
    Chief Aguilar. Answer the question? As I understand the 
situation, and as was discovered in court, the two officers 
were by themselves. One illegal alien, Mr. Aldrete, the 
individual that was shot. Response to the situation was such 
that at least three other officers found it post-incident. That 
I know of, there is no other witness at the time of the 
shooting.
    Admiral Pekoske. Thank you, sir, for your question on the 
123-foot patrol boats. As you know, sir, we had eight of those 
vessels home-ported in Key West, Florida. I flew with the 
commandant down to Key West to talk with every single one of 
those crews, when the commandant made the decision to take them 
out of service.
    The reason he took them out of service was a very simple 
fact that those vessels we didn't feel could any longer safely 
operate in the very same conditions as the vessels they were 
trying to interdict. And so we were very concerned that we 
would have to lower their operating parameters to the extent 
where they would be operationally, totally ineffective.
    They have all been taken out of service. They are all up at 
our yard in Curtis Bay, Maryland, in storage. What we have done 
to bridge that gap in the near term is all the crews are still 
assigned to those cutters. And what we have done with each one 
of those eight crews is we have married them up with another 
crew on another patrol boat in Florida.
    And so all of these patrol boats are now running dual-crew 
operations. So we have gotten the full benefit of having all of 
those people still assigned to those ships still able to serve, 
using existing platforms. That is clearly a temporary measure, 
because we cannot run these cutters at that pace for the long 
term.
    One of the other things that we did immediately was--we 
have been privileged to have five of the Navy 179-foot Patrol 
Coastals in the Coast Guard inventory for several years. We 
were due to return those to the Navy in 2008.
    The commandant asked the chief of naval operations if we 
could retain three of those five vessels, and the CNO agreed to 
that. So we have a three-year extension on three of those five 
vessels, which will bring it to 2011.
    Another remediation effort that we have undertaken is, we 
have looked at other vessels we have in the Coast Guard 
inventory that are of larger size, that can perform the same 
function that these patrol boats performed, and we are asking 
them to perform that mission.
    But that has other mission impacts throughout the rest of 
the service, which we don't want to incur over the long term, 
because it will affect our other mission performance.
    What all of this highlights is?and one of the questions 
before was, how long will it take you to have adequate 
resources for your required border security? The answer from 
the Coast Guard is, that will take us until 2030. And that is 
why the Deepwater project is so very important to us, and that 
is why we need, inside the Coast Guard, to ensure we get this 
right.
    Thank you.
    Ms. Sanchez. The chair will recognize the gentlewoman from 
California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman.
    And let me start by thanking both of you for your service 
to our country. It is a difficult job, and clearly you have 
made our country proud of your service.
    And I hope, also, that you will pass on our thanks to the 
men and women in your service. It is a tough job that they do, 
and our job is oversight. But I think it is important to also 
remember how much we appreciate what they are doing.
    Chief, I know that you needed to summarize within 5 
minutes, but I wanted to specifically thank you for your 
written statement, and specifically your statement that, to 
effectively secure the border, we must reform our immigration 
system, and that we need comprehensive immigration reform, in 
order to make your job more viable.
    And I think the Congress is going to take that advice very 
seriously and try and put that comprehensive reform measure in 
place, while certainly continuing to support your very 
important efforts at the border and the brave work that your 
men and women do.
    I was interested, Admiral, in your comment about the 
biometrics that you are using. And I am wondering, Chief, is 
that biometrics system available to your agents when you 
apprehend and return? Are you routinely taking the biometric 
information from everybody you apprehend?
    Chief Aguilar. Yes, ma'am. In fact, I believe it is the 
exact same system that we are procuring, yes.
    Ms. Lofgren. Very good.
    Chief Aguilar. Upwards of 95 percent, 96 percent of all the 
1.1 million apprehensions that we make are, in fact, captured 
biometrically on our--
    Ms. Lofgren. And that is all 10 fingerprints?
    Chief Aguilar. Yes, ma'am, now it is.
    Ms. Lofgren. Very good. Thank you very much.
    I am interested, I am sure, Chief, that you are aware that 
the bipartisan U.S. Commission on International Religious 
Freedom issued a report just last week, saying that the 
department is falling short in the protection of asylum-seekers 
under the expedited removal procedures and also expressed 
concern that asylum-seekers are housed with criminals.
    I am wondering--clearly, you have a very difficult task 
ahead of you, but I am wondering if you can share with us what 
efforts you are making to address the issues raised by the 
commission last week, in terms of who makes the decision, what 
kind of training is being provided to your agents so that they 
can separate the scammers from the real asylum-seekers.
    Chief Aguilar. Yes, ma'am, a very important point. And I 
would like to begin, first of all, by addressing the national 
report. And I read about it in The Washington Post over the 
weekend, also.
    As we know, some reports are written, and the terminology 
leaves a little bit to be desired. I would like to point out 
that the report that was written and was actually in The 
Washington Post related to ports of entry.
    Ms. Lofgren. Not to your agency?
    Chief Aguilar. Not to Border Patrol.
    Ms. Lofgren. I thank you for that clarification.
    Chief Aguilar. There are several here. And, in fact, one of 
the footnotes actually says, ``Our file samples were drawn from 
periods prior to August 2004, so this report analyzes only the 
actions of inspectors, not Border Patrol agents.''
    Ms. Lofgren. Well, I will reserve my question for the 
inspectors at the port of entry at a later date then.
    Chief Aguilar. But we do deal with credible fear, and I 
would just like very briefly to touch on that. Our officers 
engaged in processing of aliens coming in from countries where 
they may be a credible fear follow a very stringent processing 
guideline. And they are required to go through training.
    At the moment that there is any kind of indication of 
credible fear for political asylum, they are then handed off to 
experts within the asylum program, that then take on that for 
the rest of the credible fear and asylum process.
    Ms. Lofgren. One final question before my time expires. In 
the last Congress, we were advised in this committee that there 
was a problem in repatriating illegal entrants to certain 
countries, for example, to China and to others. Can you update 
us on the status of that issue now?
    Chief Aguilar. Yes, on some of them, because some of them 
we are still working on. For example, China, the Secretary is 
working very aggressively and working with China to get them to 
accept their repatriated citizens back into those countries.
    In other areas, we have been very successful in working 
with South Central American countries that in the past were not 
very efficient in issuing travel documents back into their 
country. We have actually been very successful in that.
    As an average example, I will tell you that we used to 
return OTMs on an average of about 89 days, 86 to 89 days. We 
have now reduced that on the average to about 16 to 19 days 
from the point of apprehension.
    Ms. Lofgren. Well, that is very interesting. And I wonder 
if, subsequent to this, if you could just provide me in writing 
or the committee in writing the list of those countries that 
you consider still outstanding, so that we might spend some 
attention on that diplomatic effort.
    And, again, I just want to thank you and the men and women 
for putting your lives on the line and really, from what you 
are telling us, making significant process in securing the 
border. And I give you much credit, both of you, for that.
    Thank you very much.
    Chief Aguilar. Thank you.
    Ms. Sanchez. Chief, I would assume that that does not 
include people who have criminal backgrounds that you have 
stopped, with these countries taking them back so quickly. Is 
that correct?
    Chief Aguilar. I want to make sure I understand the 
question correctly, ma'am.
    Ms. Sanchez. When you apprehend and you are trying to 
return these people to their country, what happens is they have 
had some sort of a criminal background, either in their home 
country or our country? Those are much more difficult to 
return, I would assume, to these countries?
    Chief Aguilar. They present a bigger challenge than just 
your run-of-the-mill illegal entrant into the United States, 
yes, ma'am.
    Ms. Sanchez. Okay.
    I now recognize the gentlewoman from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. I thank the distinguished chairwoman, and 
I thank my full committee for this hearing and this 
subcommittee, as well.
    As all of the members have said, let me thank both of you 
distinguished gentlemen for your service.
    And, Admiral, might I acknowledge again, as we have done 
over and over again, the work of the Coast Guard during 
Hurricane Katrina.
    Though this is not the appropriate place to talk about 
movies, but ``The Guardian'' captures the intensity of your 
work. And I hope a lot of schoolchildren will see it, because 
it certainly commends your men and women very well.
    I happen to have had the opportunity to speak at one of the 
Texas A&M graduating classes down in Galveston and met a number 
of young recruits there. So I thank you.
    Let me, if I might, to Chief Aguilar, just a follow-up on 
my colleague's comments--and thank you for what has been an 
improved service at the border. But could you tell me, what are 
your direct needs?
    Noticing that you may be absorbing 6,000 agents, are you 
going to be able to absorb them with equipment, such as power 
boats, and helicopters, and laptops, and night goggles? Do you 
have enough equipment and enough funding for professional 
training of these new agents as they come in?

               Congresswoman Sheila Jackson Lee, of Texas

   Statement Before the Subcommittee on Border, Maritime, and Global 
                            Counterterrorism

   Border Security: Infrastructure, Technology, and the Human Element

                           February 13, 2007

    I thank Chairwoman Sanchez for convening this important hearing 
examining the infrastructure, technology, and the human element of our 
border security. I welcome Chief David Aguilar of the U.S. Border 
Patrol and Rear Admiral David Pekoske of the U.S. Coast Guard to this 
hearing, and I look forward to both of your testimony.
    In the aftermath of September 11, 2001, the American people became 
painfully aware of the difference between feeling secure and actually 
being secure. The Committee on Homeland Security was created to ensure 
that the American people were fully protected and safe from terrorist 
attacks. The purpose of this hearing is to receive testimony from Chief 
Aguilar and Rear Admiral Pekoske on the state of their respective 
agencies' border security activities and to assess the infrastructure, 
technology, and personnel requirements necessary to strengthening 
America's border security.
    It is of paramount importance for us to convene to discuss the 
critical issues currently facing our nation's border security. The U.S. 
Border Patrol is charged with enforcing U.S. immigration law and other 
federal laws along the border, between the ports of entry. Its integral 
mission is to detect and prevent the entry of terrorists, drug 
smugglers, other criminals, and unauthorized aliens, along with weapons 
of mass destruction into the country. Despite only slightly more than 
12,000 border patrol agents, the Border Patrol must guard and protect 
over 6,000 miles of our international land borders with Mexico and 
Canada.
    President Bush has committed to doubling the size of the Border 
Patrol during his term in office. I welcome this commitment, especially 
because in previous Congresses I have introduced both bills and 
amendments calling for similar increases in the size of the border 
patrol. I hope President Bush lives up to his commitment to add an 
addition 6,000 agents over the next two years, and I hope that the 
Border Patrol will be able to recruit, hire, train, and retain a 
sufficient number of agents to meet this goal in a short time. I also 
look forward to hearing from Chief Aguilar how he and the Border Patrol 
propose to recruit, hire, train, and retain such a high number of 
agents. Currently, it does not appear that the Border Patrol is meeting 
these goals.
    In order for the Border Patrol to succeed, we must work together to 
create, authorize, and implement the policies and incentives necessary 
to ensure the effective recruitment and retention of Border Patrol 
agents. I know that much is needed to deal effectively with the 
substantial retention and recruitment issues the Border Patrol faces.
    In addition, we also need to provide the Border Patrol with the 
equipment and resources they need to secure the border. In the last 
Congress, I introduced H.R. 4044, the Rapid Response Border Protection 
Act of 2005, that would provide the Border Patrol with the equipment 
and resources they need. I plan to reintroduce this legislation in the 
110th Congress. This legislation calls for an additional 15,000 Border 
Patrol agents over the next five years and has provisions for equipping 
them with body armor, special weapons, and night vision equipment. H.R. 
4044 was strongly endorsed by the National Border Patrol Council and 
the National Homeland Security Council, organizations that represent 
the front-line employees who enforce our immigration and customs laws.
    In order for our Border Patrol agents to effectively secure our 
border, we need a Border Patrol with enough adequately trained agents 
to patrol the entire border efficiently with the weapons and other 
equipment that is necessary for confrontations with heavily armed drug 
smugglers and the other dangerous criminals who cross the border 
illegally. In light of the recent controversial prosecutions of former 
Border Agents Igancio Ramos and Jose Compean, this hearing and the 
issue of how effectively our border patrol are trained, equipped, 
managed, and staffed could not be convened at a more important time. 
Former agents Ramos and Compean are currently serving 11 and 12 year 
terms respectively in federal prison for shooting an unarmed Mexican 
national who was running drugs across the border near El Paso, Texas in 
February 2005. However, it appears that 3 other agents who participated 
in this incident were not prosecuted, but rather faced administrative 
penalties resulting in terminations. I would like to hear more from 
Chief Aguilar regarding this case, whether you agree with the way the 
prosecution was handled, and whether you feel like administrative 
remedies were exhausted. I would also like to hear from Chief Aguilar 
regarding what factors contributed to the occurrence of this incident, 
especially as it relates to the role played by a lack of sufficiently 
trained personnel and mangers on duty.
    I also look forward to hearing more about DHS' Secure Border 
Initiative (SBI), which is a multi-year plan aimed at securing our 
borders and reducing illegal immigration by implementing new border 
security technology such as constructing additional border 
infrastructure including material and virtual fencing, adding more 
agents to patrol our borders, better securing the ports of entry, 
ending the ``catch and release'' policy through expedited removal and 
additional detention space, and increasing the enforcement of 
immigration laws inside the U.S.
    I especially would like to hear about SBInet, which represents the 
technology and infrastructure component of SBI, whose goal is to create 
a virtual fence along the nation's borders using cameras, sensors, and 
other equipment. DHS Inspector General Richard Skinner has raised 
serious concerns with SBInet, including DHS lacking the capacity to 
properly oversee implementation of the program and granting too much 
discretion to the contractor. Inspector General Skinner has also warned 
that SBInet is a costly program which could reach $8 billion on the 
southwest border alone, while some have estimated that the entire 
project could exceed $30 billion. A serious and detailed discussion of 
SBInet's cost and implementation is both necessary and long overdue.
    I also look forward to hearing from Rear Admiral Pekoske regarding 
the Coast Guard's mission of protecting the public, the environment, 
and our maritime economic and security interests, especially at our 
ports. On behalf of the thousands of Katrina evacuees that live in my 
district of Houston, Texas, I would like to thank you Rear Admiral 
Pekoske and the entire U.S. Coast Guard for their heroism, which saved 
countless innocent lives during the aftermath to Hurricane Katrina.
    The Coast Guard's 40,150 men and women are entrusted with 
protecting 95,000 miles of coastline, 12, 400 miles of our nation's 
maritime border, and 3.4 million square miles of the Exclusive Economic 
Zones. Our nation's maritime border is composed of relatively open 
ports and coastlines that present an attractive venue for illegal 
entry, potential terrorist attacks, trafficking contraband, and other 
criminal activities.
    I look forward to hearing from Rear Admiral Pekoske regarding the 
implementation and enforcement of two key pieces of legislation passed 
by this Committee to improve the security of our nation's maritime 
border--namely, the Maritime Transportation Security Act (MTSA) of 
2002, which requires all vessels, facilities, and ports within the U.S. 
to complete security plans, and the SAFE Port Act, which was signed 
into law last year. I would also like to hear from you regarding the 
feasibility and efficacy of 100% scanning of contents bound for U.S. 
borders, which was not a provision of the SAFE Port Act, but which 
nonetheless is an important step in better securing our ports.
    I would also like to hear from Rear Admiral Pekoske regarding the 
DHS Inspector General's recently released report regarding the Coast 
Guard's Legend-class National Security Cutter (NSC). The NSC, which is 
the largest and most technically advanced class of the Deepwater 
Program's three classes of cutters, was designed to be the flagship of 
the U.S. Coast Guard's fleet, capable of executing the most challenging 
maritime security missions. However, the Inspector General's audit 
determined that the NSC, as designed and constructed, would not meet 
the performance specifications described in the original Deepwater 
contract. Moreover, the Inspector General report found that the NSC's 
design and performance deficiencies are the result of the Coast Guard's 
failure to exercise technical oversight over the design and 
construction of its Deepwater assets, which for National Security 
Cutters 1 and 2 has gone over $250 million over budget. Rear Admiral 
Pekoske, I eagerly look forward to further elucidation on this critical 
matter.
    I again thank both of our witnesses for their testimony and eagerly 
look forward to further discussion of today's issues. I thank you Madam 
Chairwoman, and I yield back the balance of my time.

    Chief Aguilar. Let me take that piece by piece.
    As far as the equipping of the agents, I feel very 
confident that we--Congress gives us what we refer to as a 
modular cost. So everything from uniforms, to weaponry, a 
bullet-proof vest, vehicles, things of that nature, I feel very 
confident that that will continue at the rate that it has in 
the past.
    And, in fact, it has been improving. So, from that aspect, 
absolutely I feel confident that we will get the equipment that 
we need.
    As far as aircraft are concerned, my colleague, General 
Kostelnik, who heads up the air and marine portion of CBP, is 
also working very diligently. As we speak, there is a 
procurement ongoing--additional procurement of UAVs, for 
example. We will have four by the end of this calendar year. An 
additional two will be coming by 2008.
    Additional platforms, such as AS350s, helicopters that are 
of absolute essence to us on the southwest border and on the 
coastal borders, also. Black Hawks that we will utilize over 
water and on the northern border are also being looked at for 
procurement purposes.
    I will state--and I am not the expert here, but my 
colleague, General Kostelnik, one of his concerns is, is the 
production timeline to actually procure these and get them on 
the ground, if you will.
    Ms. Jackson Lee. If I might, because my time is short, I 
have got the sense of it. Are you a supporter of the fence? Or 
do you believe that we can secure the border with increased 
personnel and technology?
    Chief Aguilar. There are going to have--
    Ms. Jackson Lee. A 700-mile fence, can you just say yes or 
no?
    Chief Aguilar. Seven-hundred-mile fence?
    Ms. Jackson Lee. Yes.
    Chief Aguilar. We are building towards that. Three hundred 
and seventy, absolutely. Seven hundred, will we get to that? It 
all depends on the technology--
    Ms. Jackson Lee. So you support a 700-mile fence?
    Chief Aguilar. I support a 370-mile fence. And as we 
progress to 700--I don't necessarily think we will get to that. 
But if we need to get to that, we have got the--
    Ms. Jackson Lee. Let me pose the question, also. I don't 
believe that we have all the facts, even with a judicial 
decision, on the two Border Patrol agents. One of the problems 
I understand is that the shooter of a weapon does not fill out 
paperwork. It is the manager that fills out paperwork.
    But the real question is, are there administrative 
procedures in place, one, for grievance of the Border Patrol 
agents? Do they have a union? Is there a grievance procedure? 
Is there procedure where the employees could have been 
reprimanded by administrative procedure, as opposed to putting 
them in a judicial process?
    I think we are not having all the facts, members don't have 
all the facts. But I would argue that the actions were 
excessive, not questioning the DHS investigation. We had the 
inspector general here. But I do believe that there are 
questions that undermine the morale of the Border Patrol 
agents.
    And my question to you, is that not true?
    Chief Aguilar. Your questions were a grievance procedure? 
Yes. Union, yes. Is this situation undermining morale? I 
answered part of the question a few minutes ago. I don't 
believe so. I think there is a clear understanding of the 
Border Patrol agent population in the field of what is 
available to them.
    Ms. Jackson Lee. You would not be opposed to an expanded 
investigation?
    Chief Aguilar. No. No, ma'am.
    Ms. Jackson Lee. Thank you.
    Ms. Sanchez. The gentlewoman's time has expired.
    We have some votes coming up on the floor, supposedly 
beginning about 11:30. I would like to try to get another round 
of questioning in, but maybe we can hold it down to 3 minutes 
per person, and that way, if anybody has some leftover 
questions they have, we can do that, if that would be okay with 
the ranking member.
    So I have a question, back to Admiral. In terms of 
increasing the Coast Guard's maritime awareness, does the Coast 
Guard have the capacity, either internally or working with the 
private sector, to implement right now a voluntary, long-range 
vessel tracking program, in order to meet the requirements set 
by Congress in the SAFE Port Act?
    And in particular, what is the Coast Guard doing to meet 
upcoming International Maritime Organization requirements on 
long-range vessel tracking? And will the Coast Guard consider 
using existing vessel-tracking systems to meet requirements set 
by Congress and the International Maritime Organization?
    Admiral Pekoske. Yes, ma'am. I will take the last question 
first. We will consider using existing programs and will meet 
the 1 April deadline set by Congress in the SAFE Port Act in 
that regard.
    As you know, there is an international agreement for long-
range tracking that comes into force the 1st of January, 2008, 
and then everybody has to be in full compliance by December 
2008. We anticipate that we will be able to fully participate 
in that process internationally, as well, and are working very 
hard in that endeavor.
    It is critical important. Long-range tracking is very, very 
important to awareness to us.
    Ms. Sanchez. Great. And I would yield back the remainder of 
my time, and I will my ranking member from Indiana ask his 
questions.
    Mr. Souder. Thank you. I am going to--submit some 
additional questions for the record. Some here I have wrote out 
that I would like to put on the record and make sure we get 
answers.
    On the OTMs, which I believe, Mr. Aguilar, you said were 
over 100,000, how many of those were from countries of 
interest? I know at San Ysidro at one point we had, in one 
month hundreds that were OTMs.
    Then there were, I think, 38 from countries of interest and 
a number of those on the watch list, so we get an idea of how 
much that is varying. And, also, if we could have that for the 
north border.
    Two is, I talked to the distinguished ambassador from 
Mexico. And I believe President Calderon is committed to the 
border. I don't believe they have control of Nueva Laredo or 
other areas.
    But what I would like to know is: Has the bulldozer been 
removed from across from Neely's Crossing? Because one of the 
assumptions that you stated in your testimony was is that the 
Mexican government would be responsible and work with us on 
trying to control the opposite side.
    One test here is, is in the area across from the Marfa 
sector where the cartels control it. It is not even clear the 
Mexican government can enter that zone. And they have a 
bulldozer that knocks down everything we do.
    One test of this is, is that bulldozer gone? And that is my 
question. I have been raising the question now for roughly 
eight months, and I would like to know if the bulldozer is 
gone.
    Three, whether you said, in 2012, you believed that the 
southwest border would be secure, at least between the ports of 
entry--obviously, visa-jumpers is a whole another question that 
you wouldn't have any control over--did that presume a 
compromise immigration bill?
    And, if so, what kind of compromise immigration bill? Was 
that part of your assumption, that we were going to be able to 
control the southwest border?
    Maybe you could give me a yes or no on that, because you 
don't need to answer it if it is no. Did you assume an 
immigration bill in saying that you would control the southwest 
border?
    Chief Aguilar. No. With the proper technology, 
infrastructure and personnel.
    Mr. Souder. Okay. Then you don't need to answer that 
question.
    Chief Aguilar. I will just clarify that they are going to 
get hit hard.
    Mr. Souder. In other words, it will move?
    Chief Aguilar. Yes, sir.
    Mr. Souder. A third question, then. You stated that real 
fencing, as opposed to virtual fencing, at least other than 
vehicle barriers, was not needed in the rural areas, that it 
would be concentrated in the urban areas. You also granted that 
real fencing slows people down.
    Clearly, east of San Ysidro, we have lots of fencing in 
semi-rural areas, as well. Why wouldn't fencing almost be as 
critical in rural areas, where our agents are more sparsely 
distributed, to buy time?
    I mean, it isn't like it takes a lot of time to go over, 
and you certainly need something strong enough to do vehicle 
barriers. I am a big supporter of vehicle barriers, like in New 
Mexico.
    But part of the challenge here is, how do you, in these 
areas, buy enough time for agents to get there, particularly if 
they are trying to load contraband over the top? At the very 
least, you force them to cut fences, which becomes another 
challenge. And I would like some additional comment on that.
    Then lastly, on the case--and I just want to make these 
comments and you have stated again today, that the only people 
who actually saw the shooting included a drug smuggler and our 
agents. And T.J. Bonner, who represents the union, believes 
that, in effect, the word of a drug smuggler was taken, as 
opposed to our agents, which admittedly were contradictory at 
times.
    And I understand the difficulty. And the question comes, 
why were they? What were they afraid of? Why did they become--
and that is what the union is asking. That is what the American 
people are asking. It is anybody who looks at the case realizes 
there was contradictory evidence. The question is, why?
    And why would the presumption have gone to the drug dealer? 
We don't know whether he had a gun. He fled. So there is a 
dispute on even whether he was armed or whether he was pulling 
a gun. It is not provable, because he got away.
    Furthermore, as anybody who has looked the case knows, 
there was certain evidence excluded from the case, which is 
debatable whether it would have impacted the case, but 
certainly will come up in any retrial.
    Another question is--one of these agents has apparently 
been beaten up. The question is, do we have a bail process for 
federal law enforcement officers that enables them to not have 
to go to prison while a case is still being appealed? Because 
they become sitting targets.
    And I would also like to put in the record that this isn't 
the only case that this has happened, and that is why some of 
us are worried about the chilling effect. There have been other 
cases, and we will put that in, both with you and other law 
enforcement officials.
    And this is a very troubling process. As the violence 
escalates I am worried that we are going to have a repeat of 
San Diego, after what we saw in these covered-head guys beating 
up other smugglers. It wasn't even our agents that were 
necessarily in the middle of this.
    But the violence along the border is escalating, and we 
have to know what the ground rules are for our guys, in 
uncertain circumstances, whether somebody has got a gun, not a 
gun. Are they pulling it? Where are they going? What do they 
have? It is a very, very difficult process, and it is one we 
will continue to discuss.
    Ms. Sanchez. Chief, if you will submit those in writing.
    Chief Aguilar. I will be glad to, yes.
    Ms. Sanchez. Thank you.
    And I would like to now recognize Mr. Green from Texas.
    Mr. Green. Thank you again, Madam Chair.
    For you, please, Chief, and for the admiral, as well, we 
know of the 9/11 hijackers, and we know of the millennium 
bomber.
    Are there other circumstances that we are not aware of that 
you can discuss with us, with reference to persons who were 
actually trying to enter the country for terroristic purposes, 
especially as it relates to the southern border? Have we had 
any encroachments that you can share with us?
    Chief Aguilar. On the southern border, there have been 
arrests--one that I can speak to, because it was in the media, 
in McAllen, Texas, by Border Patrol agents, of an individual, a 
female, that crossed into the United States, across the Rio 
Grande River, with a nexus to an incident--not to 9/11--but an 
incident in one of our embassies foreign.
    I can submit to the committee other instances of encounters 
of potential. Anything of substance that I can give you today? 
No.
    Mr. Green. I would await your response.
    Admiral?
    Admiral Pekoske. Mr. Green, we have had encounters with 
individuals that were of interest to us from an intelligence 
perspective and from a law enforcement, criminal history 
perspective. And these individuals are on vessels, they are on 
recreational vessels, on board fishing vessels, and also on 
board large commercial vessels that we could become aware when 
they are 2,000 miles offshore.
    And that is why that reach for us into the high seas, 
literally hundreds of miles, 900 miles offshore, is important.
    I would just highlight for you, sir, the importance of 
biometrics in this regard. You get a positive identity on an 
individual--oftentimes, people we encounter are not able or 
refuse to identify themselves, and we have no way to figure out 
who they are at times. This biometric project has proven to be 
incredibly useful to us.
    Mr. Green. Thank you.
    I yield back, Madam Chair.
    Ms. Sanchez. I have one last question for you gentlemen. 
Last week, we were informed by the department that the 
apprehension numbers for 2006 were 98,000 people on the 
southern border and 2,800 people on the northern border. How 
many people were apprehended at maritime borders in 2006?
    Admiral Pekoske. Madam Chairman, I would like to get that 
answer for you on the record. I don't have it off the top of my 
head.
    In fiscal year 2006, 7,886 migrants were interdicted at sea by the 
U.S. Coast Guard.

    But I would note, to follow up on a comment Mr. Souder made 
earlier, is that, as you squeeze in one area of operations, you 
see that balloon effect. The people either take the sea or take 
a different land route. We are watching that very closely with 
the counter-drug movements in both the eastern Pacific and the 
Caribbean.
    One other aspect, with respect to the northern border, is 
the work we are doing right now with the Canada government. We 
have in place, along with Customs and Border Protection, 
Immigration and Customs Enforcement, and the Border Patrol, 
integrated border enforcement teams, where we work together to 
enforce our border with the Canadian government.
    And, also, we are working very hard with the Canadians to 
achieve a shiprider agreement, wherein Coast Guard officers 
could be aboard Canadian ships underway in the Great Lakes, and 
Canadian officers, RCMP officers, aboard our vessels, so that 
we can jointly enforce our security requirements. So these 
are--
    Ms. Sanchez. Are you sharing intelligence with what is 
going on, on the northern border, and these teams that are 
working together, between the Canadians and our people?
    And the reason I asked is because there was a big uproar?I 
don't know, maybe about six or eight months ago?with the 
sharing of intelligence or the supposed sharing of intelligence 
on the southern border with the Mexican government officials, 
or the federales, or whoever it is that is handling it from 
that end.
    Do we do that on the northern border with the Canadians?
    Admiral Pekoske. We do share intelligence information with 
the Canadians. And part of what we found in our discussions 
with them is that it is not so much the policies, necessarily, 
that inhibit that, but sometimes it is the mere practice of how 
we do things.
    For example, some of the default settings on classified 
traffic automatically add the label to the classification that 
prohibits sharing with foreign entities. What we have done 
inside the Coast Guard is asked our people to make sure that we 
don't automatically hit those default settings, because to undo 
it is very, very difficult and takes?it takes longer than the 
information is actionable. So we are working very hard on that.
    Ms. Sanchez. And, Chief, I have one last question. The 
number of apprehensions on the northern border for 2006, 2,800, 
do you think that is really reflective of what is going on 
there? Or is it because we have less resources, really, 
stationed?
    I mean, we did a hearing, I think, on immigration and 
border in Seattle, back in August. And your Border Patrol 
people who were there talking to us said, you know, they get 
very little coverage up there, and they have very little 
assets, and they really need more help on the northern border. 
It was pretty apparent.
    Do you think that one of the reasons why we are not getting 
so many is that there might be a lot slipping through? Because, 
you know, that is such a big border, much more than the 
southern border, and yet we have so little assets.
    Chief Aguilar. It is a vast and very rural border out 
there. But as the admiral spoke, we have worked very closely 
with our--and it is a different environment on the Canadian 
border--I am proud to say, is that we worked very closely with 
our Canadian neighbors.
    We share information, especially tactical information. We 
also have the IBETs. We have 15 across the northern border that 
we work with the Canadian partners. We work very closely up 
there as a force multiplier, with state, local and tribal 
entities on both sides of the border.
    The Border Patrol, for example, has what we refer to as 
BSET teams, border security enforcement teams, where even 
though the small nature of our Border Patrol stations are such 
that we can't deploy along the entire border, but what we do is 
we make intelligence runs with the communities on both sides of 
the border to check with them on an ongoing basis what it is 
that they are seeing.
    Are they seeing activity? Are they sensing anything that is 
different in those areas? Things of this nature that we are 
working very closely with.
    Ms. Sanchez. Great. Well, that would be the end of my 
questions.
    I thank the witnesses for their valuable testimony before 
us today and the members, of course, for their questions. The 
members of this subcommittee may have additional questions for 
the witnesses, and we will ask you to respond expeditiously in 
writing to those questions.
    And hearing no further business before the subcommittee, it 
stands adjourned.
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]


                    BORDER SECURITY: INFRASTRUCTURE,
                   TECHNOLOGY, AND THE HUMAN ELEMENT,
                                PART II

                              ----------                              


                        Thursday, March 8, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:06 p.m., in 
Room 1539, Longworth House Office Building, Hon. Loretta 
Sanchez [chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Harman, Langevin, 
Cuellar, Green, Souder, McCaul, and Bilirakis.
    Ms. Sanchez. [Presiding.] Good afternoon. The subcommittee 
will come to order.
    The subcommittee is meeting today to receive testimony on 
``Border Security: Infrastructure, Technology, and the Human 
Element, Part II. So this is our second hearing.
    And I want to thank our witnesses--let's see if I get these 
names right; it is a great array of American names here: Dr. 
Jeffrey McIllwain, Mr. Wermuth, Dr. O'Hanlon, and Mr. Ramirez--
got that one right--for joining us today for the second hearing 
of our subcommittee that we are holding on ``Border Security: 
Infrastructure, Technology, and the Human Element.''
    In the previous hearing on this topic, we heard from Border 
Patrol Chief Aguilar and Coast Guard Rear Admiral Pekoske about 
the border security challenges our nation faces on the 
northern, the southern and the maritime borders and the plans 
to use infrastructure, technology and personnel to address 
those challenges.
    Today I am looking forward to hearing from the academic, 
think-tank and the nongovernmental communities about the 
perspectives on our border security, our challenges and how we 
can best address them.
    And I am interested in the witnesses' thoughts on the 
border security efforts currently in place, the ones that we 
have planned for the future by our government, and if there are 
ways to strengthen and improve those plans.
    Specifically, how should the Border Patrol structure and 
place fencing and barriers to get the most return? How 
effective is the technology currently in use on the border, and 
how will the planned SBInet initiative change that situation on 
the border? And how will the planned increase in Border Patrol 
agents be affected by challenges in recruitment, training, 
retention, and how the Border Patrol can best maximize the 
impact of each marginal agent as we bring him or her on?
    In addition, I am very concerned about the Coast Guard and 
the Border Patrol and how they work together in order to get 
these border security issues done, because I was concerned to 
learn in our last hearing that there is no set process on how 
the Coast Guard transfers people when they have been turned 
over to the Border Patrol or detention facilities.
    And another issue that deserves, I think, attention is how 
the three countries are working together--meaning Canada, 
Mexico and the United States--with respect to border security. 
And I would also be interested to hear the witnesses' thoughts 
on what we can do to maximize our positive returns from those 
relationships with the other two countries.
    And, obviously, these are very complex issues. I know you 
are going to provide us with your best professional and 
analytical analysis of the situation.
    And I would like to thank my ranking member, Member Souder, 
for his interest in this topic. And I look forward to working 
with him to really make America secure and know who is coming 
in and out of our country.
    And now I will turn it over to our ranking member.
    Mr. Souder. I thank you. I thank the chairwoman, chairlady, 
for her leadership and continuing hearings on this subject.
    Clearly, as Congress both looks at how to secure America 
and how to look at comprehensive immigration reform, one of the 
fundamental questions is, is the border actually secure? And if 
that isn't answered in a favorable way, it is hard to see how 
either the country can be secure or we can move ahead on 
immigration reform.
    So I don't have a formal statement this morning. And I have 
been working this issue since I have been elected to Congress, 
through the narcotics area in particular, which is smuggling of 
people, smuggling of contraband--basically all the same 
subject, just different types and different approaches 
depending on the high value of the asset.
    And I look forward to hearing your ongoing testimony and 
assume this is just a start, not an end.
    Thank you very much.
    Ms. Sanchez. The chair now recognizes--oh, I already did 
that. The chair now recognizes--the chairman of the full 
committee is not here.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    So I welcome our panel of witnesses.
    Our first witness is Jeffrey McIllwain, Ph.D., of San Diego 
State University, of course in the great state of California. 
And the doctor is the associate director and the co-founder of 
the interdisciplinary graduate degree program in homeland 
security at SDSU, the first of its kind in the United States. 
And as part of his work with the Homeland Security Program, the 
doctor works extensively with his homeland security colleagues 
in the College of Sciences at SDSU to help meet the 
technological and scientific needs of community partners in the 
public and private sectors.
    Our second witness is Michael O'Hanlon, a senior fellow in 
foreign policy studies at the Brookings Institute, where he 
specializes in U.S. defense strategy, homeland security, and 
American foreign policy. He is a visiting lecturer at Princeton 
University and a member of the International Institute for 
Strategic Studies and the Council on Foreign Relations. And in 
2002, O'Hanlon and several colleagues wrote ``Protecting the 
American Homeland,'' a book updated in 2003 and 2006.
    And our third witness is Michael--oh, forgive me here--
Wermuth, the director of the RAND Homeland Security Program, 
which addresses issues pertaining to critical infrastructure 
protection, emergency management and response, terrorism risk 
management, border control, domestic intelligence and threat 
assessments, and manpower.
    You are doing a lot over there.
    Since joining RAND in the summer of 1999, Mr. Wermuth has 
directed numerous projects dealing with homeland security. And 
for the past 2 years, he has been manager of domestic 
counterterrorism programs in the National Security Research 
Division at RAND. He also has over 30 years of military 
experience, including both active and reserve duty, with the 
U.S. Army and is retired as a Reserve colonel.
    And our final witness is Mr. Andy Ramirez, chairman of 
Friends of the Border Patrol, a 501(c)(3) nonprofit 
organization that was created in 2004. And Mr. Ramirez has 
repeatedly testified before Congress and the California state 
legislature on border security, illegal immigration, and U.S.-
Mexico relations. He has also appeared frequently as a guest on 
news programs like CNN's ``Lou Dobbs,'' Fox News Channel, and 
nationally syndicated radio talkshows. Additionally, Mr. 
Ramirez was nominated for the California State Assembly's 60th 
District in 1994 and 1995.
    So, without objection, the witnesses' full statements, 
which you submitted, are inserted into the record. And I now 
ask each witness to summarize his statement for 5 minutes, 
beginning with Dr. McIllwain.

STATEMENT OF JEFFREY McILLWAIN, CO-DIRECTOR, HOMELAND SECURITY 
              PROGRAM, SAN DIEGO STATE UNIVERSITY

    Mr. McIllwain. Thank you, Madam Chair.
    Good afternoon, Madam Chair, Ranking Member Souder and 
distinguished subcommittee members. My name is Jeffrey 
McIllwain, and I am the co-director of the graduate program in 
homeland security at San Diego State University.
    It is my honor to provide you with an assessment of border 
security from an interdisciplinary academic perspective. It is 
also my purpose to inform you about some of the intersections 
between the human element, technology, and infrastructure that 
create and respond to these challenges, relying heavily on the 
San Diego-Tijuana border region as a case study.
    Before moving forward, please allow me a moment to look 
back.
    During the Second World War, my grandfather, Enrique 
Estrada, was serving as a sergeant in the United States Air 
Corps when he was approached by his superiors to serve as a 
liaison and translator for members of the Mexican military.
    The U.S. military was working with the Mexican military to 
create the Mexican Air Force, so that Mexico could finally shed 
its international isolationism and take a small but crucial 
step onto the world's stage by wielding a military unit in 
support of the Allied campaign in the Pacific theater.
    Working in solidarity with Mexico, the United States was 
able to overcome language and cultural differences and a 
history of mutual distrust to tackle the predominant security 
challenge of that day.
    Years later, the U.S. and Mexico find themselves jointly 
facing new security challenges of global significance--
challenges that are not confined to faraway shores but to both 
our shared border and the combined borders of the U.S., Mexico 
and Canada.
    The challenges are numerous. Combating powerful 
narcotraficantes, weapon smugglers, transnational street gangs, 
human traffickers, corruption, intellectual property theft, and 
environmental health and sustainability traditionally come to 
mind.
    Since 9/11, the most tangible challenge is that posed by 
terrorist organizations bent on attacking the U.S., Canada and 
Mexico as a means of undermining our collective political will 
to thwart their authoritarian ideologies.
    For example, last month, al-Qa'ida in the Arabian Peninsula 
stated, ``It was imperative that we strike petroleum interests 
in all regions that the United States benefits from,'' 
specifically naming Canada and Mexico, the first and second 
largest crude oil suppliers to the U.S., as possible targets.
    This has serious implications for binational energy 
infrastructures and national security, given the U.S. exchanges 
major amounts of energy via extensive oil and gas pipelines 
with Canada and Mexico.
    The United States cannot respond effectively and 
efficiently to border security challenges like terrorism, drug 
smuggling and human trafficking alone. Such challenges require 
strong binational and trinational cooperation and coordination. 
It also requires an approach that emphasizes the intersection 
of infrastructure, technology, and the human element.
    My written testimony provides a number of examples 
illustrating these two approaches.
    One of them concerns the challenges and opportunities 
inherent to the coming mega-port and rail complex at Punta 
Colonet, 150 miles south of the border on Baja, California's 
Pacific coast. Punta Colonet will rival, if not exceed, the 
size and capacity of the combined ports of Long Beach and Los 
Angeles, which account for almost 44 percent of the foreign 
containers coming into U.S. ports last year.
    Consequently, there will be massive new infrastructure, 
technology, and security needs for these containers crossing 
into the U.S. from Baja, California, that will ensure the 
secure, effective and efficient flows of goods and people 
across the border.
    Another example of how massive new infrastructure is being 
built that links the countries together in physical character 
but also in symbiotic business ventures is the construction of 
a large liquefied natural gas facility on the coast 50 miles 
south of San Diego. This facility will process and ship most of 
the natural gas imported from Indonesia, Australia and Russia 
north to the Southern California energy market.
    The footprint of these pipelines will likely also contain 
telecommunications infrastructure, linking energy and 
information technology as a collaboration between the two 
countries.
    These two examples illustrate how infrastructure 
development can actually assist with homeland security, as 
corporations, governments and agencies link to each other for 
cost-effective uses of technology for dual purposes.
    Yet the long-term planning to make homeland security a 
foundational design principle of this effort does not seem to 
be a currently critical THS task given other pressing concerns.
    However, U.S., Mexican and Canadian universities can help 
in the design, testing and analyses of various technologies and 
policy and governance issues, all the while identifying and 
assessing how dual-purpose technology and infrastructure, 
linked to economic development and human capital, can 
simultaneously assist both countries in meeting their security 
challenges.
    In order to be successful, dual-use approaches must take 
advantage of the existing foundations of U.S.-Mexican 
cooperation and coordination, as well as the limitless human 
capital offered by the citizens of border regions. Such trust-
building initiatives are simply in our national interest and 
will go a long way toward providing short-and long-term 
security for our borders.
    While infrastructure and technology are important for 
border security, the collaboration and coordination of people 
in the U.S. and across our borders is critical. By encouraging 
and supporting the effective and efficient interoperability of 
these three elements, Congress will take a major step in 
furthering our security goals.
    Thank you again for the opportunity to present my testimony 
to the subcommittee. I appreciate it.
    [The statement of Mr. McIllwain follows:]

           Prepared Statement of Dr. Jeffrey Scott Mcillwain

    Good afternoon Madam Chair, Ranking Member Souder, and 
distinguished subcommittee members. My name is Jeffrey McIllwain and I 
am the Co-Director of the Graduate Program in Homeland Security and an 
Associate Professor of Public Affairs and Criminal Justice at San Diego 
State University. It is my honor to provide you with an assessment of 
border security from an interdisciplinary academic perspective. I 
provide this assessment at a time when the need for border security has 
been underscored by recent events. For example,
        Last month al-Qa'ida's Committee in the Arabian Peninsula 
        (Saudi Arabia) stated it was ``imperative that we strike 
        petroleum interests in all regions that the United States 
        benefits from. . .,'' specifically naming Canada and Mexico, 
        the first and second largest crude oil suppliers to the U.S., 
        as possible targets.This has serious implications for 
        binational energy infrastructures and national security given 
        the U.S. exchanges major amounts of via extensive oil and gas 
        pipelines with Canada <SUP>ii</SUP> and Mexico,<SUP>iii</SUP> 
        and companies like ExxonMobil are making major contributions to 
        the recent major discoveries of oil off the Gulf coast of 
        Mexico.<SUP>iv</SUP> Add to this the fact that in many oil 
        pipeline right-of-ways, fiber-optic cables are also laid, as 
        the continuous rights-of-way needed for pipelines also provide 
        pathway for communication infrastructure.<SUP>v</SUP> Critical 
        information for business and banking are thus passed along 
        these same routes and would negatively impact both countries as 
        well as many other global trading partners if truncated. 
        Because of the difficulty of getting permits to cross the 
        border, the number of fiber and pipeline crossings is very 
        limited, making a small number of high-value targets.
        <bullet> Last week Operation Imperial Emperor resulted in the 
        arrest of approximately 400 alleged members of the drug cartel 
        run by cartel kingpin Victor Emilio Cazares-Gastellum, a cartel 
        responsible for smuggling metric tons of drugs from Colombia 
        and Venezuela to the U.S.<SUP>vi
        </SUP><bullet> Also last week Attorney General Gonzales 
        highlighted the transnational nature of many of the violent 
        street gangs in cities like Los Angeles, gangs with established 
        pipelines between the U.S. and counties like Mexico, Guatemala, 
        and El Salvador.<SUP>vii
        </SUP><bullet> The summer 2006 bomb plot thwarted in Toronto 
        illustrates the ``homegrown'' nature of the suspects.<SUP>viii</SUP> 
        This plot is linked directly to two American ``homegrown'' 
        terrorist suspects arrested in Georgia who stand accused of 
        making ``casing videos'' of the U.S. Capitol Building and other 
        Washington, D.C. landmarks.<SUP>ix</SUP> Both cases, in 
        addition to the arrest of two men at the Buffalo/Fort Erie 
        border crossing who are also allegedly related to the plot, 
        illustrate the relative ease with which some of these suspects 
        had traveled across the U.S./Canadian border.<SUP>x
    </SUP>These examples represent the breadth and complexity of the 
border security challenges faced by the American people. It is my 
purpose to inform you about some of the intersections between the human 
element, technology, and infrastructure that create and respond to 
these challenges, relying heavily on the San Diego/Tijuana border 
region as a case study. Specifically, I will:
        <bullet> Illustrate the complexity of border security as it 
        impacts various stakeholders living in border communities;
        <bullet> Assess the role of human capital in aiding network-
        centric strategies countering the efforts of criminal networks 
        operating in the border region;
        <bullet> Discuss the role of regional cooperation and 
        integration as a means of effectively and efficiently 
        marshalling resources for a more secure border that also 
        facilitates the flow of people and goods;
        <bullet> Point to areas of binational cooperation as models of 
        trust building that allow for more effective and efficient 
        border governance; and
        <bullet> Provide suggestions that would tap the underutilized 
        resources and the intellectual capital of universities and 
        other sources that could supplement current efforts to provide 
        effective and efficient border security.

Background
    As the Co-Director of the Graduate Program in Homeland Security at 
San Diego State University, I have the privilege of working with a 
number of scholars and practitioners in the U.S., Mexico, and Canada 
who focus on these varied and complex border security problems on a 
daily basis. Living in San Diego, I have the additional privilege of 
working in what is arguably one of the most significant ``living l 
aboratories'' for border security research in the world, the greater 
San Diego/Tijuana border region.
    As such, I have come to recognize that the term ``border'' has as 
many different meanings as there are stakeholders on the issue. For 
example, ``border'' can mean a wall or a fence; a place of interaction; 
a marketplace for goods and services; a community of people; a way of 
life; arbitrary lines on a map; interdependence; a revenue source; an 
ecosystem; or a line of defense or defensible space. Therefore, when 
applying theoretical and manifested concepts of security to the term 
``order,'' these meanings are impacted in a number of varied and 
substantive ways.
    In a sense, the border becomes a vibrant ecosystem that is impacted 
by the laws, policies, procedures, practices, and people that define 
its use on a daily basis. For example, on average more than 136,000 
cars and 6,200 trucks, and nearly 340,000 people, travel between the 
U.S. and Mexico via the San Ysidro, Otay Mesa, and Tecate border 
crossings each day, making the San Diego-Baja California Point of Entry 
(POE) the busiest in the world. The Otay Mesa-Mesa de Otay POE is the 
busiest commercial border crossing between California and Mexico. In 
2004, this POE handled more than 1.4 million trucks and $22.2 billion 
worth of goods in both directions, which represents the third highest 
dollar value of trade among all land border crossings between the 
United States and Mexico. Another $1 billion in goods and more than 
139,000 trucks crossed at the Tecate-Tecate POE, numbers that will grow 
exponentially in years to come.<SUP>xi
    </SUP>Currently, there are about 4.5 million people living in the 
greater San Diego-Tijuana region and by 2020 the total regional 
population will be approximately 6 million, with most living in a large 
transborder contiguously urbanized metropolitan area separated by the 
international border. This binational region is increasingly 
interdependent through trade flows, labor flows (40,000 workers commute 
from Tijuana to San Diego each day), family ties (30% of San Diego's 
population is Mexican in origin), transportation and infrastructure 
planning, energy and resource management, and crime fighting. When 
working cooperatively, U.S. and Mexican authorities do a good job 
solving these problems for mutual benefit.
    After the attacks of September 11, 2001, the border crossing points 
between San Diego and Tijuana were shut down as a precautionary 
measure. The permanent changes to border security policies that 
followed have had substantial, long-standing implications for the 
region. A study commissioned by the San Diego Association of 
Governments (SANDAG) found that the increased border wait time for 
personal trips and freight movements cost the U.S. and Mexican 
economies an estimated $6 billion in gross output and 51,325 jobs (tied 
to this output) in 2005. This projects to almost $14 billion in 
economic output and 123,682 jobs by 2014.<SUP>xii</SUP> These future 
forecasts do not take into account the massive new deep-water port to 
be built south of Ensenada at Punta Colonet.<SUP>xiii</SUP> This port 
will be larger than the combined Ports of Long Beach/Los Angeles (San 
Pedro), which accounted for almost 44% of foreign containers coming 
into U.S. ports last year.<SUP>xiv</SUP> Consequently, there will be 
massive new infrastructure and security needs for these containers 
crossing into the U.S. from Baja California.
    This example is not meant to suggest current security mechanisms 
are less important than the flow of people and trade goods. It only 
serves to show the symbiotic nature of the border and how border 
security policies can have both intended and unintended consequences. 
These consequences are realized and interpreted in different ways 
depending on the stakeholder that is impacted by them and how these 
stakeholders construct their particular meaning of the border (i.e., a 
defensible space, a marketplace for goods and services, a revenue 
source, etc.). It is from the multi-faceted meanings of the term 
``border,'' and the functions these meanings entail, that our border 
security challenges and opportunities derive. I will now share with you 
some of the challenges faced and lessons learned, many from the San 
Diego/Tijuana border region, as examples of the complexities that 
impact our border communities and our nation.

Criminal Networks, Human Capital, and Network-Centric Approaches to 
Security
    The San Diego/Tijuana border region is an economically robust 
region for the very reason that a vast amount of people and goods flow 
between two sovereign states on a daily basis.<SUP>xv</SUP> This flow 
largely occurs through formal, legal channels. For example, many 
Americans ride their off-road vehicles in Baja California deserts; 
automobile parts are manufactured in maquiladoras and shipped to the 
U.S. for assembly; American retirees spend their golden years living in 
Mexican beach communities, including one owned by the Trump 
Corporation;<SUP>xvi</SUP> and soon computer chips will be sent to the 
U.S. from the ``Silicon Border'' development in Mexicali.<SUP>xvii</SUP> 
This list can go on and on.
    Shadowing these legal, formal channels is a major illicit economy 
that exploits the opportunities for financial gain borders create. This 
illicit economy has been around for well over a century.<SUP>xviii</SUP> 
The premise behind these opportunities is quite simple. Sovereign 
states establish rules and regulations that reflect value systems that 
may not coincide with those of a neighboring sovereign state. This 
creates structural holes in which inherent asymmetries develop around 
differential access to resources and opportunities.<SUP>xix</SUP> These 
inherent asymmetries create the opportunity for profit for those 
willing and able to assume the risk and marshal the networks and 
resources to do so.<SUP>xx
    </SUP>For example, Mexico has strict laws covering the importation 
of firearms. The U.S., which has relatively liberal firearm laws, has a 
steady supply of firearms available that can be smuggled into Mexico 
for a substantial profit. Conversely, the U.S. has strict laws and 
regulations regarding the importation of labor. Mexico has an abundance 
of labor. Criminal entrepreneurs step into this breach, smuggling 
undocumented laborers (and others) by the thousands into the U.S. for a 
substantial profit. The wages from this labor traveling south to Mexico 
obviously have a significant impact on Mexico's economy. The economic 
impact on the U.S. is much more controversial.
    The creation of such illegal markets is unavoidable and it is not 
unique to the U.S./Mexico border. Such practices are the norm in border 
communities around the world. In all of these cases, extensive social 
networks develop to ensure that supply meets demand, regardless of what 
legal and technological weapons the state musters against them. Indeed 
these networks--composed of criminal entrepreneurs, enforcers, and the 
upper-world institutions and individuals that benefit from the illegal 
market (i.e., corrupt officials, etc.)--remain remarkably resilient in 
the face of such challenges and may even make more profit per 
transaction as a result of the increased risk.<SUP>xxi</SUP> This 
resiliency is evident in the construction of tunnels burrowed under the 
U.S./Mexico border for the purposes of smuggling drugs, people, and 
other items.<SUP>xxii</SUP> Indeed, over twenty have been found linking 
Mexico to the United States since 9/11.<SUP>xxiii</SUP> The U.S./
Canadian border has been breached in such a manner as well.<SUP>xxiv
    </SUP>U.S. border security policy has reasonably emphasized its 
national strengths, focusing on using infrastructure, technology, and 
manpower at the border to counter such activities. These policies have 
arguably proven relatively effective in disrupting the flow of people 
and goods in some areas (for example, the border fence, manpower surge, 
and sensor networks used on the westernmost portion of the urban border 
between San Diego County and Tijuana during Operation Gatekeeper). 
However, for every countermeasure the U.S. provides, criminal 
organizations devise a response. In the case of Operation Gatekeeper, 
which secured the coastal portion of the border through infrastructure 
and increased patrols, smugglers moved to more rural, mountainous, and 
desert routes east of San Diego or used tunnels, corruption, and other 
means of moving people and goods across the border, often with deadly 
results.<SUP>xxv</SUP> Smuggling operations are a moving target for 
DHS. After all, the red tape, laws and regulations, human rights and 
environmental concerns, bureaucratic turf wars, and budget and 
appropriations battles that are the every day concerns of our 
government agencies do not encumber these criminal networks. These 
criminal organizations can remain flexible and respond in near real 
time, whereas our agencies are often constrained and must be reactive 
in nature, if they can react at all.
    Given the constraints that exist on the U.S. vis-a-vis border 
security, it is imperative that the U.S. complements its current 
responses with an increased emphasis on human capital.<SUP>xxvi</SUP> 
As mentioned before, borders are not just defensible spaces. They are 
also a community of people and a way of life. Just like in other border 
communities, people in Tijuana and San Diego live, work, and play on 
both sides of the border. Business relationships, families, and 
friendships readily thrive in this condition. As such, at a given 
moment, there are literally thousands of potential sources of 
information regarding criminal activities and security threats going 
untapped.
    Indeed, the physical security of many areas of San Diego is 
dependent upon the physical security of adjacent areas of Tijuana: an 
earthquake, flood, catastrophic fire, chemical spill, or terrorist 
incident requires a coordinated response by Mexican and U.S. 
authorities. However, the governmental linkages, personal ties, and 
resources are not in place for adequate regional, binational emergency 
response. The investment in transborder human infrastructure needs to 
improve to help rectify this.
    To paraphrase the words of two well-known proponents of network-
centric warfare strategies in the military realm, what is needed here 
is a detailed understanding of the appropriate competitive space, the 
close linkage among actors in the illicit market's social system. If 
border security professionals can produce and analyze more real-time 
information drawn from non-traditional forms of human intelligence, 
they can more readily mirror the linkages, interactions, and the 
environment of their criminal adversaries. This would improve response 
time to rapidly evolving security risks and would potentially provide a 
much stronger return on our border security investments.<SUP>xxvii
    </SUP>The effectiveness of current network-centric strategies that 
rely on technical and human intelligence flows can be augmented 
significantly with a concerted effort to tap into non-traditional 
information flows. I cannot begin to tell you how common these 
information flows are in a border community. For example, the family of 
one of my students grew up next door to the family of a major drug 
cartel enforcer; another worked as a receptionist for a shipping 
company in Tijuana that shipped more than the legal goods listed on its 
manifests; a close friend went to high school with the children of a 
major Mexican crime family; another friend is related to a senior 
prosecutor responsible for uprooting police corruption. Other students 
have shown me Spanish language blogs, web sites, and audio and video 
media hosting sites that provide very valuable information about the 
goings on in the border underworld (remarkably similar to, but on a 
smaller scale than, what we see in the Islamic extremist 
community).<SUP>xxviii</SUP> These connections have been valuable to me 
in my research, allowing me to navigate what is actually a very easily 
identified social system of organized crime.<SUP>xxix</SUP> Such 
connections working for border security professionals can help reverse 
current asymmetries in information flows that favor the underworld.
    The relative ease with which I, a university-based researcher and 
educator, can learn such things has always amazed me. I asked contacts 
in the American and Mexican criminal justice and security communities 
why it seemed so difficult to tap into the same information. The 
answers I received were reasonable ones: concern for the safety of 
informants, admissibility in court, possibility of disinformation, 
political and diplomatic concerns, and issues of trust routinely take 
center stage. Yet I am still left with the belief that a more concerted 
effort must be made to tap into the human capital at our disposal, not 
just for information flows but for establishing a substantial cadre of 
bilingual public servants with a functional understanding of the many 
nuances of border community life. This cadre can make immediate 
contributions in the production and analyses of the intelligence that 
is crucial to network-centric responses to border security challenges. 
Border universities like San Diego State University can take a major 
role in helping recruit such public servants while at the same time 
work with border security agencies to develop educational and research 
opportunities that will substantively reinforce and contextualize their 
border life experiences.

Dual-Use Infrastructure and Technology and Binational Collaboration
    One way of looking at the border in a manner that reflects its 
daily reality is to view it as an opportunity for dual-use 
technologies, especially in infrastructure, which can assist in joining 
different countries together for their mutual benefit and security. We 
are historically, economically, culturally, and morally linked to 
others around us; we cannot exist in isolation from others. Shared 
infrastructure is an excellent physical demonstration of this. One of 
the most powerful ways to ensure U.S. interests across the border is to 
innovatively link to multiple groups to share the responsibilities, 
opportunities, and impacts of the border, which is what shared 
infrastructure does. A few general thoughts may help flesh out such 
innovative approaches to border security, approaches we at San Diego 
State University are using to train and educate public and private 
sector officials and first responders who bear the daily burden of 
dealing with the practical realities of securing and governing the 
border. As we shall see, linking infrastructure and technology to the 
human element is key.
    It is important to recognize that though Canada and Mexico both 
have land borders with the U.S., they are profoundly different in many 
ways. Simply treating them as the same with laws, regulations, and 
policies is a major over simplification that does not serve either 
well. Canadian groups, such as those presenting at the recent ComDef 
Border security conference in Tucson,xxx emphatically emphasized over 
and over how the border needs to be open for rapid trade and passage of 
goods from one country to the other. Canada is the single biggest 
trading partner of the U.S. How that trade can be nurtured and enhanced 
has a different reality than the same effort with Mexico, let alone 
more than 100 other countries via air and water borders. One size 
cannot fit all, for it creates a larger challenge for developing 
effective and efficient laws, regulations, policies.
    Canada and its infrastructure for oil and gas, electricity, 
communications, and transportation have a profoundly positive impact on 
the U.S. Security efforts to protect this infrastructure both assist in 
the normal business processes of making a profit, but can also assist 
in security. Thus applying dual-use technologies for enhanced security 
of infrastructure and at the same time assisting with profit generation 
is an attractive linkage. Oil-and-gas pipelines are an excellent 
example, where ensuring the appropriate flow, temperature, and 
pressure, and guarding against disruption, clearly aid and can optimize 
the business aspect of the infrastructure. Most of this can be done by 
sensors along the pipeline and infrastructure, with the sensors fused 
into actionable, real-time intelligence just as is done on the power 
grid. Technology-assisted security guarding infrastructure can thus 
help assist in facilitating business processes.
    A specific example from the San Diego-Tijuana area where massive 
new infrastructure is being built that links the countries together in 
physical character, but also in symbiotic business ventures, is the 
construction of a large liquefied natural gas (LNG) facility on the 
coast 50 miles south of San Diego.<SUP>xxxi</SUP> This facility will 
process and ship most of the natural gas imported from Indonesia, 
Australia, and Russia north to the Southern California market. When 
fully functioning this facility will be directly linked to the energy 
infrastructure of Southern California. Consequently, the pipelines that 
carry the gas north will also be a security concern
    The footprint of these pipelines will likely also contain 
telecommunications infrastructure--linking energy and information 
technology as a collaboration between the two countries. Trans-oceanic 
fiber coming in at these ports can connect the world to Mexico and then 
to the U.S. along the same routes that the energy travels. Linking 
economic incentives for security and infrastructure, as well as 
providing energy and IT assets to the Baja population, will assist with 
infrastructure security using technology to cross the border and assist 
Southern California in its energy and communications challenges. 
Infrastructure development then can actually assist with homeland 
security as corporations, governments, and agencies link to each other 
for cost-effective uses of technology for dual purposes. Universities 
can help in the design and testing of sensor networks, communication 
technologies, data fusion techniques, policy and governance issues, and 
design and permitting studies to assist this dual-use. Given the 
importance of these developments to U.S. energy needs, it should come 
as no surprise that al-Qa'ida's Committee in the Arabian Peninsula has 
placed Mexico on notice.
    In much the same way, consider the aforementioned massive new deep-
water port being planned for the Punta Colonet region south of 
Ensenada. This will be the largest port development on the west coast 
of North America and is planned to handle more containers than are 
currently being shipped through the Long Beach/Los Angeles ports 
(currently 43.9% of all foreign containers coming into the U.S. in FY 
06).<SUP>xxxii</SUP> The infrastructure needed to move these containers 
by truck and rail into the U.S. will be staggering in some ways. Yet 
the long-term planning to make homeland security a foundational design 
principle of the effort does not seem to be a currently critical DHS 
task given other pressing concerns. By helping design and test sensors, 
transportation corridors, inspection sites, monitoring sites, and 
public benefits, U.S. and Mexican universities can provide research-
based examples of how technology and infrastructure linked to economic 
development and human capital could simultaneously assist both 
countries in meeting their security challenges.
    Epidemics and natural disasters like wild fires, hurricanes, and 
earthquakes are another example of cross-border collaboration that has 
technology and infrastructure connection. Without the communications 
infrastructure in place to communicate with first responders, most 
efforts to immediately respond during and after a disaster are 
extremely limited. Physical infrastructure such as towers on 
mountaintops to provide coverage to fire and law enforcement are 
obvious, but are also obviously disconnected from each other. Less 
obvious is the radio spectrum that is used by first responders, which 
is regulated by both countries. If a Mexican agency uses a specific 
radio frequency, this usage eliminates that frequency from being useful 
in the U.S. spectrum along the border. Thus only about half of the 
spectrum that other first responders in the U.S. can use is available. 
Collaboration across the border, both to eliminate interference, and 
also to enhance interoperability during shared emergencies like wild 
fires, is a major challenge to both countries. Yet it is an opportunity 
for collaboration that universities in both countries, serving as 
honest and neutral brokers and facilitators, can assist in solving.
    San Diego State University is helping with these issues on the U.S. 
side of the border. Mexican universities could do likewise on the 
southern side of the border, as international interoperability and 
collaboration is significantly more elusive than interoperability is in 
the U.S. Mutual aid between Mexican and U.S. firefighters and law 
enforcement personnel is far from being solved, both because of 
technical issues and matters of trust. Isolation rarely enhances trust, 
however, and universities that already work well together can help 
facilitate the building of trust and therefore capability when it is 
needed during and after disasters. Without a communications 
infrastructure or technologies to link together for mutual aid, 
epidemics and disasters will have much more of a negative impact than 
if the two countries could communicate. To help with this, university-
based, non-tactical communications that can link both countries 
together could offer assistance to both countries, while perhaps being 
primarily used as educational, environmental, and health-related 
networks outside the time of disasters.

Security and Border Cooperation and Coordination
    Oftentimes we hear of the numerous issues that serve as impediments 
to binational approaches towards border security. We hear stories of 
the corruption, nationalism, and turf battles that make the idea of 
border governance, let alone border security, a seemingly unobtainable 
goal. These issues are very real and very daunting. Yet they are not 
insurmountable, as other areas of border governance and coordination 
that were once thought impossible are now being overcome.<SUP>xxxiii
    </SUP>For example, the San Diego Association of Governments 
(SANDAG) has a Borders Committee that brings together elected officials 
and representatives from San Diego, Imperial, Riverside, and Orange 
Counties, and Baja California/Mexico with the goal to create a regional 
community where San Diego, neighboring counties, tribal governments, 
and northern Baja California mutually benefit from their varied 
resources and international location.<SUP>xxxv</SUP> Even the local 
office of the Customs and Border Patrol joined SANDAG's efforts last 
year and a strong, constructive relationship between both parties has 
emerged. The Borders Planning and Coordination Division of the Borders 
Committee identified six critical planning areas around which to focus 
its collaborative efforts: jobs/housing accessibility; transportation; 
energy and water supply; environment; economic development; and 
homeland security. Subsequent opportunities have been identified, 
conferences held, strategies developed, research reports and plans 
written, and agreements reached.<SUP>xxxvi</SUP> Indeed, since 2004 
homeland security concerns have been formally part of the regional 
decision-making process under SANDAG's auspices.
    Another example is the Southwest Consortium for Environmental 
Research & Policy (SCERP). SCERP is a collaboration five Mexican 
universities and five American universities located in all ten border 
states. It assists U.S.-Mexican border peoples and their environments 
by applying research information, insights, and innovations. SCERP was 
created in 1989 and was first funded by Congress in 1990 to address 
environmental issues of the U.S./Mexico border region and to ``initiate 
a comprehensive analysis of possible solutions to acute air, water and 
hazardous waste problems that plague the U.S./Mexico border region.'' 
Since then SCERP has implemented about 400 projects involving as many 
as a thousand individuals. SCERP has the multi-fold mission of applied 
research, outreach, education, policy development, and regional 
capacity building for border communities. SCERP informs the decision-
making process in both the U.S. and Mexico without advocating for or 
against a particular position. By interpreting the results of unbiased 
scientific inquiry it provides motivation to adopt comprehensive, 
regional, and long-term policies, solution sets, and environmental 
security.<SUP>xxxii
    </SUP>Thanks to organizations like SANDAG and SCERP, institutional 
and individual trust relationships are built, relationships that lead 
to higher levels of trust which, in turn, lead to even more cooperation 
and coordination. Of course it is trust building that is an important 
step towards creating a secure border. Yet sharing information from one 
side of the border to the other reasonably remains a challenge. When it 
comes to security concerns, trust wrongly placed can, and has, lead to 
the loss of life, fortunes, and careers. However, areas for trust 
building in the border security realm do exist. For example, Mexican 
police would like to have access to stolen car records from the U.S., 
as they recognize that cars in Mexico with valid California plates may 
well be stolen, but they have no way to check this. They see these cars 
as a potential gold mine (insurance companies pay handsome rewards for 
the return of stolen vehicles). This is in addition to gaining the 
substantial revenue from the thousands of stolen cars currently 
operating in Mexico that are not paying any licensing fees. Similarly, 
Mexican police would like to provide intelligence to U.S. police forces 
on terrorist suspects--many of who would be a threat to Mexico as 
well--but the information provided to them is limited at best. Mexican 
police have significant capabilities (including state-of-the-art public 
surveillance, biometric, and facial-recognition technologies), but the 
ability to share such information across international boundaries is 
very limited. During events such as wild fires, flooding, or public 
health concerns such as avian influenza or a bioterrorism attack, this 
challenged shared operational picture may well produce disastrous 
results. Obviously many things cannot be shared, but some can. The 
architecture of such sharing both physically (fiber) and via agreement 
are significant opportunities to assist in shared border and homeland 
security.

Recommendations on How Congress Can Further Promote Border Security
    In the context of this hearing about infrastructure, technology, 
and the human element, Congress can actually take some specific actions 
that would significantly assist the nation using the expertise of 
universities like San Diego State University, of which hundreds would 
likely be interested in assisting DHS and its member agencies. Many 
universities would like to help shoulder the load with DHS and 
Congress, helping discover policy, technology, and infrastructure 
solutions in ways that we can uniquely do.
        Lessons learned from Canada can be very useful for assisting 
        with Mexico in terms of the border and trade. Linking efforts 
        for monitoring the northern and southern land borders is a 
        fruitful endeavor, as the same things do not need to be 
        discovered over and over again. Drawing together even U.S. 
        groups working on one border with those on the other border is 
        not as common as would be fruitful, as the challenge of each 
        border is so overwhelming that people simply cannot integrate 
        an even more difficult reality of different borders with 
        different needs and opportunities. Universities in all three 
        countries could be of significant assistance in providing this 
        integration.

        The DHS Center of Excellence idea with its new view of 
        deliverables to the nation in the near term is very 
        commendable, but the problem is enormously greater than the 
        proposed solution. As an example, DHS is proposing to fund a 
        single center for focusing on Border Security and Immigration 
        for the whole nation, yet likely more than 100 universities are 
        competing in different teams with their varied expertise to 
        land that one, single center. With funding at $3 million per 
        year to look at the legal and illegal transport of people and 
        goods across the border worth hundreds of billions of dollars 
        yearly, it seems that DHS could be greatly assisted by enabling 
        the intellectual creativity and widespread focus of numerous 
        universities on finding real answers. The challenge to DHS is 
        profoundly overwhelming. The challenge to efforts like SBINet 
        alone is staggering; they are trying to find answers to 
        profoundly difficult problems and against thousands of 
        adversaries who are actively seeking to counteract any 
        technology that is deployed. Yet the U.S. is not engaging 
        university expertise or creativity at anything like the level 
        that universities would like to be engaged to positively assist 
        DHS and the nation. In some ways, this is much like deciding 
        that the U.S. will have one center to study cancer, thereby 
        leaving a number of ``have not'' universities who willingly 
        want to bring a variety of different skills, resources, 
        regional expertise, intellectual capital, and creativity unable 
        to do so.
        <bullet> A similar example would be the Center of Excellence on 
        Maritime, Island and Extreme/Remote Environment Security. This 
        is unquestionably a positive step forward and we certainly 
        applaud DHS in holding this competition. Nevertheless, I am 
        again struck by the huge breadth of subject matter from ocean 
        and river ports to islands such as Hawaii and Guam to remote 
        environments like Alaska. Many groups within dozens of 
        universities are interested in actually helping be part of the 
        solution and not just throwing academic stones at DHS or the 
        U.S. government as some are wont to do. Yet at this time there 
        will be only one group in the entire nation trying to assist 
        DHS with this, when clearly dozens of university groups could 
        be helping and covering different aspects of the problem in 
        support of the complex DHS mandates. Aggressively tapping into 
        universities with diverse resources and proximate access to 
        research sites, comprehensive expertise of regional 
        environments, and the pre-existing personal and institutional 
        relationships to make things work, just makes sense.
        <bullet> As a specific example of this dual-use view of the 
        problems DHS agencies are tasked with addressing, consider the 
        ports that are a significant lifeline for the economic well 
        being of the U.S. and its trading partners. These ports are 
        revenue centers and revenue generators and DHS agencies are 
        tasked with trying to securely enhance this trade for the 
        benefit of the nation and its people. The adjacent ports of 
        Long Beach/Los Angeles (LB/LA), for example, had cargo valued 
        at nearly $200 billion flow through them during FY 06. This 
        generated $6.7 billion dollars in direct FY 06 revenue for the 
        U.S.
    In the six-year life of each of the proposed DHS Centers of 
Excellence, likely more than $40 billion dollars in revenue will be 
generated directly to the U.S. government from the LB/LA port complex, 
as part of the likely more than $200 billion collected by CBP over the 
next 6 years, based on a simple extrapolation of last year's figures. 
Yet, DHS plans to invest $18 million over 6 years, or less than 0.05% 
of the actual direct revenue collected by CBP from the LB/LA ports 
alone for the U.S. government, and less than 0.01% of CBP revenues on 
all ports alone for that same period. There is certainly no assurance 
that groups focusing on the LB/LA ports will win the Centers for 
Excellence competition; indeed no group of universities can easily 
address the unique challenges faced by several hundred active ports in 
the U.S., especially for a grand total of $3 million a year. Still, 
hundreds of university researchers in policy and technology are anxious 
to help. Assisting DHS by perhaps linking incoming revenue with 
research dollars to assist DHS in a port-by-port (or even regional) 
basis is something Congress could do. This might be something like port 
revenue rebate to a port region to foster innovation and encourage even 
higher port revenues This rebate could be linked to individual ports or 
port regions have pre-existing relationships with regional research 
universities that will provide tailored assistance and appropriate 
deliverables to them. There is major interest from U.S. and 
international partner universities in assisting DHS with this awesome 
task, yet linking income to research assistance is not a policy of the 
government. This seems like something that Congress could address as it 
appropriates funds in the national interest.
        <bullet> Universities and university researchers can assist DHS 
        and its agencies in many other ways, yet the interface between 
        the academic community and homeland security efforts is still 
        in its infancy. Universities can assist with studies on 
        organized crime and corruption, the milieu from which many 
        border security threats emanate, and violent political 
        movements, which often operate within the milieu created by 
        organized criminals and corrupt officials (drug and weapons 
        trafficking, immigrant smuggling, money laundering, fraudulent 
        documents, intellectual property theft, etc.). Supporting 
        homeland and national security programs, border studies 
        programs, and programs that emphasize language and cultural 
        education would help provide cohorts of public servants who can 
        not only help with border security, but with our future 
        military, intelligence, trade, and diplomatic professions as 
        well. Attendant to this goal is the need for expanded and 
        vigorous support of international study abroad initiatives 
        (like grants or tax breaks) that would allow secondary and 
        higher education students to learn new languages and cultures 
        and develop a more sophisticated, nuanced, and socially 
        responsible view of life in a globalized world. Universities 
        with computing, communication, data mining, sensor fusion, and 
        intelligence gathering tools around the world could be of 
        significant assistance to law enforcement and security 
        personnel who are tasked with actually providing border 
        security and do not have the luxury of real time research and 
        discovery as is possible at universities (including 
        universities in dozens of allied countries that could 
        significantly assist their own security and that of the U.S. 
        from their knowledge gained from their own worlds). 
        Universities can also assist in rapid prototyping and 
        predicting using commodity technologies and generally assisting 
        those who are literally putting their lives on the line to 
        provide security.
        <bullet> I would also encourage Congress to tap into the 
        expertise of other governments from around the world who are 
        experiencing border security challenges. For example, the 
        European Union has concerted multinational policy efforts and 
        significant research expenditures in areas like the security of 
        transport and energy infrastructure, transnational policing, 
        intelligence sharing, data fusion and management, human 
        trafficking, drug smuggling, and organized crime and 
        counterterrorism policies, just to mention a few.<SUP>xxxix</SUP> 
        I have visited European ports to study the balance between the 
        movement of goods and people and security, established U.S./
        European border security technology collaborations, and 
        participated in European organized crime policy symposia. As a 
        result of these experiences, I have learned that our allies 
        have much to teach us and we can benefit from their 
        experiences. I have also learned that cooperation and 
        coordination is possible between states, even when history, 
        language, and culture present substantive obstacles to 
        overcome. Encouraging state-level dialogue that respects 
        traditional state sovereignty, like that stemming from the 
        Security and Prosperity Partnership of North America (SPP), the 
        trilateral effort to increase security and enhance prosperity 
        among the U.S., Canada and Mexico through greater cooperation 
        and information sharing, is a positive step.xl
        <bullet> Finally, trade flows, economic interdependence, the 
        presence of large binational metropolitan urban areas, and the 
        linkages of families all suggest that security efforts of the 
        U.S. must extend beyond the physical international boundary to 
        include these border regions. While infrastructure and 
        technology are important for border security, the collaboration 
        and coordination of people in the U.S., across the border, and 
        abroad is critical. By encouraging and supporting the effective 
        and efficient interoperability of these three elements, 
        Congress will take a major step in furthering our security 
        goals.

Concluding Remarks
    Thank you again for this opportunity to present my views and the 
views of some of my colleagues at San Diego State University. It is our 
hope that you will continue to view our University and the California 
State University System as a resource as grapple with the pressing 
security challenges that face our nation.

                          Attachment I: Notes

    <SUP>i</SUP> Adeeb al-Bassam (representing Al-Qaida's Committee in 
the Arabian Peninsula), ``Bin Laden and the Oil Weapon,'' Sawt al-Jihad 
(``The Voice of Jihad'') Magazine, Issue 30 (February 8, 2007), as 
found on www.globalterroralert.com; ``Al Qaeda Group Calls for Attacks 
on U.S. Oil Sources,'' CNN (February 14, 2007).
    <SUP>ii</SUP> Technological developments in heavy oil technology 
will only add to this amount in the future. See ``Harnessing Heavy Oil 
Technology,'' The Lamp 87:2 (2005); National Energy Board, Conventional 
Heavy Oil Resources of the Western Canada Sedimentary Basin (August 
2001); and National Energy Board, Canada's Oil Sands-Opportunities and 
Challenges to 2015: An Update (June 2006).
    <SUP>iii</SUP> A discussion of this infrastructure can be found in 
The North American Energy Working Group, ``The Energy Picture'' (June 
2002), as found on http://www.eia.doe.gov/emeu/northamerica/
enginfr1.htm#_VPID_1.
    <SUP>iv</SUP> ``Energy Means Business in Mexico,'' The Lamp 86:1 
(2004).
    <SUP>v</SUP> CANARIE, 2005--2006 Annual Report (2006), as found on 
http://www.canarie.ca/press/publications.html; CANARIE, ``Canada's 
Research and Education Network'' (nd), as found on http://
www.canarie.ca/about/downloads/c4map--national.png.
    <SUP>vi</SUP> ``Investigation of Major Mexican Drug Trafficking 
Organization Results in Hundreds of Arrests Nationwide,'' Press 
Release, Department of Justice (February 28, 2007); ``Drug Ring Busted: 
`Operation Imperial Condor' Seizes Cash, Drugs,'' ABC News (February 
28, 2007); and ``Nationwide Sting Nets $45 Million in Drugs,'' Houston 
Chronicle (February 28, 2007).
    <SUP>vii</SUP> ``Los Angeles Summit Seeks to Stop Spread of Gangs 
into Central America,'' International Herald Tribune (February 7, 
2007); ``Attorney General Gonzales Highlights Department Efforts to 
Fight Gang Violence in Los Angeles,'' Press Release, Department of 
Justice (March 2, 2007).
    <SUP>viii</SUP> ``Overview: Toronto Bomb Plot,'' CBC News Online 
(August 4, 2006); ``Homegrown Extremism: Toronto Bomb Plot,'' CBC News 
Online (June 4, 2006); ``Profiles of the Suspects: Toronto Bomb Plot,'' 
CBC News Online (June 12, 2006).
    <SUP>ix</SUP> ``Atlanta Men Met with Extremists in Toronto: FBI,'' 
CTV (April 21, 2006); ``Prosecutors Allege Terror Suspects Shot `Casing 
Video,' '' Fox News (April 29, 2006); ``Atlanta Man Indicted for 
Material Support of Terrorism,'' Press Release-Atlanta Field Division, 
Department of Justice (April 20, 2006).
    <SUP>x</SUP> ``School Ties Link Alleged Plotters,'' Washington Post 
(June 11, 2006); ``Timeline: Probe into Alleged Plot Began in 2004,'' 
CTV (June 5, 2006).
    <SUP>xi</SUP> SANDAG, ``Economic Impacts of Border Wait Times at 
the San Diego-Baja California Border Region: Key Findings,'' as found 
on http://www.sandag.org/
index.asp?projectid=253&fuseaction=projects.detail.
    <SUP>xii</SUP> SANDAG, ``Economic Impacts of Wait Times at the San 
Diego-Baja California Border: Final Report'' (January 19, 2006): vii, 
ix.
    <SUP>xiii</SUP> ``New Port on Horizon,'' The San Diego Union-
Tribune (August 14, 2005); ``Major Seaport Proposed for Baja California 
Norte,'' BajaInsider (nd).
    <SUP>xiv</SUP> U.S. Customs and Border Protection, ``The Port of 
Los Angeles/Long Beach and CBP: The Giant of the Pacific Rim'' (January 
25, 2007), as found on http://www.cbp.gov/xp/cgov/newsroom/
full_text_articles/tours_cbp_facilities/giant_pacific_rim.xml
    <SUP>xv</SUP> For more on the need for the free trade ``circuit'' 
to flow smoothly, see Lawrence Herzog, Cross-border Flows and the 
Future of the California-Baja California Border Region, California 
Economic Policy Report (San Francisco: Public Policy Institute of 
California, 2007--08 forthcoming).
    <SUP>xvi</SUP> ``Trump Ocean Resort Baja Mexico,'' http://
www.trump-baja.com.
    <SUP>xvii</SUP> ``Silicon Border: Science Park of the Americas,'' 
http://www.siborder.com/.
    <SUP>xviii</SUP> For example, see Jeffrey Scott McIllwain, ``An 
Equal Opportunity Employer: Chinese Opium Smuggling Syndicates in and 
around San Diego during the 1910s,'' Transnational Organized Crime 4:2 
(1999); Jeffrey Scott McIllwain, ``Bureaucracy, Corruption, and 
Organized Crime: Enforcing Chinese Exclusion in San Diego, 1897--
1902,'' Western Legal History 17:1 (2004); Ethan Nadlemann, Cops across 
Borders: The Internationalization of U.S. Criminal Law Enforcement 
(Penn State University Press, 1993); James Sandos, ``Northern 
Separatism during the Mexican Revolution: An Inquiry into the Role of 
Drug Trafficking, 1910--1920,'' The Americas 41:2 (1984); James Sandos, 
Rebellion in the Borderlands: Anarchism and the Plan of San Diego, 
1904--1923 (University of Oklahoma Press, 1992); George E. Paulsen, 
``The Yellow Peril at Nogales: The Ordeal of Collector William M. 
Hoey,'' Arizona and the West 13 (1971); Lawrence D. Taylor, ``The Wild 
Frontier Moves South: U.S. Entrepreneurs and the Growth of Tijuana's 
Vice Industry, 1908--1935,'' The Journal of San Diego History 48:3 
(Summer 2002).
    <SUP>xix</SUP> Carlo Morselli, Contacts, Opportunities, and 
Criminal Enterprise (Toronto: University of Toronto Press, 2005): 22.
    <SUP>xx</SUP> Jeffrey Scott McIllwain, ``Organized Crime: A Social 
Network Approach,'' Crime, Law & Social Change: An International 
Journal 32:4 (1999): 301--323.
    <SUP>xxi</SUP> Peter Reuter, Disorganized Crime: Illegal Markets 
and the Mafia (M.I.T. Press, 1986).
    <SUP>xxii</SUP> ``Unfilled Tunnels a Weak Link at Border,'' Los 
Angeles Times (January 30, 2007); ``2 Tons of Pot Found Inside Mexico-
U.S. Border Tunnel,'' The San Diego Union-Tribune (January 26, 2007); 
``Feds Smoke Out Largest Drug Tunnel Yet,'' CNN (January 26, 2006); 
``Two Tunnels Found Under U.S. Border,'' BBC (January 12, 2006); 
``Anti-Drug Efforts Have Taken a Hit as the Fight against Terrorism Has 
Siphoned Away Money and Personnel,'' San Diego Union-Tribune (July 31, 
2005); ``New Drug Tunnel Discovered under Arizona-Mexico Border,'' CNN 
(February 28, 2001).
    <SUP>xxiii</SUP> ``Tunnel Found on Mexican Border,'' Washington 
Post (January 27. 2006).
    <SUP>xxiv</SUP> ``Drug Tunnel Found Under Canada Border,'' CNN 
(July 22, 2005).
    <SUP>xxv</SUP> This eastward shift has created substantive human 
rights concerns due to the hazardous and often deadly nature of the 
terrain and climate through which much of the smuggling occurs, 
concerns that have compelled the CBP to create and extensive search and 
rescue capability. These concerns are continuously and fervently 
expressed by Mexican officials, media, academics, and students whenever 
I lecture on the subjects of, or simply discussed, border and homeland 
security.
    <SUP>xxvi</SUP> For a general discussion on constraints faced by 
democracies against asymmetrical threats, see Roger W. Barnett, 
Asymmetrical Warfare: Today's Challenge to U.S. Military Power (Potomac 
Books, 2003).
    <SUP>xxvii</SUP> Arthur K. Cebrowski and John Garstka, ``Network-
Centric Warfare: Its Origin and Future,'' Proceedings (January 1998).
    <SUP>xxviii</SUP> ``Terrorists Take Recruitment Efforts Online,'' 
60 Minutes, CBS News (March 4, 2007).
    <SUP>xxix</SUP> For more on social systems of organized crime and 
the social networks that form them, see Jeffrey Scott McIllwain, 
``Organized Crime: A Social Network Approach,'' Crime, Law & Social 
Change: An International Journal 32:4 (1999): 301--323.
    <SUP>xxx</SUP> Conference itinerary and speakers can be found at 
http://www.ideea.com/comdef06tucson/.
    <SUP>xxxi</SUP> ``ChevronTexaco Announces Plans for an Offshore LNG 
Terminal in Baja California,'' Press Release, Chevron Texaco (October 
30, 2003), as found on http://www.chevron.com/news/press/2003/2003-10-
30.asp; ``Sempra's Gas Venture Gathering Steam at Baja Site,'' The San 
Diego Union Tribune (October 24, 2005).
    <SUP>xxxii</SUP> U.S. Customs and Border Protection, ``The Port of 
Los Angeles/Long Beach and CBP: The Giant of the Pacific Rim'' (January 
25, 2007), as found on http://www.cbp.gov/xp/cgov/newsroom/
full_text_articles/tours_cbp_facilities/giant_pacific_rim.xml.
    <SUP>xxxiii</SUP> For example, see Lawrence Herzog, Cross-border 
Flows and the Future of the California-Baja California Border Region, 
California Economic Policy Report (Public Policy Institute of 
California, 2007--08 forthcoming); Lawrence A. Herzog (ed.), Shared 
Space: Rethinking The Mexico-United States Border Environment (Center 
for U.S.-Mexican Studies, UC San Diego, 2000); and Lawrence A. Herzog, 
Where North Meets South: Cities, Space and Politics on the U.S.-Mexico 
Border (CMAS/ILAS/University of Texas Press, 1990).
    <SUP>xxxiv</SUP> SANDAG, ``Borders Coordination,'' as found on 
http://www.sandag.org/index.asp?classid=19&fuseaction=home.classhome.
    <SUP>xxxv</SUP> SANDAG, ``Border Coordination: Comprehensive 
Borders Coordination Projects,'' as found on http://www.sandag.org/
index.asp?projectid=234&fuseaction=projects.detail.
    <SUP>xxxvi</SUP> A list of current projects can be found at SANDAG, 
``Borders Coordination: Binational Projects,'' as found on http://
www.sandag.org/index.asp?subclassid=104&fuseaction=home.subclasshome.
    <SUP>xxxvii</SUP> More information on SCERP can be found at http://
www.scerp.org/.
    <SUP>xxxviii</SUP> U.S. Customs and Border Protection, ``The Port 
of Los Angeles/Long Beach and CBP: The Giant of the Pacific Rim'' 
(January 25, 2007), as found on http://www.cbp.gov/xp/cgov/newsroom/
full_text_articles/tours_cbp_facilities/giant_pacific_rim.xml.
    <SUP>xxxix</SUP> These and other border security related 
initiatives are linked from ``The European Commission--A to Z,'' as 
found at http://ec.europa.eu/atoz_en.htm.
    <INF>xl</INF> ``Security and Prosperity Partnership of North 
America,'' as found on http://www.spp.gov/.

    Ms. Sanchez. Thank you.
    Dr. O'Hanlon?

    STATEMENT OF MICHAEL O'HANLON, SENIOR FELLOW, BROOKINGS 
                          INSTITUTION

    Mr. O'Hanlon. Thank you, Congresswoman. It is an honor to 
be here.
    I want to talk briefly about some of the work we have done 
at Brookings, along with Jim Steinberg and others, on the 
importance of information technology and intelligence-gathering 
in the counterterrorism mission and how this question today of 
the border relates to that.
    And I want to do it in a fairly general way, recognizing 
others on the committee I think have more technical expertise 
on the Secure Border Initiative.
    The point I want to make is that, in our Brookings work 
that you kindly mentioned earlier, Congresswoman, we have 
really emphasized that prevention has to be seen as the most 
important tier in homeland security.
    Not everyone agrees with this. There are a lot of people 
who talk about consequence management and response. We 
certainly acknowledge the importance of those sorts of efforts 
as well. But we believe that stopping actions as they are being 
hatched or as people are trying to get in position has to be 
seen as the most important approach.
    What that means for today's subject is that you need to 
know who you are dealing with. You need to know who is in the 
country, who is trying to get in the country. You have to use 
the opportunity that you have at the border and other places to 
spotlight attention on individuals if you are going to be 
effective in counterterrorism.
    You cannot wait for people to get within a few hundred 
yards of a building and figure out then what they are trying to 
attack. And you cannot wait for them to have done the attack 
and then do consequence management.
    Some of the ideas that are out there with other advocates 
of new homeland security initiatives--to spend $20 billion a 
year, for example, on additional consequence management and 
response capability--we don't really agree with in the 
Brookings analysis. We want to focus on prevention.
    A lot of the steps we recommend, such as further tightening 
of terror watch lists; creating a Google-like capability to 
look at, if you are a policeman in one city, you see some kind 
of suspicious behavior, you want to know if it has been 
detected elsewhere, so you want to go Google computer records 
of other police departments to know what they have seen; 
creating more cells in police units, like New York City's, 
where you have a counterterrorism unit.
    A lot of these sorts of efforts only work if you have good 
databases and you know who you are dealing with. You have to be 
able to get information on the people who might be troublesome 
to you. You have to know who they are. I also am a strong 
supporter of biometric robust indicators on driver's licenses 
and passports for this same sort of reason.
    But all these different kinds of efforts that we try to 
emphasize in the Brookings work and which are a little bit 
tangential to your focus today still come back to today's 
topic, and they tell you, if you don't know who is coming in 
the country, these methods probably won't work. You have to get 
a good handle on the border to do everything else correctly in 
counterterrorism, especially if you have the prevention focus 
that we argue is necessary in the Brookings analysis.
    And so, this is really not a specific assessment of the 
Secure Border Initiative or any other particular program, but I 
certainly want to applaud the emphasis on this question.
    And I think the magnitude of expense that is envisioned for 
the Secure Border Initiative of about $10 billion is the right 
kind of magnitude of numbers that we should be talking about. 
If you are going to make that kind of an additional investment 
in homeland security, we argue, it should be at the level of 
intelligence-gathering and of knowing who you are dealing with, 
rather than waiting to protect buildings and protect--or clean 
up after an attack, which is important, which requires some 
attention, but it is not the best expenditure of your dollar.
    So, from a straight counterterrorism perspective, a Secure 
Border Initiative-like program is paramount in importance.
    Thanks for the chance to make that argument.
    [The statement of Mr. O'Hanlon follows:]

    Prepared Statement of Michael O'Hanlon, Brookings Institution\1\
---------------------------------------------------------------------------

    \1\ Much of this comes from Kurt Campbell and Michael O'Hanlon, 
Hard Power: The New Politics of National Security (Basic, 2006); and 
Michael d'Arcy, Michael O'Hanlon, Peter Orszag, Jeremy Shapiro, and 
James Steinberg, Protecting the Homeland 2006/2007 (Brookings, 2006).
---------------------------------------------------------------------------
    A critical issue in any national security agenda for the United 
States is how to protect America against the most immediate and direct 
threat to U.S. security the possibility that future attacks like those 
of September 11, 2001 will again kill large numbers of American 
citizens here in the homeland. If they able to obtain weapons of mass 
destruction, particularly nuclear weapons or advanced biological 
agents, the toll could easily be 10 or even 100 times worse. 
Politically, the issue of counterterrorism and homeland security is of 
manifest importance too. The Bush administration achieved a greater 
advantage over Democrats in general and Senator John Kerry in 
particular on this issue than on any other in the 2004 presidential 
race.
    Homeland security is a matter on which this Congress as well as the 
next Congress and administration will have to make great progress 
because much remains to be done. That said, the arguments of critics 
are often too harsh and sweeping. Much remains to be accomplished, to 
be sure, in protecting the United States against al Qaeda and related 
groups. And on some questions, such as the long-term battle of ideas 
and the execution of the Iraq war, the Bush Administration's record 
should indeed be subject to severe criticism. But it is misleading to 
suggest that the Bush administration has been weak on what might be 
termed the hard power aspects of the homeland security agenda improving 
the country's defenses against their aspirations for further attacks. 
Democrats and moderate Republicans who would challenge the Bush legacy 
and chart a future path for the country of their own need to develop a 
clearer sense of what has been achieved, and of what must still be 
done. More important than the politics of it, of course, America's 
security and the well-being of its citizens depend on such a clear-
headed assessment and sound policy agenda from their future political 
leaders.
    The war on terror has been a hot subject in American politics at 
least since President Bush broadened the scope of his definition of the 
effort to include the doctrine of military preemption and the overthrow 
of the Saddam Hussein regime. In fact, it has been controversial even 
longer. Mr. Bush's State of the Union speech of January 29, 2002 also 
known as the ``axis of evil'' speech signaled a broader scope for the 
war on terror than originally described by the president in his address 
to another joint session of Congress the previous September 20, just 
nine days after the September 11 attacks.\2\ The debate over the 
creation of a new Department of Homeland Security was central in the 
Congressional midterm elections of 2002, in which President Bush 
campaigned more actively than presidents typically do at such points in 
the political cycle. Mr. Bush had originally opposed the idea of a new 
department, which in fact was initially Senator Joseph Lieberman's 
idea. But after accepting the notion in the spring of 2002, and 
proposing a bill to create it that year, the president argued that 
Democrats were placing their political interests in defending unions 
ahead of their obligations to help defend the American people. 
Democrats countered that protecting workers remains a critically 
important goal for the country itself, and that a federal workforce 
deprived of core rights and protections might suffer weaker morale and 
as a result perform suboptimally in trying to protect the country. But 
Mr. Bush's argument seemed to resonate with voters, helping Republican 
candidates win several tight races and take back the Senate.
---------------------------------------------------------------------------
    \2\ See President George W. Bush, ``Address to a Joint Session of 
Congress and the American People,'' September 20, 2001, available at 
www.whitehouse.gov/news/releases/2001/09/print/20010920-8.html; 
President George W. Bush, ``State of the Union Address,'' January 29, 
2002, available at www.whitehouse.gov/news/releases/2002/01/print/
20020129-11.html; and President George W. Bush, ``National Security 
Strategy of the United States of America,'' September 17, 2002, 
available at www.whitehouse.gov/nsc/nssall.html.
---------------------------------------------------------------------------
    Democrats have responded by arguing that the Bush Administration 
has tolerated glaring gaps in the nation's protection against terrorism 
here at home even as it has prosecuted wars abroad with vigor. For 
example, they point to the very slow integration of terrorist 
watchlists during Mr. Bush's first term, and to the administration's 
weak efforts to help states and localities improve their counterterror 
capabilities.
    The president has weathered sharp critiques in part because his 
critics have been less than skilful. That said, Democrats have arguably 
often raised the wrong issues or done so in the wrong way on both 
policy and political grounds. In the 2004 presidential race, for 
example, Senator Kerry and President Bush competed to see which could 
more quickly and convincingly align himself with the recommendations of 
the 9/11 commission on matters such as reform and restructuring of 
America's intelligence community, with Kerry often criticizing Bush for 
delay. But many of the key changes to intelligence that were most 
needed to break down stovepipes in the system had already been fixed 
prior to the release of that report. Critics of the Bush Administration 
from both parties have also argued that the Patriot Act did not give 
proper due to the civil liberties of American citizens just as 
detention policies at Guantanamo Bay and prison policies at Abu Ghraib 
have hurt America's reputation for fairness and created even more 
hatred of this country that has helped al Qaeda with its recruiting 
worldwide. These criticisms of the latter policies have generally been 
appropriate and fair. But the Patriot Act, which updated surveillance 
methods for the era of computers and cell phones, broke down barriers 
to sharing of intelligence across agencies, and strengthened standards 
on documents such as passports was far better legislation than critics 
often allowed. By so strongly condemning it, many Democrats therefore 
set themselves up for Bush Administration counterattack.
    Finally, Democrats and other administration critics have often 
purported that the Bush Administration did not do enough to train and 
equip first responders around the country to deal with possible 
attacks. In some ways that charge is correct, but it would have been 
expensive folly to invest tens of billions of dollars in protective 
gear and rudimentary training for all the nation's first responders, as 
often proposed. A more targeted set of investments focused on the most 
likely terror targets in the country geographically, as well as on the 
types of technologies and training that provide the most capability per 
dollar makes a good deal more sense.\3\
---------------------------------------------------------------------------
    \3\ For more on some of these issues, see Richard A. Falkenrath, 
The 9/11 Commission Report: A Review Essay, International Security, 
vol. 29, no. 3 (Winter 2004/05), p. 184.
---------------------------------------------------------------------------
    I argue here for several specific policy initiatives on homeland 
security, and somewhat greater spending by the federal government as 
well as the private sector, but not for a kitchen-sink approach to the 
problem or any radical increase in resources. In dealing with this huge 
set of challenges, clear priorities and a clear conceptual framework 
for guiding investments are essential. Otherwise costs can be 
exorbitant, and less-important tasks may distract attention from more 
important ones.
    Specifically, I advocate new initiatives to encourage the private 
sector to protect itself more effectively, especially in sectors such 
as the chemical industry and high-rise buildings; to develop a more 
comprehensive system for cargo security on airplanes and in shipping 
containers entering the country and in trucks and trains carrying toxic 
materials domestically; to create national standards for driver's 
licenses with biometric indicators (not photos) and, similarly, 
improvement of the biometric indicators used on US passports; to 
encourage more large-city police departments to build dedicated 
counterterror cells as New York has done; and to develop a quick-
manufacture capacity for vaccines and antidotes to new pathogens that 
it does not now possess.
    Before developing the logic behind these prescriptions, however, it 
is first important to assess where we stand in the war on terror. 
(Those not wishing this background can certainly feel free to skip 
ahead a section.)
A Status Report for the War on Terror
    In developing their policies and positions on counterterrorism 
strategy for the coming years, candidates need to begin with a clear 
sense of the facts. While much is still undone, the fact is that much 
has also been accomplished in the last five years. Much of that 
increase in safety has come from offensive operations abroad the 
military overthrow of the Taliban and associated attacks against al 
Qa'eda, as well as the intelligence and covert operations conducted by 
the United States in conjunction with key allies such as Pakistan and 
Saudi Arabia.
    Homeland security spending is up by at least 300 percent hardly 
fitting the charge that its funding is on ``life support'' that some 
critics have offered. U.S. intelligence spending is now reportedly up 
to $44 billion a year, as much as $10 billion more than estimated 
levels from the 1990s, with nearly 100,000 individuals working for 
American intelligence agencies.\4\ There is more debate in the analytic 
process, and a clearer emphasis in finished reports on the 
uncertainties of various types of assessments (to avoid the mistakes 
not only of 9/11, but of the Iraqi WMD experience).\5\ Terror watch 
lists are now integrated, perhaps belatedly; domestic and foreign 
intelligence operations no longer have strong ``firewalls'' between 
them, and that change was made quickly.
---------------------------------------------------------------------------
    \4\ Mark Mazzetti, Spymaster Tells Secret of Size of Spy Force, New 
York Times, April 21, 2006.
    \5\ John A. Kringen, How We've Improved Intelligence, Washington 
Post, April 3, 2006, p. 19.
---------------------------------------------------------------------------
    The Patriot Act, whatever its problems in insufficiently protecting 
civil liberties, or its possible over-exuberance in allowing subpoenas 
of library records and the like, on balance has been good legislation. 
Democrats and other Bush administration critics need to acknowledge 
that updating wiretap authority for the era of the internet, allowing 
``roving wiretaps'' not fixed to one phone or location, breaking down 
barriers between the FBI and CIA, making banks report suspicious money 
transfers, requiring visa-waiver countries to have biometric indicators 
on their passports, prohibiting possession of dangerous biological 
materials without good research or medicinal reasons, and similar 
measures were overdue and prudent.\6\ There is room for debate about 
specific provisions of the Patriot Act, but it is neither sound policy 
nor sound politics to rail against it categorically as critics have 
sometimes done.
---------------------------------------------------------------------------
    \6\ Charles Doyle, The USA Patriot Act: A Sketch, CRS Report for 
Congress (Washington, D.C.: Congressional Research Service, April 18, 
2002).
---------------------------------------------------------------------------
    Similarly, in the debate over domestic eavesdropping, Democrats and 
many Republicans have been right to expect Mr. Bush not to disobey the 
law (or push it all the way to the breaking point). Asserting greater 
executive privilege should not extend to flouting existing legislation 
or claiming to find incredulous loopholes within it. But Democrats 
should also recognize that obtaining warrants in advance for all 
eavesdropping, even from a court set up to do so quickly and secretly, 
is neither practical nor prudent, as argued convincingly by law 
professors and judges with experience in the field such as Philip 
Bobbitt and Richard Posner.\7\
---------------------------------------------------------------------------
    \7\ Richard A. Posner, A New Surveillance Act, Wall Street Journal, 
February 15, 2006, p. 16; and Philip Bobbitt, Why We Listen, New York 
Times, January 30, 2006, p. A27.
---------------------------------------------------------------------------
    On Guantanamo, critics have again been largely right to criticize 
as un-American and counterproductive the willingness of the 
administration to hold detainees indefinitely without charges or any 
type of due process. This has been a huge policy mistake of the United 
States. It reflects some partially correct observations that terrorists 
are not like soldiers, that introducing the cases of detainees into 
normal American criminal courts is not practical given the kinds of 
classified information, including sources and methods on how we monitor 
possible terrorists, that would then have to be discussed openly. On 
the whole, however, the Bush administration's treatment of terrorist 
detainees has caused far more damage to the United States than any of 
the policy's authors seem to appreciate and far more damage than can be 
easily or quickly repaired.
    Yet critics must themselves be careful. Tone matters when 
critiquing such policies, for Bush administration critics will not 
succeed when they sound as if they fear a hypothetical executive threat 
to civil liberties more than they fear another al Qaeda attack. So does 
any suggestion that the country is now safe enough that we can always 
place every last hypothetical civil liberties concern ahead of 
confronting al Qaeda. In this regard, a recent quote by a senior 
Democratic political strategist, reflective of a good deal of ongoing 
thinking, is in our view wrongheaded. In regard to the eavesdropping 
issue, he stated early in 2006 that ``I don't think the national 
security attack works this time we have a politically weakened 
president whose poll numbers are down and whose credibility is under 
increased scrutiny.''\8\ This is exactly the wrong kind of political 
thinking to engage in for anyone wishing to win an election.
---------------------------------------------------------------------------
    \8\ Jim VandeHei, Rift Between Parties Over NSA Wiretapping Grows, 
Washington Post, January 26, 2006, p. 4.
---------------------------------------------------------------------------
    Guantanamo has been a travesty. A smarter policy would recognize 
the need for special legal procedures for suspected terrorists but 
create a legal firewall inside the government between those charged 
with arresting and holding terrorists, on the one hand, and those 
determining their fate on the other. In particular, the administration 
should have moved far more quickly to create an independent authority 
inside the executive branch with the binding power to release detainees 
it deemed no longer a threat, and it should have set up a regularized 
hearing process to assess the status of detainees promptly and fairly. 
But it is also perfectly clear that trying terrorist cases in normal 
criminal courts would have been unworkable.
    The United States now processes and shares information about 
specific individuals suspected of ties to terrorism much more 
efficiently throughout the federal government. It does so through 
increased integration of databases (even if that process took longer 
than it should have after 9/11), and greater collaboration between the 
FBI and the intelligence community (which began to occur shortly after 
9/11). These initial efforts have now been reinforced by the passage of 
the Intelligence Reform and Terrorism Prevention Act of 2004 that 
restructured the intelligence community and created the position of 
director of national intelligence. These linked databases enable more 
effective offensive operations abroad and homeland security operations 
within American borders.
    The share of FBI resources devoted to counterterrorism has doubled, 
and the combined CIA/FBI personnel working on terrorist financing alone 
have increased from less than a dozen to more than 300 since September, 
2001.\9\ International cooperation in sharing information on suspected 
terrorists has improved. Many close allies, such as France and Britain, 
have been helpful for many years, but intelligence sharing on known al 
Qaeda threats has also become reasonably good with states such as 
Pakistan and Saudi Arabia in part because some such states now take the 
jihadist threat to their own interests more seriously than they used 
to.
---------------------------------------------------------------------------
    \9\ Vicky O'Hara, ``Terrorist Funding,'' National Public Radio, 
Morning Edition, November 20, 2003; Speech of George W. Bush at the FBI 
Academy, Quantico, VA, September 10, 2003; and Philip Shenon, ``U.S. 
Reaches Deal to Limit Transfers of Portable Missiles,'' New York Times, 
October 21, 2003, p. A1.
---------------------------------------------------------------------------
    Air travel is also much safer today than before 9/11. The United 
States now conducts screening of all passenger luggage, requires 
hardened cockpit doors on all large American commercial aircraft, 
deploys thousands of air marshals on commercial carriers, and allows 
armed pilots on commercial and cargo flights.
    Suspicious ships entering U.S. waters are now screened more 
frequently, and containers coming into the United States are two to 
three times more likely to be inspected than before. Hundreds of 
millions of doses of antibiotics and enough smallpox vaccine for every 
man, woman, and child in the United States have been stockpiled.\10\ 
Oversight rules have been tightened on labs working with biological 
materials (including background checks on lab employees).\11\ Terrorism 
insurance is backstopped by a new federal program, recently renewed in 
2005.
---------------------------------------------------------------------------
    \10\ Tom Ridge, ``Since That Day,'' Washington Post, September 11, 
2003, p. 23.
    \11\ Martin Enserink, ``Facing a Security Deadline, Labs Get a 
`Provisional' Pass,'' Science, November 7, 2003, p. 962.
---------------------------------------------------------------------------
    Well-known bridges and tunnels are protected by police and National 
Guard forces during terrorism alerts. Nuclear reactor sites have better 
perimeter protection than before.\12\ Federal agencies are required to 
have security programs for their information technology networks. Many 
private firms have backed up their headquarters and their databanks so 
that operations and information systems could survive the catastrophic 
loss of a main site.\13\
---------------------------------------------------------------------------
    \12\ There may be some gaps in these types of protective measures 
to date, but the overall level of security is generally good. See 
Statement of Jim Wells, General Accounting Office, ``Nuclear Regulatory 
Commission: Preliminary Observations on Efforts to Improve Security at 
Nuclear Power Plants,'' GAO-04-1064T, September 14, 2004.
    \13\John Moteff, ``Computer Security: A Summary of Selected Federal 
Laws, Executive Orders, and Presidential Directives,'' Congressional 
Research Service Report for Congress RL32357, April 16, 2004, p. 2.
---------------------------------------------------------------------------
    What all of these efforts amount to, in short, is this: we have 
prepared fairly well to fight the last war that is, to stop the kinds 
of attacks that the United States has already experienced. Importantly, 
the United States has also gotten much better at trying to prevent 
attacks by tracking suspected terrorists more assertively. Since 
prevention should be seen as the most crucial stage of the homeland 
security effort, more important for example than hardening most 
individual targets, this is real progress.
    The United States cannot be complacent, however. We have done much 
less than we should in the way of detailed preparation to thwart other 
kinds of plausible strikes. It made sense to move quickly to prevent al 
Qa'eda, with its longstanding interest in airplanes, from easily 
repeating the 9/11 attacks. But it is high time to do a more 
comprehensive and forward-looking job of protecting the American 
people.
    Al Qa'eda may not be as capable as before of ``spectacular'' 
attacks in coming years. It is, however, certainly still capable of 
using explosives and small arms, with considerable lethality.\14\ There 
have not been more attacks within the United States. But according to 
an October, 2005 speech by President Bush, the United States has 
disrupted three attempted al Qa'eda strikes inside the United States, 
and intercepted at least five plots to case targets or infiltrate 
terrorists into this country.\15\ There were serious worries that al 
Qa'eda would use truck bombs to destroy key financial institutions in 
New York, Newark, and Washington in 2004.\16\ The ``shoe bomber,'' 
Richard Reid, attempted to destroy an airplane headed to the United 
States in 2002.\17\ U.S. intelligence reports in early 2005 suggested 
the possibility of attacks using private aircraft or helicopters.\18\ 
Al Qa'eda prisoner interviewers and confiscated documents suggest other 
possible attacks ranging from blowing up gas stations to poisoning 
water supplies to using crop dusters to spread biological weapons to 
detonating radioactive dirty bombs.\19\
---------------------------------------------------------------------------
    \14\ David Johnston and Andrew C. Revkin, ``Officials Say Their 
Focus Is on Car and Truck Bombs,'' New York Times, August 2, 2004, p. 
A13.
    \15\ President George W. Bush, Speech on Terrorism at the National 
Endowment for Democracy, October 6, 2005, available at 
www.whitehouse.gov [accessed October 6, 2005].
    \16\ Eric Lichtblau, ``Finance Centers Are Said to Be the 
Targets,'' New York Times, August 2, 2004, p. 1.
    \17\ Shaun Waterman, ``Al Qa'eda Warns of Threat to Water Supply,'' 
Washington Times, May 29, 2003, p. 6; and Eric Lichtblau, ``U.S. Cites 
al Qa'eda in Plan to Destroy Brooklyn Bridge,'' New York Times, June 
20, 2003, p. 1.???
    \18\ Eric Lichtblau, ``Government Report on U.S. Aviation Warns of 
Security Holes,'' New York Times, March 14, 2005, p. A1.
    \19\ Matthew Brzezinski, Fortress America (New York: Bantam Books, 
2004), pp. 16-17.
---------------------------------------------------------------------------
    The years 2002, 2003, and 2004 were among the most lethal in the 
history of global terrorism, with attacks afflicting a wide swath of 
countries from Spain to Morocco to Tunisia to Saudi Arabia to Pakistan 
to Indonesia and of course Iraq.\20\ The pattern continued in 2005, a 
year during which the number of global terrorist attacks again grew 
relative to the year before (though new counting methods and limits 
upon the public release of data make it somewhat difficult to compare 
precisely from year to year).\21\ The July 7 London attacks that year 
should have vividly reminded westerners in general of their continued 
vulnerability.\22\ According to Hillary Peck of the RAND Corporation, 
even though fewer Americans were the victims, global fatalities from 
terrorist action exceeded the 2001 total of 4,555 in both 2004 and 2005 
(the death toll exceeded 5,000 in each of those latter two years).\23\
---------------------------------------------------------------------------
    \20\ See Gilmore Commission (Advisory Panel to Assess Domestic 
Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction), Fifth Annual Report, Forging America's New Normalcy: 
Securing Our Homeland, Preserving Our Liberty (Arlington, Va.: RAND 
Corporation, December 15, 2003), p. 1; Alan B. Krueger and David D. 
Laitin, ```Misunderestimating' Terrorism,'' Foreign Affairs, vol. 83, 
no. 5 (September/October 2004), p. 9; and Susan B. Glasser, ``U.S. 
Figures Show Sharp Global Rise in Terrorism,'' Washington Post, April 
27, 2005, p. 1.
    \21\ Warren P. Strobel, U.S.: Terrorist Attacks Increased Last 
Year, Philadelphia Inquirer, April 21, 2006.
    \22\ Richard Benedetto, Americans Expect Attacks, Poll Finds, USA 
Today, July 12, 2005, p. 1.
    \23\ Will Marshall and Jeremy Rosner, Introduction: A Progressive 
Answer to Jihadist Terror, in Will Marshall, ed., With All Our Might: A 
Progressive Strategy for Defeating Jihadism and Defending Liberty 
(Lanham, Maryland: Rowman & Littlefield Publishers, Inc., 2006), p. 2.
---------------------------------------------------------------------------
    Al Qa'eda has clearly been weakened at the top since 9/11. That 
said, it remains extremely dangerous, and not just because bin Laden 
and al-Zawahiri remain at large. \24\ Al Qaeda is now less of a 
vertical organization than an ideology or a method used by collection 
of loosely affiliated local groups that share similar goals. They also 
watch and learn from each other, through television and the internet 
and extended family connections and other social networks.\25\ Former 
CIA Director Tenet put it succinctly in 2004: ``Successive blows to al 
Qa'eda's central leadership have transformed the organization into a 
loose collection of regional networks that operate more 
autonomously.''\26\
---------------------------------------------------------------------------
    \24\ See Marc Sageman, Understanding Terror Networks (Philadelphia: 
University of Pennsylvania Press, 2004).
    \25\ The Advisory Panel to Assess Domestic Response Capabilities 
for Terrorism Involving Weapons of Mass Destruction (Gilmore 
Commission), Implementing the National Strategy (December 2002), p. 11; 
and Douglas Farah and Peter Finn, ``Terrorism, Inc.,'' Washington Post, 
November 21, 2003, p. 33. On the assertion that modern terrorist groups 
watch and learn from each other, see Bruce Hoffman, ``Terrorism Trends 
and Prospects,'' in Ian O. Lesser, Bruce Hoffman, John Arquilla, David 
Ronfeldt, and Michele Zanini, Countering the New Terrorism (Santa 
Monica, Calif.: RAND, 1999), pp. 8--28; and on the nature of al Qa'eda 
and affiliated as well as sympathetic organizations, see Paul R. 
Pillar, Terrorism and U.S. Foreign Policy (Washington, D.C.: Brookings, 
2001), pp. 54--55.
    \26\ Cited in Daniel L. Byman, ``Homeland Security: We're Safer 
Than You Think,'' Slate, August 2, 2004.
---------------------------------------------------------------------------
    There are benefits from dispersing al Qa'eda in this way; the near-
term risk of sophisticated catastrophic attacks has probably declined 
as a result. But the risk of smaller and sometimes quite deadly strikes 
clearly has not and the possibility of further catastrophic attacks may 
well increase again in the future. To underscore the enduring risks, a 
U.N. study in early 2005 argued that al Qa'eda continues to have easy 
access to financial resources and bomb-making materials.\27\
---------------------------------------------------------------------------
    \27\ Leyla Linton, ``Al-Qa'eda, Taliban Can Still Launch Attacks, 
Report Says,'' Philadelphia Inquirer, February 16, 2005.
---------------------------------------------------------------------------
    Great benefits were gained by depriving al Qa'eda of its sanctuary 
in Afghanistan in Operating Enduring Freedom. Al Qa'eda may learn to 
reconstitute itself with a less formal and more virtual and horizontal 
network, however. It could also avoid terrorist watch lists with some 
effectiveness, for example by using new recruits including possibly 
women, non-Arabs, and European passport holders to conduct future 
attacks against Western countries.\28\ The United States is fortunate 
not to have, as far as we know, many al Qa'eda cells presently on its 
soil, as several European countries do. It is not a foregone conclusion 
that things will stay this way, however.\29\ For all these reasons, it 
is hard to disagree with former CIA Director Porter Goss, who told 
Congress in February 2005 that ``It may be only a matter of time before 
al Qa'eda or another group attempts to use chemical, biological, 
radiological, and nuclear weapons.''\30\
---------------------------------------------------------------------------
    \28\ Washington in Brief, Washington Post, July 17, 2004, p. A5.
    \29\ Byman, ``Homeland Security,'' Slate, August 2, 2004; and ABC 
News, ``No 'True' Al Qa'eda Sleeper Agents Have Been Found in U.S.,'' 
abcnews.com, March 9, 2005.
    \30\ Bill Gertz, ``Goss Fears WMD Attack in U.S. `A Matter of 
Time,''' Washington Times, February 17, 2005, p. 3.
---------------------------------------------------------------------------
    The Iraq war, whatever its other merits, has probably not 
alleviated the global terrorism problem. Indeed, it may have worsened 
it, by aiding al Qa'eda's recruiting efforts and providing jihadists a 
focal point to practice their crafts and establish new networks. To 
quote Goss again, ``Islamic extremists are exploiting the Iraqi 
conflict to recruit new anti-U.S. jihadists. These jihadists who 
survive will leave Iraq experienced and focused on acts of urban 
terrorism.''\31\ The National Intelligence Council reached a similar 
conclusion in its 2004 report, Mapping the Global Future.\32\
---------------------------------------------------------------------------
    \31\ Dana Priest and Josh White, ``War Helps Recruit Terrorists, 
Hill Told,'' Washington Post, February 17, 2005, p. 1.
    \32\ National Intelligence Council, Mapping the Global Future 
(December 2004), p. 94.
---------------------------------------------------------------------------
The Agenda for this Congress and the Next
    Of course, it is not possible to defend a large, open, advanced 
society from all possible types of terrorism. The United States 
contains more than half a million bridges, nearly 500 skyscrapers, 
nearly 200,000 miles of natural gas pipelines, more than 2,800 power 
plants the list of critical infrastructure alone is far too long to 
protect everything, to say nothing of subways, restaurants and movie 
theaters and schools and malls.\33\ Certain special measures, such as 
providing extremely tight security around the nation's 104 nuclear 
power plants, clearly cannot be extended to all possible targets.\34\
---------------------------------------------------------------------------
    \33\ Richard K. Betts, ``The Soft Underbelly of American Primacy: 
Tactical Advantages of Terror,'' Political Science Quarterly, vol. 117, 
no. 1 (Spring 2002), p. 30.
    \34\ On jamming, see ``U.S. Homeland Defense Strategists,'' 
Aviation Week and Space Technology, September 6, 2004, p. 20.
---------------------------------------------------------------------------
    But by focusing on the worst possible attacks, the United States 
can establish priorities and make further progress in protecting the 
country. Several guidelines should inform future efforts, and 
politicians' efforts to speak to the American people about what broad 
principles should guide next steps in enhancing homeland security:
    First, while it was correct to focus initially on preventing al 
Qaeda from carrying out attacks similar to those of 9/11, we have 
prepared a bit too exclusively to fight ``the last war.'' Heeding the 
counsel of the 9/11 commission, we now need to stretch our imaginations 
a bit to identify other key national vulnerabilities, such as possible 
attacks on chemical plants or skyscrapers or the air circulation 
systems of stadiums
    Second, we should focus first and foremost on prevention that is, 
on obtaining good intelligence on terrorists, and impeding their 
movements and their financial transactions and their communications, 
rather than focusing on point defense of the nation's key assets or on 
mitigating the consequences of successful attacks (the latter tasks are 
important but are not as optimal as preventive efforts).
    Third, since we cannot protect everything, we should worry most 
about possible terrorist strikes that would cause large numbers of 
casualties. Only slightly less critically, we should focus intensively 
on preventing attacks that might cause only a relatively few 
casualties, but huge economic ripple effects, such as episodes of 
attempted smuggling that revealed gaping holes in shipping container 
security.
    Here is another example of the latter type of scenario. If a 
shoulder-launched surface-to-air missile took down an airplane, 
casualties might be relatively modest dozens or hundreds a tragedy for 
those involved to be sure, but in and of itself not debilitating to the 
nation. The effects on the nation's air travel could be devastating, 
however. They also could endure much longer than those of September 11, 
2001, since it would take a good deal of time to figure out a workable 
response to avoid future SAM attacks. Another example could be the use 
of a radiological weapon, which uses conventional explosive to disperse 
radioactive material, in an urban area. It would not kill many people, 
but would likely cause mass panic. It would also probably require a 
very costly and time-consuming cleanup as well as implementation of 
disruptive security measures throughout the country.\35\
---------------------------------------------------------------------------
    \35\ Peter D. Zimmerman with Cheryl Loeb, ``Dirty Bombs: The Threat 
Revisited,'' Defense Horizons, no. 38 (January 2004).
---------------------------------------------------------------------------
    There are also general areas of homeland security where important 
progress has occurred in some ways but where key shortcomings remain. 
Consider America's vulnerability to biological attack. Although 
antibiotic stocks for addressing any anthrax attack are now fairly 
robust, means of quickly delivering the antibiotics are not.\36\ 
Longer-term worries about biological attacks remain acute, since there 
could be many types of infectious agents for which antidotes and 
vaccines prove unavailable (or non-existent) when they are most needed.
---------------------------------------------------------------------------
    \36\ Lawrence M. Wein and Edward H. Kaplan, ``Unready for 
Anthrax,'' Washington Post, July 28, 2003, p. A21.
---------------------------------------------------------------------------
    As for air travel, most passengers are still not screened for 
explosives, cargo carried on commercial jets is usually not inspected 
either, and private planes face minimal security scrutiny. For all the 
security improvements that have been made for U.S. carriers, moreover, 
fewer have been made to many foreign carriers that transport large 
numbers of Americans to and from the United States.
    More generally, the U.S. private sector has done very little to 
protect itself.\37\ From chemical plants to trucking carrying hazardous 
shipping to skyscrapers, vulnerabilities are often acute and not far 
different from how they presented themselves prior to 2001.\38\ Owners 
of private infrastructure know that the chances of any one facility 
they own being attacked are miniscule, so they are not apt to incur 
added costs and concede to shareholders and neighbors that their 
facilities might vulnerable on their own volition. Yet viewed from a 
national perspective, these means that certain systemic vulnerabilities 
remain unaddressed.
---------------------------------------------------------------------------
    \37\ Statement of Richard Falkenrath before the Senate Committee on 
Homeland Security and Governmental Affairs, January 26, 2005, pp. 14-
15.
    \38\ Statement of Richard Falkenrath before the Senate Committee on 
Homeland Security and Governmental Affairs, January 26, 2005, pp. 12-
14.
---------------------------------------------------------------------------
    The creation of the Department of Homeland Security has not 
automatically led to better protection against such threats, as the 
hapless response to Hurricane Katrina revealed. DHS has many capable 
and dedicated individuals serving within it. However, reorganizations 
can distract attention from efforts to identify remaining key American 
vulnerabilities and then mitigate them.\39\ Carrying out a major 
governmental overhaul during what is essentially a time of war is a 
risky proposition. It is also not the way the country has typically 
responded to national crises. The Department of Defense was not created 
during World War II, but afterwards. The Goldwater-Nichols Pentagon 
reorganization in 1986 was carried out during a time of relative 
international peace.
---------------------------------------------------------------------------
    \39\ Statement of Richard Falkenrath before the Senate Committee on 
Homeland Security and Governmental Affairs, January 26, 2005, pp. 2, 7.
---------------------------------------------------------------------------
    Congress has improved its ability to address homeland security 
issues by creating dedicated authorization committees and 
appropriations subcommittees in both houses somewhat. Yet it has not 
gone far enough. These dedicated committees and subcommittees must 
share jurisdiction with many other committees and subcommittees that 
insist on a share of the decision-making power.\40\ This approach 
breeds parochialism among the individual committees and subcommittees 
about the particular dimensions of homeland security they address. It 
can also reinforce the tendency for Congressmen to allocate precious 
homeland security to dollars to their districts rather than to where 
they might do the most good.\41\ Congress should ensure that homeland 
security committees and subcommittees should generally have exclusive 
jurisdiction over funding that is found within the homeland security 
realm.
---------------------------------------------------------------------------
    \40\ For a similar critique of Congress's role, see 9/11 
Commission, The 9/11 Commission Report (New York: W.W. Norton and Co., 
2004), pp. 420--422.
    \41\ See Statement of Richard Falkenrath before the Senate 
Committee on Homeland Security and Governmental Affairs, January 26, 
2005, p. 4.
---------------------------------------------------------------------------
    In sum, then, much has been done in homeland security, and much 
remains to be done. That message, with that balanced tone, may be less 
appealing to politicians seeking to excoriate the Bush administration's 
record, but it is a fairer reflection of reality. In tone and 
temperament, it also conveys a seriousness of purpose Americans may 
appreciate more than the wanton partisanship of recent years. A 
candidate offering specific critiques not only can come across as more 
affable, but sends a message that he or she is seeking concrete, 
specific improvements in policy rather than opportunities for partisan 
attack that are of little use once in office.
    The organizing philosophy of our future efforts on homeland 
security should be to protect against attacks with potentially 
catastrophic impact on the country, in human or economic or political 
terms. In the interest of cost effectiveness, where possible action 
should focus on prevention of attacks rather than site defense of 
potential targets or consequence mitigation after attacks have 
occurred. But a blend of all approaches will be needed:
         creating incentives for the private sector to protect itself 
        more effectively, especially in sectors such as the chemical 
        industry and high-rise buildings
         developing a better and much more rigorous security system 
        for container cargo
         greatly expanding screening of cargo on airplanes
         creation of national standards for driver's licenses with 
        biometric indicators (not photos) and, similarly, improvement 
        of the biometric indicators used on US passports
         encouragement to more large-city police departments to build 
        dedicated counterterror cells as New York has done
         with terror watch lists now largely integrated, movement to 
        the next step in using information technology in the war on 
        terror creation of a ``google-like'' search capacity across 
        different police and intelligence databases for correlations of 
        suspicious behavior
         examination of how the country can develop a quick-
        manufacture capacity for vaccines and antidotes to new 
        pathogens that it does not now possess. This could also be of 
        great importance in addressing such scenarios as a possible 
        mutation of the bird flu H5N1 virus to a form highly dangerous 
        to humans.\42\
---------------------------------------------------------------------------
    \42\ Kendall Hoyt, Bird Flu Won't Wait, New York Times, March 3, 
2006.
---------------------------------------------------------------------------
    It is always sound to begin discussion of a new homeland security 
agenda by focusing on intelligence the front lines in the effort, and 
the most important type of homeland security effort since an ounce of 
prevention is worth a pound of cure (or consequence management). Since 
there is too much to protect in this country, the only way to make 
homeland security successful is to stop most terrorists before they can 
even get in position to attempt an attack.
    One key area of needed improvement in this domain is coordination 
between the federal government on the one hand and state and local 
governments on the other. Today, although the FBI runs the Joint 
Terrorism Task Forces (JTTFs) in major cities, and is beginning to help 
state and local police forces more effectively, it is very small 
compared with police forces. That means it can have nothing like the 
same presence on the ground. In addition, while changes have occurred, 
it has been slow to change its traditional focus on solving criminal 
cases. An approach recommended recently by a team of Brookings scholars 
would use federal funds to expand local police intelligence and 
counterterrorism units in America's larger cities.\43\ Today, only New 
York really takes this task seriously. The use of federal funds to 
recruit an extra 10,000 police officers for this purpose would cost 
around $1 billion a year.
---------------------------------------------------------------------------
    \43\ Michael d'Arcy, Michael O'Hanlon, Peter Orszag, Jeremy 
Shapiro, and James Steinberg, Protecting the Homeland 2006/2007 
(Washington, D.C.: Brookings, 2006), pp. 122--124.
---------------------------------------------------------------------------
    Other steps are needed too. Notably, despite the opposition of a 
number of states, federal standards for driving licenses must be 
mandated. U.S. security agencies should also create ``data czars''--to 
protect information, and also to facilitate its timely exchange when 
appropriate.
    As Brookings scholar Jeremy Shapiro and Dean of the LBJ School of 
Public Policy James Steinberg have recently argued, the transatlantic 
homeland security agenda requires further work as well. For example, an 
assistance and extradition treaty was signed between the U.S. and E.U. 
in June 2003. But there is still a need for measures on both sides of 
the Atlantic that allow the admission of intelligence information as 
evidence in court while protecting against its disclosure.\44\
---------------------------------------------------------------------------
    \44\ James Steinberg, Intelligence Reform, in Michael d'Arcy, 
Michael O'Hanlon, Peter Orszag, Jeremy Shapiro, and James Steinberg, 
Protecting the Homeland 2006/2007 (Washington, D.C.: Brookings 
Institution, 2006),pp. 27-30; and Jeremy Shapiro, ``International 
Cooperation on Homeland Security,'' in d'Arcy, O'Hanlon, Orszag, 
Shapiro, and Steinberg, Protecting the Homeland 2006/2007, pp. 58-69.
---------------------------------------------------------------------------
    There are also some areas where existing European efforts at 
homeland security exceed those of the United States. In particular, as 
Michael d'Arcy of King's College in London has argued, the U.S. choice 
of using just a facial image as the biometric indicator in its 
passports is unwise. Photographs are inherently unreliable. The U.S. 
should follow the E.U. in incorporating fingerprints data, and ideally 
both sides of the Atlantic will move to using iris data in time.\45\
---------------------------------------------------------------------------
    \45\ Michael d'Arcy, Technology Development and Transportation 
Security,'' in d'Arcy, O'Hanlon, Orszag, Shapiro, and Steinberg, 
Protecting the Homeland 2006/2007, pp. 135-39.
---------------------------------------------------------------------------
    Foreign airliners should also be expected to meet tighter security 
standards within short order. This problem is of particular concern 
outside the European Union. Deployments of hardened aircraft doors and 
air marshals are imperative. They are also overdue.
    Considerable progress has been made in the US-VISIT program, which 
requires most people entering the United States to submit fingerprints 
and a digital photograph. These biometrics can then be checked against 
the DHS IDENT database and the records of visa holders. The United 
States should also speed up efforts to track the exits of visa holders. 
This is important to prevent people who have managed to get into the 
country on visa to overstay their legally allowed stay, with the 
possibility of conducting terror attacks over a long period of time.
    There are also still major problems at the U.S. borders, which 
remain porous despite major improvements. The PATRIOT Act increased the 
number of patrol agents at the U.S.-Canadian border to 1,000, but more 
are needed, as evidenced by the continued high flow of people across 
the border. The SBI is appears to be an initiative that in scale and 
scope is commensurate with the seriousness of this challenge. In this 
context, the United States and its neighbors should continue to move to 
a regime in which all people who cross the border, including passengers 
in cars, are individually screened. This is not standard practice 
today.
    Those who have traveled by plane from certain airports in the 
United States in recent months may have undergone the straightforward 
process of explosives ``sniffing.'' This should become standard 
practice at all U.S. airports as quickly as possible. A national trace 
detector network would cost about $250 million. Just as importantly, 
this country needs a comprehensive means of either screening cargo 
carried on airplanes or hardening aircraft cargo holds. And private 
aircraft are still insufficiently monitored. To prevent plane-based 
suicide attacks, there should be greater screening of private aircraft 
pilots by the federal government.
    The threat to aircraft from surface-to-air missiles is real. 
Unfortunately, the technology to counter them is not yet ready for 
deployment. A sustained and serious R&D program is appropriate and 
might be expanded, but on this issue, available technology does not yet 
offer a good enough option to warrant the effort and expense of 
deployment. After a shootdown of a civilian aircraft, however, that 
assessment could quickly change.
    The container trade is another area of major potential 
vulnerability. As with many issues considered above, perfect solutions 
are elusive, and brute-force methods of providing comprehensive 
security could be hugely expensive. But there are still practical steps 
that could be taken to substantially improve American security. Over 
the period 2001 to 2004 the number of cargo inspectors in the United 
States grew by 40 percent and the number of inspections by 60 percent. 
Even so, only 6 percent of seaborne cargo containers are inspected. To 
have a good chance of inspecting any suspicious container that is not 
being shipped by a company and port with strong security records, it 
would be safer according to informal conversations with experts to aim 
for inspecting 10 to 15 percent of all traffic. Over the longer term, a 
new type of system might provide positive confidence in virtually all 
containers and such a system is now in use in Hong Kong.\46\
---------------------------------------------------------------------------
    \46\ Stephen E. Flynn and James M. Loy, A Port in the Storm Over 
Dubai, New York Times, February 28, 2006, p. A19.
---------------------------------------------------------------------------
    As for state and local governments, in addition to the greater 
prevention efforts noted above, they do need the right kinds of 
improved consequence management capabilities. For example, a major city 
could purchase several dozen mobile interoperable communications 
systems, at a cost of perhaps $1 million each, to facilitate 
communication between different first responders. The idea is that not 
every police radio need have the capacity to talk with every fire or 
rescue radio but interfaces are needed that can go to the scene of an 
incident and facilitate the cross-communications that are required. 
Huge additional expenditures are not needed, but targeted additional 
investments make sense in such cases. Technologies are available, and 
procedures already have been tested, to make these interlinkages work 
(through some first responder communities, as well as the militiary's 
Joint Forces Command and Northern Command). But procurement practices 
need to be standardized and concrete plans need to be devised and 
implemented.
    Since 9/11, as noted, key parts of the private sector have done 
relatively little to protect themselves. And Washington needs to spur 
them to do so. The role of the government is not to regulate onerous 
security standards everywhere, but to catalyze the private sector to 
protect itself. As suggested by Peter Orszag, an appealing approach 
would make use of the nation's insurance system, coupled with some 
minimal regulation of safety standards. By this concept, terrorism 
coverage would be mandatory on all commercial policies above some 
minimum threshold (such as several million dollars). The government 
would play the role of a financial backstop, as indeed it already is 
given the renewal of the Terrorism Risk Insurance Act in 2005 but with 
the modifications that only extreme, catastrophic losses should be 
covered. A graduated rate structure in the insurance market, rather 
than government regulation, would then encourage best practices when 
there were affordable and reasonably effective.
    As for some specific private sector initiatives: chemical and 
nuclear plants are potential targets for low-tech attacks with massive 
consequences. The U.S. chemical industry still has no legal framework 
guiding its security measures (which so far have been taken 
voluntarily). In this case, direct regulation is appropriate. 
Legislation to rectify this, including periodic safety assessments and 
common-sense solutions, should be a priority. There are also numerous 
cases where dangerous chemicals should be routed around large cities, 
and also where substitutes for them should be found when possible, as 
with chlorine for purifying water.
    Nuclear power plants are now relatively well protected. However, 
areas where low-grade waste is stored are often not. This increases the 
likelihood of a radiological attack, and so the level of security must 
be improved.
    Large buildings should have better security provisions too. Again, 
common sense, the use of the market, and a degree of patience can make 
such measures affordable. For example, when built or renovate, 
buildings should be fitted with air filtration and circulation systems 
that would minimize the permeation of chemical or biological agents. 
Other steps can be taken to protect buildings against bombs and 
infrastructure attacks, and should be reflected in new building codes. 
These could include elevators that descend to the nearest floor in the 
event of a power outage, building important buildings back from 
roadways, using shatterproof glass in their lower floors, and 
controlling access for entry and for parking.
    There is an important homeland security agenda that the next 
president and future leaders in the Congress will need to pursue. Some 
key vulnerable sites such as chemical plants are unprotected. So are 
most skyscrapers. Police forces in most cities have scant capacity to 
conduct counterterror work and depend excessively on a small national 
FBI capacity. Container shipping remains very lightly monitored; much 
air travel remains unsafe; international collaboration on homeland 
security has not progressed very far beyond sharing of names on terror 
watch lists. The progress we have seen to date has been significant, 
and the country has become much more secure. Yet a great deal remains 
to be done.

    Ms. Sanchez. Thank you.
    And we will hear from Mr. Wermuth.

STATEMENT OF MICHAEL WERMUTH, DIRECTOR, RAND HOMELAND SECURITY 
                            PROGRAM

    Mr. Wermuth. Madam Chair, Ranking Member, distinguished 
members of the subcommittee, thank you for giving RAND the 
opportunity to address this hearing.
    I am joined today by my colleague Dr. Jack Riley, who is 
the associate director for RAND's Infrastructure, Safety, and 
Environment Division.
    And effective approach to border security must have risk as 
the common metric. And risk, in our view, is a function of 
three components: a credible threat of an attack on a 
vulnerable target that would result in unwanted consequences.
    And while much of the maritime focus on border security 
from terrorist attacks is on containers, there are other parts 
of the maritime arena that are at risk--cruise ships and 
ferries, as examples--that should not be overlooked.
    The main point I would like to make is that individual 
border programs have not been integrated into and measured 
against a comprehensive risk-reduction framework or evaluated 
against a clear set of metrics or viewed as part of a 
comprehensive, systematic approach to border security.
    We do not yet have the comprehensive, risk-based, fully 
integrated, national border control strategy that we suggest is 
an imperative. As a result, it is hard to answer basic 
questions about investment overall or for individual aspects of 
border security.
    So we suggest that Congress should ensure that the grand 
strategy on border security and the ability to measure progress 
against it be put in place, with relatively less emphasis on 
mandating specific programs until the urgent issue of the 
overall architecture is addressed.
    Congressional entities with jurisdiction over DHS and other 
relevant agencies should push toward a consensus with DHS and 
the other stakeholders on the development of this national 
border control strategy.
    And Congress should seriously consider the establishment of 
a high-level policy position at DHS, a person with the 
responsibility for taking the long view in helping DHS develop 
strategic policies that integrate across the different 
operational elements of the department and with other federal 
agencies, international governments, the private sector, and 
state and local entities.
    We suggest that an effective national border control 
strategy will include at least six key elements.
    First, the establishment of quantified benchmarks and 
performance and effectiveness metrics. True measures of 
effectiveness cannot simply be an enumeration of outputs. In my 
written statement, I cite several RAND studies that emphasize 
that point, and I will be happy to provide more detail in the 
question-and-answer session.
    Number two, the development of a comprehensive border 
technology roadmap. We should develop a technology roadmap that 
identifies pressing border security issues to allow both the 
public and private sectors to structure investments that will 
yield high payoffs. But we need robust systems of both 
technological and nontechnology needs.
    Number three, the integration of planning and coordination 
among border security entities. Given the numerous entities 
both inside and outside DHS with border responsibilities, there 
needs to be better interoperable current planning and better 
long-range planning, programming and budgeting processes for 
major elements of DHS.
    Our work for decades for entities in the Department of 
Defense suggest that attempts to improve similar processes for 
that department could have application in DHS, including 
something akin to a Quadrennial Defense Review.
    These processes are essential to meeting dynamic and 
emerging threats. As we improve one aspect of border security, 
increased security concerns may shift to another sector. For 
example, if initiatives to stem illegal activity across our 
land borders become more successful, the threat could shift to 
the maritime domain.
    Number four, the creation of plans for managing the border 
during crisis. An overlooked but important aspect of border 
security is how we will manage the consequences of the shutdown 
and reopening of the border, especially maritime ports of 
entry.
    Number five, the coordination of border security with 
comprehensive immigration and border management policies to 
understand better the effects that these policies have on our 
economy and our society.
    And six and last, upfront consideration in program 
development of critical privacy and other civil rights 
implications.
    Thank you, again, for the opportunity. And I look forward 
to your questions.
    [The statement of Mr. Wermuth follows:]

                         Michael A. Wermuth \1\

                      Accompanied by K. Jack Riley

                          The RAND Corporation

              The Streategic Challenge of Border Security

               Before the Committee on Homeland Security

      Subcommittee on border, Maritime and Global Counterterrorism

                 United States House of Representatives

                             March 8, 2007

Introduction
    Madam Chair, and Members of the subcommittee, thank you for giving 
RAND the opportunity to address the critical issue of securing our 
borders as part of the broader effort to secure the U.S. homeland. I 
have here with me today Jack Riley, Associate Director for RAND's 
Infrastructure, Safety, and Environment research unit.
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. this product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    We have been asked to focus our remarks today on the maritime 
aspect of border security. We should, however, note at the outset that 
no single piece of border security air, land, or sea; people or cargo; 
transportation modes; technology; intelligence; law enforcement; trade 
and other economic considerations; and more can truly be addressed 
separately.
    And while issues of security from terrorist attacks is certainly a 
major concern that drives many border security considerations, there 
are other critical, ``daily'' issues involving criminal activities, 
including trafficking in drugs, the smuggling of weapons and other 
illegal contraband, and human trafficking. In addition, as we improve 
one aspect of border security, increased security concerns may shift to 
another aspect. For example, if initiatives to stem illegal activity 
across our land borders become more successful, we could see a decided 
shift in security threats to the maritime domain. Those issues must 
form an integral part of border security programs. Moreover, all must 
be considered in the context of a strategic security framework, of 
which border security is only one part.
    The maritime challenges to border security are enormous. Every day, 
over 30,000 maritime cargo containers pass through U.S. ports. In 
addition, more than 4 million automobiles imported annually enter U.S. 
ports along with other bulk and break-bulk cargo not carried in 
containers, such as oil, natural gas, hundreds of cruise ships 
annually.
    The people and cargo that cross our borders are the economic 
lifeblood of the nation. Decisions about security at the border have 
the potential to affect the livelihood of millions of Americans and a 
significant portion of the U.S. economy. More than $2 trillion of goods 
annually over $1.3 billion a day pass in and out of U.S. ports, 
representing almost 25 per cent of the U.S. Gross Domestic Product.
    Some specific questions that arose in the most recent hearing of 
this subcommittee included the value of the proposed 700 mile fence 
along the US-Mexican border and whether 6000 new Border Patrol agents 
(for a total of 18,000) is sufficient for the task of guarding the 
nation's borders. In addition, there have been repeated attempts to 
require the screening of each container entering a U.S. port. These 
kinds of questions address important pieces of the overall picture of 
border security, but they do not address the comprehensive question 
with which we believe the Congress and the public is most concerned: do 
we have adequate border security? An honest answer to that question 
would be ``we don't know.''

Managing Border Security Risk
    Our overarching objective should be to manage the risks associated 
with our borders effectively and efficiently. Risk has to be the common 
metric, otherwise we are comparing unlike concepts, and we therefore 
cannot choose rationally among options. What, then, do we mean by risk? 
Risk is function of three components: a credible threat of attack on a 
vulnerable target that would result in unwanted consequences. Risk only 
exists if terrorists want to launch an attack, if they have the means 
to do so successfully, and if the attack exploits a vulnerable target 
in ways that result in deaths, injuries, disruptions, or other outcomes 
that adversely affect U.S. society.\2\ And while much of the focus on 
border security from terrorist attacks is on containers, there are 
other issues in the maritime arena cruise ships and ferries, as 
examples that should not be overlooked.\3\
---------------------------------------------------------------------------
    \2\ Our approach to terrorism risk management, especially as it 
applies to the allocation of resources, is contained in Henry Willis, 
et al., Estimating Terrorism Risk, MG-388, RAND, 2005, available at 
http://www.rand.org/pubs/monographs/2005/RAND_MG388.pdf.
    \3\ See Michael Greenberg, et al., Maritime Terrorism, Risk and 
Liability, MG-520, RAND, 2006, available at http://www.rand.org/pubs/
monographs/MG520/.
---------------------------------------------------------------------------
    Since 9/11, we have developed numerous innovative approaches to 
border security in securing the borders. Key innovations include: the 
Container Security Initiative (CSI), which increases container 
inspections at foreign ports; the Customs-Trade Partnership Against 
Terrorism program, the CBP voluntary government-business initiative to 
build collaborative relationships between border agencies and those 
private sector elements in the global supply chain; the 24-Hour Advance 
Cargo Manifest Rule, which requires carriers to submit a complete cargo 
manifest to CBP at least 24 hours prior to cargo loading if that vessel 
is calling directly on a U.S. port; the REAL ID Act and the emerging 
implementation of a Transportation Worker Identification Credential 
Program (a joint effort of the Transportation Security Administration 
and the U.S. Coast Guard), which should help to limit the ability of 
terrorists to procure and use false identification; and the development 
of fast lane programs that let certain shippers participate in special 
security activities, which allow them to move commerce rapidly over 
international borders.
    As well intentioned as these and other programs are, however, 
individual programs have not been integrated into, and measured 
against, a comprehensive risk reduction framework. Many have not been 
evaluated against a clear set of metrics, and have not been viewed as 
part of a comprehensive, systematic approach even to border security 
much less to the broader security equation. Despite the passage of the 
Maritime Transportation Security Act of 2002,\4\ the promulgation of a 
National Strategy for Maritime Security, and numerous Presidential 
directives with implications for border security (including Homeland 
Security Presidential Directives 3, 4, 6, 7, 11, 14 and Homeland 
Security Presidential Directive 13, specifically on maritime security), 
we do not yet have the comprehensive, risk-based, fully integrated 
national border control strategy. As a result, we cannot answer basic 
questions about where investment in border security overall or for 
specific aspects of border security is most urgently needed and how 
large those investments should be.
---------------------------------------------------------------------------
    \4\ Public Law 107-292, November 25, 2002.
---------------------------------------------------------------------------
    To illustrate more concretely the need for a national border 
control strategy, consider one proposed activity mandatory--inspection 
of all cargo containers entering the U.S.--that Congress has repeatedly 
made efforts to have implemented. RAND's research has shown that such a 
program could be expensive and add to congestion at the ports if not 
implemented with innovative application of technologies and processes 
that allow learning and improvement as the extent of container 
inspections increase.\5\
---------------------------------------------------------------------------
    \5\ See Susan Martonosi, et al., Evaluating the Viability of 100 
Per Cent Container Inspection at America's Ports, reprinted with 
permission from The Economic Impacts of Terrorist Attacks, edited by 
Harry W. Richardson, Peter Gordon, James E. Moore II, pp. 218-241, 
Copyright  2005 Edward Elgar Publishing, available at http://
www.rand.org/pubs/reprints/RP1220/; and Henry Willis, et al., 
Evaluating the Security of the Global Containerized Supply Chain, TR-
214, RAND, 2004, available at http://www.rand.org/pubs/
technical_reports/TR214/.
---------------------------------------------------------------------------
    These findings do not mean that a program of 100 percent container 
inspection is totally without merit, only that before adoption it 
should be compared to the merits of other policies, such as adding an 
additional 6,000 Border Patrol agents, or putting up a 700 mile fence, 
or the use of unmanned aerial vehicles and other technologies. 
Unfortunately, we cannot draw conclusions about the relative worth of 
such programs for three reasons. First, most of the alternative 
investments to the policy of 100 percent container inspection have not 
been evaluated. Thus, there is very little evidentiary basis about 
which policies to pursue and at what levels of investment. Second, 
virtually no work has been done to understand the degree to which 
individual programmatic or policy options mutually reinforce--or 
undermine--other individual policy options. In other words, we need to 
know the degree to which our policies work together to provide robust, 
defense-in-depth at the border. Third, and most importantly, we have 
very little understanding of how individual policies and suites of 
policies combine to affect risk reduction. Thus, even though the 
individual policy of 100 percent screening may logically target the 
vulnerability of cargo containers, we still need to understand how--or 
if--it contributes to overall risk reduction (taking into consideration 
the threat and consequence components) before investing in it.

Toward a National Border Control Strategy
    Thus, the task of establishing a national border control strategy 
is urgent. What would an effective national border control strategy 
look like? An effective strategy will include the following:
    The establishment of quantified benchmarks, and performance and 
effectiveness metrics. Benchmarks and metrics will help us understand 
which programs are working, which ones merit additional investment, and 
which ones should be deemphasized. It is important that there be true 
measures of effectiveness and not simply an enumeration of outputs. As 
an example, RAND staff recently completed an analysis on security at 
shopping malls that identified specific steps that mall owners and 
operators could take to improve their security against terrorism.\6\ 
These security measures were arrayed in order of their cost-
effectiveness where the metric used was the number of lives saved by 
the security measure in a hypothetical attack scenario. That same 
methodology could be used to measure the costs and benefit of each 
component of a border security system, as well as the cumulative costs 
and benefits of the system as a whole.
---------------------------------------------------------------------------
    \6\ LaTourrette, et al., Reducing Terrorism Risk at Shopping 
Centers: An Analysis of Potential Security Options, TR-401, RAND, 2007, 
available at http://www.rand.org/pubs/technical_reports/TR401/.
---------------------------------------------------------------------------
    RAND staff also studied the costs and effectiveness of arming 
civilian airliners with defensive mechanisms to counter the use of 
shoulder-fired missiles also known as MANPADS (Man-Portable Air Defense 
Systems). That comprehensive analysis determined that it was premature 
deploy a missile defense system without further, in-depth analysis, 
including an examination of alternative technologies and missile 
control strategies.\7\ As it becomes more difficult to increase 
homeland security spending in real terms, it becomes increasingly 
important to invest in programs that fill critical security gaps in a 
cost-effective manner.
---------------------------------------------------------------------------
    \7\ James Chow, et al., Protecting Commercial Aviation Against the 
Shoulder-Fired Missile Threat, OP-106-RC, RAND, 2005, available at 
http://www.rand.org/pubs/occasional_papers/OP106/.
---------------------------------------------------------------------------
    The development of a comprehensive border technology roadmap. There 
is no shortage of new and potentially useful technologies for use in 
border security. Technologies exist, for example, to combat the threat 
that surface-to-air missiles pose to civilian aircraft. RAND's 2005 
evaluation found, however, that current technologies could be evaded 
easily, were relatively costly compared to the overall threat and 
consequences of such an attack, and offered little protection against 
future generations of such missiles that terrorists might acquire over 
the near term. One way to ensure that we are producing technologies 
that better meet our needs is to develop a technology roadmap that 
identifies the pressing border security challenges that need to be 
resolved. With this roadmap, the public and private sectors can 
structure their investment in technologies that will yield high 
payoffs, address mission-relevant functions, provide essential 
capabilities and over a policy-relevant time horizon. When building the 
technology roadmap, we should be careful not to prescribe technology as 
the most critical component of a national border control strategy.
    The potential for failures in technological systems, including the 
possibility that terrorists or other criminal elements could find ways 
to defeat or avoid them, argues strongly for robust systems of 
technological and non-technology means. RAND has just completed a set 
of studies for the S&T Directorate of DHS that explored the ways 
terrorist groups have overcome defensive measures in the past 
highlighting the danger of relying on technology alone for 
protection.\8\ And technologies that are used must be able to be 
integrated into a unified border security system so they do not result 
in technological stovepipes that complicate rather than improve overall 
security.
---------------------------------------------------------------------------
    \8\ See, for example, Brian A. Jackson, et al., Breaching the 
Fortress Wall: Understanding Terrorist Efforts to Overcome Defensive 
Technologies, MG-481-DHS, RAND, 2007, available at http://www.rand.org/
pubs/monographs/MG481/.
---------------------------------------------------------------------------
    The integration of planning and coordination among border security 
entities. Numerous entities in DHS have border security 
responsibilities and capabilities, including TSA, Customs and Border 
Protection, Immigration and Customs Enforcement, and the U.S. Coast 
Guard. Further evaluation is necessary in order to determine how 
effectively those organizations are operating and can operate 
collectively. In addition, other DHS entities have responsibilities 
that must be part of a comprehensive, department-wide approach to 
effective border security, including the Assistant Secretariat for 
Intelligence and Analysis, the Under Secretariat for Science and 
Technology; the Under Secretariat for Preparedness (as that entity may 
be reorganized or renamed); and the Under Secretary for Administration. 
DHS should develop comprehensive operational plans that clearly 
articulate the roles, missions, responsibilities, coordination and 
communications line among the various players. There is an analog to 
the process by which combating commands in the department of defense 
develop comprehensive operational plans. In addition, there are 
numerous entities outside DHS that have some stake in or cognizance 
over border security, including the maritime aspect: The FBI and other 
Department of Justice entities; the Departments of Agriculture, of 
State, and of Commerce; the Department of Defense; the Director of 
National Intelligence; and others. Moreover, there needs to be a better 
long-range planning, programming, and budgeting process for major 
elements of DHS. Our work for decades for entities in the Department of 
Defense suggests that attempts to improve similar processes for that 
department could have application in DHS, including something akin to 
the Quadrennial Defense Review.
    The creation of plans for managing the border during crises. 
Numerous games and exercises, including our own simulation of a nuclear 
incident at the Port of Long Beach, have demonstrated that border 
security incidents have great potential to significantly disrupt border 
activity. When--and it is probably when, not if--border security fails, 
the borders will almost certainly be closed. An overlooked but 
important aspect of border security is how we will manage the 
consequences of the shutdown and, more importantly, how we will manage 
the reopening of the border. This is no academic exercise. The attacks 
of 9/11 resulted in lengthy closings of U.S. land, air and sea borders.
    The coordination of border security with comprehensive immigration 
and border management policies. Effective border management requires 
more than capability to intercept illicit cargo and people. It also 
requires understanding how measures put in place for security affect 
how goods and people move across our borders. The effects that these 
policies have on our population have the potential to affect 
dramatically our economy and the fabric of our society.
    Privacy and other civil rights implications. Nothing we are 
suggesting would necessarily impinge on the privacy or civil liberties 
of Americans. Programs for border security must always consider the 
effects of implementation on these critical issues.

Role for the Congress
    The most critical role for Congress at this juncture is to focus on 
ensuring that the grand strategy on border security--and the ability to 
measure progress against it--is in place. Congress should place 
relatively less emphasis on mandating specific programs in the realm of 
border security until the urgent issue of the overall architecture is 
addressed. To that end, this subcommittee, the full committee and 
others with jurisdiction over DHS and other relevant agencies 
activities and funding should push toward a consensus with the 
Department and other stakeholders on the development of a national 
border security strategy.
    There is no denying that in other aspects of major policy 
planning--especially in the establishment of a national transportation 
security policy--the Department has been relatively slow in responding. 
One reason that the Department struggles with developing these 
strategic frameworks is that it has no high-level leadership dedicated 
to policy development across the diverse and sprawling empire of DHS 
and with the other entities that have border security responsibilities 
and interests. In other cabinet agencies, such as the Department of 
Defense (DoD), there is an Under Secretary for Policy. At DoD the Under 
Secretary is charged to ``consistently provide responsive, forward-
thinking, and insightful policy advice and support to the Secretary of 
Defense, and the Department of Defense, in alignment with national 
security objectives.'' \9\
---------------------------------------------------------------------------
    \9\ Office of the Under Secretary of Defense for Policy, http://
www.dod.mil/policy/index.html, accessed March 3, 2007.
---------------------------------------------------------------------------
    Congress should give serious consideration to supporting the 
establishment of a similar high-level position at the Department of 
Homeland Security, one that vests that person with the responsibility 
for taking the ``long view'' and helping DHS develop strategic policies 
that integrate across the different operational elements of the 
Department and with other agencies, including international governments 
and private sector interests. Not insignificantly, such an under 
secretary would also be a critical point of interaction with the 
academic, research and development communities. These communities--of 
which RAND is a part--often struggle to interact with the operational 
elements of DHS. The operational elements are focused on getting things 
done, while the academic and research communities are often focused on 
longer-term challenges such as evaluating, measuring, and assessing. 
That said, deeper integration of these communities into the DHS 
strategy-setting process is vital, and the establishment of a position 
with these responsibilities is perhaps the most effective way to make 
this happen.

Summary
    We have significantly underinvested in developing, evaluating, and 
refining a comprehensive and integrated border security strategy. We 
have invested in numerous border security programs and initiatives but 
the impacts and cost effectiveness of virtually all of these 
initiatives is poorly understood. A truly comprehensive strategy--one 
that can guide the effective implementation of its key national goals--
must include the essential elements that we have described: a robust 
system of metrics and evaluation; a forward-thinking technology 
roadmap; better planning and coordination, including border management 
during crises; and a comprehensive approach to border management and 
immigration issues. Only through such an approach are we likely to 
avoid ``single points of failure'' in our border security. We are, at 
this point, far from having such an overarching strategy.

    Ms. Sanchez. Thank you so much.
    And now Mr. Ramirez.

 STATEMENT OF ANDREW RAMIREZ, CHAIRMAN, FRIENDS OF THE BORDER 
                             PATROL

    Mr. Ramirez. Good afternoon, Madam Chairman, Ranking Member 
Souder and distinguished members of the committee.
    For the past 3 years, I have been specifically working and 
investigating, going back to 2004, with the agents who 
implement what my distinguished colleagues on this panel have 
been talking about: infrastructure, technology, and the human 
side.
    ``Border Security: Infrastructure, Technology, and the 
Human Element,'' individually and as a whole, are but one 
aspect of issues that I am prepared to discuss today.
    And I guarantee everyone that what is officially being 
prescripted by DHS and stated to members of Congress is not 
what the agents on the front lines report or those who plan and 
build that infrastructure.
    Ultimately there is no escaping the fact that the current 
administration has compromised its citizens through treaties 
and agreements and has demonstrated itself to be more interest 
in commerce than national security.
    Need proof? Chief George Carpenter issued an internal memo 
to CBP agents regarding documentation requirements at the El 
Paso port of entry on January 16, 2007. The critical point 
states as follows: ``Anytime that an officer feels that a 
permit should not be granted for whatever reason, the 
supervisor should be advised. Again, we do not refuse a permit 
or send an applicant back for documentation or proof. They are 
not required to present proof of employment, residence or 
solvency in Mexico.''
    This type of memo, which I personally saw and read, is 
proof beyond any shadow of a doubt as to the lack of concern 
for public safety and that officials at DHS are more concerned 
with commerce than national security.
    I was told that this type of written standing order is the 
recipe for a sleeper cell to get through our ports of entry and 
leaves us vulnerable to attack.
    I will also discuss the war on law enforcement and how the 
government of the United States has prosecute maliciously a 
number of federal law enforcement officers.
    Madam Chairman, these cases must be investigated and 
hearings must be held by the Congress, because it is clear that 
in some of these cases the prosecutions were pushed by foreign 
governments, including Mexico and the People's Republic of 
China.
    Having brought up the case of U.S. v. Compean & Ramos to 
the attention of the nation, I have discovered that a pattern 
of prosecutorial and in-house abuse at DHS exists in each of 
these cases involving illegal aliens who are breaking a number 
of laws, all of which were ignored by the government, who all 
ignored a U.S. Supreme Court ruling, U.S. v. Verdugo-Urquidez, 
1990, by the Rehnquist court.
    I am certain there are many more cases out there, and I 
hope to discuss some of these cases today, as they do involve 
our Border Patrol agents, Customs agents and other agents.
    I caution everyone to consider that the government ignored 
the fact that a doper violated a number of laws, and this was 
ignored by our government, who chose to prosecute two agents 
who committed mere administrative violations and may have 
violated policies that continue to prevent them from doing 
their jobs, some of which I call to the attention of this 
committee today.
    One example of this is the pursuit policy, which prevents 
agents from pursuing anyone that the trained agent may believe 
to be in violation of our laws.
    Let me point out why agents are often directed to break 
off: Because the leadership at DHS and the Border Patrol are 
more worried about lawsuits than they are about apprehension, 
which, by the way, are manipulated by the very agencies.
    And this comes to me from sources that are managerial, that 
hold chief patrol agent and deputy chief patrol agent, 
assistant chief patrol agent, such titles, as well as other 
agents in all the services.
    Another example is the federal firearms policy, as followed 
by the U.S. Border Patrol. In this policy, rank-and-file agents 
below supervisory level are not allowed to file a written 
report on shooting incidents. That responsibility is left to 
supervisors who can suddenly develop a case of amnesia or be 
internally ordered to develop a case of amnesia, and that 
leaves agents hung out to dry, as Agents Compean and Ramos 
were.
    This brings me back to the smugglers and terrorists who 
know that, with cases such as these on record, that this 
government will protect them regardless of the crimes they 
commit. And, as a result, our law enforcement officers, many of 
whom you have direct oversight for, have had their safety 
compromised.
    In the third section of my testimony, I have provided 
numerous statements as told directly to me by a law enforcement 
officer tasked with the dangerous responsibility of securing 
our nation's borders. Those that tell you that people with a 
badge and a gun in that sense are correct. But they are not 
telling you the entire story, one of which is begging to be 
told, of high corruption in El Paso.
    During a recent field investigation, a senior federal law 
enforcement agent stated the following to me that only 
reinforces what I just said: ``Mexico does not know what 
corruption is. They have to come to El Paso to learn.'' And 
that should be a disturbing fact to every member here today.
    We also have assistant U.S. attorneys who question Border 
Patrol agents as to why they have attempted to stop narcotic 
interdiction. In the Ramos & Compean case, Assistant U.S. 
Attorney Debra Kanof actually asked why Agent Ramos didn't join 
the DEA or ICE if he wanted to catch dopers, instead of joining 
the Border Patrol. I must remind everyone that narcotic 
interdiction and seizure is a specific goal of the U.S. Border 
Patrol, as stated in the National Border Patrol Strategy.
    I have also provided updated reports on the Border Patrol 
RVS camera systems and other items involving infrastructure, 
technology, and the human element.
    Thank you, Madam Chairman. I look forward to your 
questions.
    [The statement of Mr. Ramirez follows:]

                   Prepared Statement of Andy Ramirez

Introduction
    Good morning Madame Chairman, Ranking Member Souder, members of the 
committee, distinguished fellow panelists, and guests.
    Thank you for calling me to testify today on behalf of Friends of 
the Border Patrol and for calling this important hearing as the growing 
threat of terrorism focuses national attention to the vulnerability of 
our borders. I must emphasize borders because this includes the 
Northern and Southern borders. While the southern border in the words 
of a Texas Sheriff goes western after dark, the northern border is just 
as vulnerable. The reason for this is not the Congress though this 
August body in talking about things such as Amnesty continues to 
provide the incentive that brings people here.
    I must caution the Congress that the American people are not 
interested in hearing political partisanship and the blame game. The 
Congress while partially responsible also sought to assist the 
Department of Homeland Security by removing endless layers of red-tape 
and bureaucracy that prevented enforcement of our federal immigration 
laws. Officials at DHS and inside the Border Patrol used this gaping 
opening to carry out an agenda that did not continue the highest 
traditions such as ``Honor First'' that they were known for, and 
instead have contributed to the high level of instability, fear, 
mistrust, and corruption that exists today.
    Ultimately, there is no escaping the fact that the current 
administration has compromised its citizens through treaties and 
agreements and has demonstrated itself to be more interested in 
commerce than national security.
    Need proof? Chief George Carpenter issued an internal memo to CBP 
agents regarding documentation requirements at the El Paso Port of 
Entry on January 16, 2007. The critical point states as follows, 
``Anytime that an officer feels that a permit should not be granted for 
whatever reason, the supervisor should be advised. Again, we do not 
refuse a permit or send applicant back for more documentation or proof. 
They are not required to present proof of employment, residence, or 
solvency, in Mexico.''
    This type of memo is proof beyond any shadow of a doubt as to the 
lack of concern for public safety, and that officials at DHS are more 
concerned with commerce than national security. I have personally read 
the in-house memo that I am mentioning here and was told that ``this'' 
type of written, standing order ``is the recipe for a Sleeper Cell.''
    For all the billions of dollars that have been appropriated by the 
Congress since 9-11-2001 Attack on America by terrorists, this 
administration has failed American's here at home by not employing the 
most simple of tactics and securing America's borders, seaports, and 
waterways.
    Ironically, while most Americans are not aware of the details that 
I am prepared to provide you today, they are well known to the drug 
smugglers, human traffickers, and terrorists around the world. They all 
know our weaknesses.
    ``Border Security: Infrastructure, Technology, and the Human 
Element'' individually and as a whole are but one aspect of issues that 
I am prepared to discuss today and I guarantee everyone that what is 
being officially pre-scripted by DHS and stated to Members is not what 
the agents on the front line report.
    I am prepared to discuss examples of obstruction and misinformation 
by the Department of Homeland Security, and the truth from line agents 
and border residents. I have also provided our reports on the Border 
Patrol, RVSS camera systems, and other items involving infrastructure, 
technology, and the human element.
    During my recent field investigation a federal law enforcement 
agent stated the following to me: ``Mexico does not know what 
corruption is. They have to come to El Paso to learn.''
    This statement tells it as it is, and was from a senior federal 
agent, who shall remain anonymous as this administration has no qualms 
about ordering U.S. Attorneys to prosecute agents even when it means 
protecting narcotic and human traffickers who assault, brandish 
firearms, or use a vehicle as a weapon again law enforcement while 
attempting to evade and escape apprehension and capture.
    The Managers of the Border Patrol continue to mislead the nation 
and the Congress as to Mexican Military Incursions that I have been 
informed directly by federal agents as well as state and local law 
enforcement officers as to having taken place, some of which resulted 
in casualties.
    To substantiate what I just stated. In the Tucson Border Patrol 
Sector going back to Chief David Aguilar's tenure as Sector Chief, 
their Public Information Office provided to agents a ``Military 
Incursion Card that states, ``REMEMBER, Mexican Military are trained to 
escape, evade, and counter-ambush if it will effect their escape. You 
will find the full text of this card in Section 2D.
    In the 3rd Section of my testimony, I have provided statements as 
told directly to me by our law enforcement officers tasked with the 
dangerous responsibility of security our nation along America's 
borders.
    I am prepared to discuss ``The War On Law Enforcement'' and how the 
government of the United States has maliciously prosecuted a number of 
federal law enforcement officers including in this order:
        Border Patrol Agent David Sipe
        KSt. Georges County (MD) Police Officer Stephanie Mohr
        Border Patrol Agent David Brugman
        KBorder Patrol Agent Ignacio Ramos
        KBorder Patrol Agent Jose Alonso Compean
        CBP Customs Agent Robert Rhodes
        Edwards County (TX) Deputy Sheriff Gilmer Hernandez
    Madame Chairman, these cases must be investigated and hearings must 
be held by the Congress because it is clear that in some of these cases 
prosecutions were pushed by foreign governments including Mexico and 
the People's Republic of China.
    Regarding the Compean and Ramos case, I want to make one thing 
clear today. There are many trying to prevent this case from being 
investigated by the Congress and prevent hearings being held due to it 
being the proverbial opening of ``Pandora's Box'' this case provides. 
Everything wrong about the practices and policies of this 
administration will be opened up for everyone to see. DHS will be 
exposed for it's incompetent leadership and the culture of corruption 
and power-mongers that have consumed it. There is no question in my 
mind, or in the minds of the agents who serve at DHS that we must 
overhaul and reform it today. It is clear too, that Agents Compean and 
Ramos were hung out to dry by their own agency.
    Osbaldo Aldrete-Davila was protected in the professional estimation 
of a number of law enforcement officers, though not a confidential 
informant, or CI, as Aldrete-Davila leads to someone and our government 
has protected that individual, or group while ignoring the facts of the 
doper's actions in multiple incidents.
    Having brought the case of U.S. v. Compean & Ramos to the attention 
of the nation, I have discovered that a pattern of prosecutorial abuse 
exists in each of these cases involving illegal aliens who were 
breaking a number of laws, all of which were ignored by the government, 
who all ignored a U.S. Supreme Court Ruling, U.S. v. Verdugo-Urquidez 
1990. I am certain there are many more cases out there, and I hope to 
discuss some of these cases today.
    I must also inform you that there have been other cases prosecuted 
by the Office of Johnny Sutton that I have personally investigated that 
also require greater scrutiny and review, these being the U.S. v. 
Hardrick Crawford, FBI Special Agent In-Charge of El Paso (Retired), 
and U.S. v. Noe Aleman, U.S. Border Patrol Agent, both of whom were 
personally targeted and victimized by our own government. The players 
in these particular cases are the same that were involved in U.S. v. 
Ramos.
    I caution everyone to consider that the government ignored the fact 
that a career narcotic smuggler violated a number of laws, and this was 
ignored by our government who chose to prosecute two respected agents 
who committed mere administrative violations. Some of the policies they 
may or may not have violated, are detrimental to the safety of the 
agents in enforcing their duties some of which I call this committee to 
overhaul.
    One example of this is the pursuit policy, which prevents agents 
from pursuing anyone that the pursuing trained agent may believe to be 
in violation of our laws. Let me point out why agents are often 
directed to break off, because the leadership of DHS and the U.S. 
Border Patrol are more worried about civil lawsuits than they are about 
apprehensions, which by the way are manipulated by the very agencies 
and Mexico.
    Another example is the federal firearms policy as followed by the 
U.S. Border Patrol. In this policy rank and file agents below 
supervisory level are not allowed to file a written report on shooting 
incidents. That responsibility is left to supervisors, who can suddenly 
develop a case of amnesia or be internally ordered to develop a case of 
amnesia, and that leaves agents hung out to dry as Compean and Ramos 
were.
    Both of these policies must be overhauled today, so that our agents 
will not have their safety or ours compromised, which will greatly 
assist them in doing their job and enforce our laws, the same laws 
enforced globally by every other nation on this planet.
    This brings me back to the smugglers and terrorists who know that 
with cases such as these on record, that this government will protect 
them regardless of the crimes they commit. As a result our law 
enforcement officers, many of whom you have direct oversight over, have 
had their safety compromised.
    Before moving onto the human impact, I have to continue to address 
the impact of smugglers and terrorists. They know now that with the 
National Guard and Border Patrol backing off in the face of smugglers, 
bandits, and Mexican military personnel, the policy of the United 
States is one of non-confrontation and to cede the position instead. 
Can you imagine the impact on a soldier just back from fighting in Iraq 
or Afghanistan who may have watched their fellow soldiers blown up in 
front of their very eyes? We must question the national leadership who 
issues such orders, and it is imperative that you understand that the 
National Guard is under the operational control of the Border Patrol 
during Operation Jumpstart.
    Rank and file Border Patrol agents report that USBP stations and 
sector offices are subject to regular visits by Mexican Government 
officials. However, this is nothing new with this administration as the 
Mexican Military has official liaison representation at the highly 
sensitive North-Comm facility according to sources that have actually 
seen and spoken with the officers.
    I need to make another thing clear. To the law enforcement agent 
working along the border they do not see Mexico as a law enforcement 
partner unlike their managers. Before anyone jumps to an unfair 
conclusion, this is not about race, or discrimination against a foreign 
national here illegally. This is about national security and enforcing 
the laws we have. Some believe that real reform can only happen through 
so-called comprehensive immigration reform. There is absolutely nothing 
wrong with the laws on the books. No, instead the only real immigration 
reform begins with the federal agencies responsible for enforcing them 
as they are all following an administrative policy that is based on 
commerce, not enforcement and certainly not concerned with national 
security.
    I'll tell you why this has happened, it's because this 
administration has grown out of control and the only way to address 
this is by the Congress putting partisanship and race aside in the 
interest of national security and supporting our federal agents.
    I have discussed with current and former retired leaders of 
numerous law enforcement agencies such as the Texas Border Sheriffs and 
most recently, I met with and discussed this case with retired NY City 
Police Commissioner Bernie Kerik who has released a statement, which I 
have provided today''
    ``If this drug runner was, instead, trying to smuggle explosives or 
a dirty bomb, would the two agents then be hailed as heroes? Yes, and 
probably presented with a presidential medal, because border security 
is a vital element in our continuing effort to keep America safe from 
terrorist attacks. Remember that the 19 hijackers of September 11th 
passed through U.S. border security checkpoints a total of 68 times, 
leaving and entering this country as they planned their murderous plot. 
Consider also, in testimony before the U.S. Senate in 2005, James Loy, 
deputy secretary of the Department of Homeland Security, stated; 
``several al-Qa'ida leaders believe operatives can pay their way into 
the country through Mexico and also believe illegal entry is more 
advantageous than legal entry for operational security reasons.''
    And one has to ask what kind of message this trial and conviction 
sends to the thousands of dedicated local and state police, and federal 
agents from the CIA, FBI and DHS who risk danger every day to ensure 
our safety.''
    As you will see in his commentary Commissioner Kerik has called for 
a presidential pardon for the agents.
    There has been a big public propaganda campaign to mislead the 
public and Members of Congress as that doper who entered America on 
multiple occasions and was protected and his very crimes hidden from 
the jury has led to compromising the safety of both the public and law 
enforcement officers. Part of the propaganda campaign by the 
administration has led to the Department of Homeland Security's Office 
of Inspector General to mislead Congress in a meeting with four Members 
representing the Texas Delegation with one goal, to get Congress to 
back off this case by besmirching Agents Compean and Ramos with 
allegations that they confessed to knowingly shooting an unarmed man, 
and had set out that day wanting to shoot a Mexican. OIG provided no 
proof and admitted last month while under oath that they misled the 
Members. It was a preposterous allegation without any substantiation 
that is indicative of the type of case Sutton's office tried to build 
against the agents who were accused by the government of turning on one 
of their own. In my opinion, this is obstruction of justice, plain and 
simple and DHS and OIG should be held accountable.
    But here, you might not be aware that OIG has not been effective or 
accountable since former Inspector General Clark Kent Irvin left his 
office after his recess appointment expired. He was holding agencies 
accountable and reporting such things as a financial award program, in 
which Border Patrol managers and sectors were rewarded for staying in 
budget, which in layman terms means for not doing their jobs and 
enforcing the law.
    But there are other types of obvious corruption along our southern 
border. In the modern DHS agencies of today, individuals blatantly 
approach federal agents of all ranks who offer them sacks of money, in 
exchange for turning the other way. When that does not work, they 
threaten family members as many agents have ties across the southern 
border.
    OIG/OIA is something all agents fear, but not because they are 
doing their jobs with complete integrity, but as the Compean & Ramos 
case has magnified, and numerous agents have reported to me these 
offices are used to enforce political objections.
    This brings to mind the critical problem faced by agents and I 
cannot state it enough. Border Patrol managers undermine their own 
agents for trying to do their job. One day an agent such as one I know 
of in Texas performs what is known as a turn-back, where the illegal 
alien is returned to Mexico without apprehension and is placed on the 
``rubber gun squad.'' Yet, the next day, a ``monkey boy'' for the brass 
does the same thing, and receives no discipline and gets away with it. 
This statement is based on an actual incident in El Paso Sector. The 
agent faces termination for a turn-back, though after his suspension 
proposal was issued by sector, the sector chief actually issued a 
policy clarification.
    Look at a statement by Agent Compean to his then Sector Chief Luis 
Barker, which says it best, ``the way everything it's been at the 
station the last two, three years. . . I mean everything always comes 
down to the alien. The agents are as soon as anything comes up it is 
always the agents fault. The agents have always been cleared but with 
management, it's always been the agent's fault. We're the ones that get 
in trouble.''
    We also have Assistant U.S. Attorneys who question Border Patrol 
Agents at to why they have attempted to stop narcotic interdiction:
    In the Compean & Ramos case, Assistant U.S. Attorney Debra Kanof 
did just that in asking Agent Ramos why he didn't join the DEA or ICE 
if he wanted to catch dopers instead of the Border Patrol. I must 
remind everyone that narcotic interdiction and seizure is a specific 
goal of the U.S. Border Patrol as stated in the National Border Patrol 
Strategy and in an Inter-Agency Memorandum of Understanding.
    Here brings another problem, which I previously mentioned that 
being the ``rubber gun squad,'' which is where agents are placed on 
administrative duties and lose their badges and guns for anything that 
a superior officer decides violates a policy. It is the most shameful 
and humiliating form of discipline in the Border Patrol and agents are 
treated as though they were a dirty agent. This form of discipline goes 
on for lengthy time periods and the impact on agents and their families 
alike is something no Member of Congress can imagine. If a person is 
placed on administrative duty, place them on paid leave, give them non-
field duties for a stated time period, but don't treat them like an un-
indicted criminal. I implore you to take action and outlaw this policy 
today.
    Those that tell you that people with a badge and a gun should be 
held to a higher standard in that sense are correct, but they are not 
telling you the entire story, one which is begging to be told of high 
corruption in El Paso. I have a number of agents who need whistleblower 
protection in order to do their duty and report to Congress as they 
have me do on their behalf for oversight as this involves our national 
security. This administration has placed a gag order on them and 
prevented them from doing their duty, and they have received no help 
when filing complaints with their local elected representatives.
    Consider that at the Office of Border Patrol the impact of the mass 
retirements of Chief Patrol Agents including Paul Blocker of Miami, 
Darryl Griffen of San Diego, Carl McClafferty of El Centro, Mike Nicely 
of Tucson, Lynne Underdown of McAllen/Rio Grande Valley, and the 
National Deputy Chief of the Border Patrol Kevin Stevens. In Griffen's 
case, his is an early retirement well before his mandatory 57. This is 
not an accident that so many are choosing to retire right now. 
Operationally speaking, this means that the entire southern border will 
not have a sector chief with experience of two years in any sector. The 
chief of Yuma Sector will be the closest with nearly two years, while 
the El Paso Chief is being re-detailed to Tucson after 1+ years. In the 
professional opinion of many of my friends and sources of active-duty 
and retired agents, this is not an accident or mere coincidence. Many 
other senior managers over the past two years also chose early 
retirement rather than hanging on until they reached mandatory 57.
    In the Border Patrol, agents used to think of the names Newton & 
Azrak, which is an award given to agents and was named in honor of two 
agents murdered in cold blood in the line of duty.
    Today all law enforcement officers along our borders think that no 
matter what they do, they (the agents) are wrong and the aliens will be 
protected regardless of the crime, and this has directly impacted not 
only our national security, but the morale of each agent in federal law 
enforcement along our borders. Even more alarming is that our own 
Border Patrol will hang agents out to dry as happened to Compean and 
Ramos. Agents fear becoming the next Compean & Ramos, the first agents 
to go to prison for doing their job.
    Take the stream of reports from agents who report that younger, 
less experienced agents ask what they are supposed to do if someone 
pulls a firearm on them, ``do we wait for them to draw and shoot 
first?'' Many a senior agent has responded ``if you wait, the next 
think you'll know if that a bullet will be removed from your body at 
the morgue.''
    I myself have not been able to escape this as I, too was contacted 
by an agent, my sources referred to as a managerial ``monkey boy'' 
though I cannot discuss it further in open session after consulting 
with sources and friends in law enforcement, who instructed me to treat 
it as a threat, and bribe attempt. I will provide this information in 
closed session due to continued security concerns.
    Agents feel they are not backed by many here in Washington who like 
the administration appear to be more interested in race, and commerce, 
while paying lip service to the agents and their real needs.
    What are their needs you ask? That is what I am here to say on 
their behalf, they want genuine support, and you to hold their managers 
and this administration accountable. They want Congress, Democrats and 
Republicans alike to put the partisanship aside and support them. 
Defend them from corruption, conduct open hearings, subpoena witnesses, 
and demand the truth. Appoint an independent counsel and give the 
counsel prosecutorial powers so we can finally get to the bottom of 
this whole mess. This is administration is up to their eyeballs in 
their involvement and cannot be trusted to conduct a proper, let alone 
independent review of any of the cases mentioned above. This is the job 
of Congress to provide and maintain oversight on this out of control 
administration.
    Agents and officers from a wide array of agencies have informed me 
that they are more afraid of our own government, the crocodiles behind 
them, then they are of the dangerous criminals in front of them as they 
can easily see the regular bad guys, unlike the hidden one's that wear 
the disguise of a uniform similar to their own. It is only a matter of 
time before our government gets our own agents killed, and in order to 
prevent that, I'd just as soon see DHS disbanded. But you can overhaul 
this disaster today and prevent further heartache for agents and their 
families, such as what has been experienced by agents such as Compean 
and Ramos.
    Madame Chairman, I thank you for the opportunity to appear as a 
witness today and look forward to not only answering the questions of 
you and your fellow committee members, but also working with the 
committee in the future.

TECHNOLOGY, INFRASTRUCTURE AND THE HUMAN ELEMENT
Technology and Infrastructure--The Facts Undermining It
    One of the biggest topics when it comes to the subjects of 
technology, and infrastructure is the money pit known as SBI, the 
highly touted contact awarded to Boeing last year for virtual 
technology on the border. Now don't get me wrong, Boeing knows how to 
build an aircraft and all that, but agents tell us that Boeing is 
providing the technology to identify where the illegal alien traffic 
is. However, we already know where they are. We're not able to slow 
them down enough to apprehend them or get to them for lack of border 
fences and roads. A camera and PDA in an agent's hand is worth nothing 
if we can't get to them to apprehend them.
    Over two billion dollars is being spent on a program that provides 
no benefit to the taxpayer. It does not deter or apprehend. It only 
identified where they are crossing. We already know where they cross 
and how to cut sign.
    That same money that is being spent could be better used for a 
reasonable amount of appropriate border infrastructure of multiple 
types of fences, lights, cameras, roads, ground-radar, and the 
appropriate balance of agents. Through this method will come Chief 
Aguilar's long-established goal of bringing balance, which is how you 
can control our borders. You cannot have one individual component or 
part, without the others.
    For months there have been rumors of competition and analysis for 
different types of border fencing and roads. As of yet, nothing has 
been looked at by DHS or Boeing. Contract awards have been given to 
vendors and the vendors that have been excluded could provide the same 
product for 30% less.
    Also, the current vendor, one of the reasons they are providing 
their service so cheaply is that they are using materials purchased 
from the People's Republic of China, and Taiwan. Currently, one of the 
vendors is looking into a purchase of material manufactured in Mexico. 
The disturbing principle here is we are using foreign manufactured 
materials for infrastructure that is for national security. Both may be 
legally correct, but is this the intention of the Congress? What does 
this say to the sovereignty and national security of our nation by this 
administration? Is our security and sovereignty for sale to the lowest 
bidder?
    The Border Patrol and DHS plan, re-plan, and continue to re-plan 
when it comes to infrastructure but the fact is, that's all they do is 
plan. Nothing is every implemented. In each sector are comprehensive 
enforcement plans that are responsible, effective, and within a 
reasonable budget to provide security along our borders. Oftentimes 
these plans are trumped by high level bureaucrats that have no idea 
what it takes to secure a border, but because of partisan politics nix 
everything. Some only seek to serve the temporary masters elected every 
four years to the Executive Branch. Their achieved goal is to stay 
employed and do not do anything that may jeopardize their standing with 
a future administration. These are the career bureaucrats who have long 
been in business to be in business and just want to collect a paycheck. 
How grand would it be if these employees could provide the truth and 
provide the security that this nation so sorely needs?
    The greatest problem is that the federal government refuses to work 
with the local border communities, officers, and residents, and solely 
rely on corporate America to provide an unqualified answer at huge, 
exorbitant cost with minimal benefit to the public.

The Project that worked by Aguilar rejected--Project Athena
    Madame Chairman I would also like to address an item known in the 
Border Patrol as Project Athena, developed by the Raytheon Corporation. 
In Project Athena, the Border Patrol has proven that they can monitor 
shipping traffic as it approached the U.S. coastline, and along our 
international waterways. The cost was minimal compared to other systems 
currently being utilized such as ``remote video surveillance'' (RVS) 
cameras and other items that have provided a virtual wall that has been 
proven to be a bottomless, and ineffective money-pit. I can use the 
name Project Athena, as it is in the public domain and can be looked up 
on the internet. The operational names I learned that Project Athena 
has been called in USBP testing are Operation Lake View and Gulf View. 
Chief Aguilar would be a better respondent, as I am certain that he has 
been properly debriefed.
    Local Border Patrol Sector Chiefs requested to Chief Aguilar and 
Headquarters Office of Border Patrol that ``Project Athena'' or 
subsequent generations of similar capabilities be funded and provided 
to meet the goal of secure our coastlines, lakes and waterways.
    This program, which can monitor maritime traffic up to 95-100% 
capability, including the unexpected result of low-flying aircraft will 
not be implemented. Clearly our having such technology available, but 
not implemented though the testing ran one and one half years ago is 
definitive proof that DHS and HQ-OBP under Chief Aguilar lack the 
intent regardless of the requests by local Sectors for those very 
needed items that ensure their mission, and are leaving us vulnerable. 
Instead they continue to tell Congress that everything is fine, and 
improving when I am demonstrating in the words of the front line agents 
the facts in their own words and as we have investigated.

Facts about RVS Cameras and Tunnel Detection, what Congress and the 
public aren't being told
    Friends of the Border Patrol has developed and offered technology 
that we call FREEDOM (Free Electronic Domestic Observation and 
Monitoring) border surveillance cameras. We have also developed tunnel 
detection equipment. We have provided a few facts for committee members 
to review. We would be happy to provide our paper on the FREEDOM Camera 
System to committee members upon request.
    I personally have discussed our technology at all levels of SDC 
Sector and was informed that our technology was superior to anything 
that they had, including their own security cameras. To me this states 
the obvious, regardless of their dire need in an ``attempt'' to gain 
operational control of the border, OBP headquarters, and the Bush 
Administration will continue to talk about, not provide what's needed 
in the field to improve their chances, and will continue to pay lip-
service by blatantly lying to the public about our improving border in-
security, while the clock continues to tick on our lives. In addition, 
insiders who are retired managers within the Border Patrol, or people 
associated or related to them will continue to gain contracts, some of 
which are to provide technology already acknowledged in DHS testimony 
as ineffective. These facts that I have presented here are beyond any 
shred of doubt. Period.
    When describing the fiscal, managerial and national security 
catastrophe--which is DHS--it is sometimes good to use local examples. 
It's good to be able to talk about things right outside this room's 
door rather than in abstruse, ethereal, and abstract concepts.
    The Border Patrol has just installed its latest and most modern 
technological wonders right along San Diego's border with Mexico. These 
new Monuments to Border Security are to assist in illegal alien 
detection and apprehension
    This technology consists of tall poles topped with video cameras. 
Most of these poles are mounted within the very narrow ``no man's 
land'' between the primary and secondary border fences separating our 
two ``Great Nations.''
    Installed at immense cost (present real-dollar estimates are 
$800,000 per camera pole), these cameras offer the Border Patrol 
technology not seen since about 1986. Total cost since implementation 
are at $429 million since 1997, and the cameras take 20 months to 
install according to testimony by DHS Inspector General Richard Skinner 
presented to a Congressional Homeland Security Subcommittee last 
December 16, 2005.
    Twenty year old technology might seem anachronistic in a world of 
Burt Rutan and actual space ports being built across our Midwest, but 
to the Border Patrol it is still better than what they had before which 
was nothing.
    The problem is that these cameras look at the border just as you 
would if you were peering through a toilet paper tube. You can look to 
the east through that toilet paper tube and you can look west through 
that toilet paper tube but God help you if while you are looking one 
place as there's a stampede north just a few feet from where you are 
looking because you won't see it.
    But it gets worse.
    Half of their new cameras are touted as ``night vision'' cameras. 
The problem with them is that many nights you can't see anything. 
Further, it is child's play to blind them even permanently. It would be 
a breach of National Security to say what happens naturally or what can 
be done purposely to make these incredibly expensive cameras worthless, 
so I won't except in closed session. I know you'd be overwhelmed by how 
simple it is.
    What these people really need are ``staring eye'' cameras taking in 
wide swaths of the border all at one time and then other cameras that 
can even get mug shots of the border perpetrators.
    Further, the cameras should not be mounted right along the border 
but north of it so that a wide swath of border can be viewed all at one 
time and so border crossers aren't just flickering points of light 
flittering across the camera field but instead are to the cameras like 
the US Marine Corp Band marching in lock step in the Rose Parade.
    If you mount the cameras on the border you see crossers usually for 
not more than 30 seconds and that is only if you happen to have your 
toilet paper tube looking at them at the very moment they decide to 
cross.
    If you mount the cameras north of the border then you can watch 
them even for 30 minutes as they trudge north; with or without their 
musical instruments.
    Lastly, we have a truly serious threat to our national security 
that is being purposely ignored. That threat is border tunnels. It 
would be the height of stupidity to believe that campesinos are digging 
tunnels even 80 feet below ground and 2,500 ft long just so that they 
can go pick strawberries in Fresno, make a right turn on I-40 (where 
San Diego based Border Patrol agents have been beached for running 
traffic operations) and go cut meat in Kansas City, or pick tomatoes in 
Florida.
    The people and things crossing through those tunnels are the most 
dangerous and violent possible.
    A 2,500 ft long tunnel is not fantasy. Such a tunnel was handed to 
the Border Patrol on a phoned in tip.
    That tunnel took the removal of about 300 full sized dump trucks of 
earth or about 2,000 pickup truck loads. Technology of even 1972 would 
have detected the change in seismic activity south of the border as 
those trucks of dirt were hauled away.
    That simple hardware exists to find such tunnels is--by now you 
should know it's all true already available. But instead of funding 
people who will do something, the organization tasked with a solution--
JTF-6 (now known as JTF-North)--only have jobs so long as they seek an 
answer rather than actually solving the problem. So nothing is actually 
accomplished because if it was. . . then they would be out of a job.
    Of course, the politicians launch themselves into the fray with 
inane legislation telling us that now all will be well. Gloriously, 
California Senators Diane Feinstein and Barbara Boxer have actually 
made it illegal to dig a tunnel into the USA. Now, we all are safe.
    Please notice that they have no interest or intention to actually 
stop the tunnels, they just added another few years to the life 
sentence the perpetrators will already be facing for drug smuggling, 
WMD smuggling, and terrorist smuggling.
    It took a local 12-year old child to demonstrate a working tunnel 
detection system. Yes, he did it in San Diego. While certainly the 
child is some kind of little genius, the fact is that anyone can do a 
Google search on tunnel detection and discover that 20 years ago the US 
Army proved a simple and effective technology to find tunnels. All that 
kid did was implement what the US Army already proved works a decade 
before he was even born. I have attached the Aberdeen Proving Ground 
research document for you and a video of the child and his tunnel 
detector.
    The child's technology was covered by the major news outlets. The 
day after the news event that 2,500 ft tunnel was reported to the DEA. 
Somebody should understand that while DHS might not think what the kid 
has works.. there's a good chance that the drug cartels do:
http://www.kfmb.com/features/crimefighters/story.php?id=35277
The Human Element within the U.S. Border Patrol
    The latest method used to maintain silence among former Border 
Patrol managers is the annuities plan, which brings back retired 
managers and supervisors with a ridiculously high paycheck to bring 
them back into the fold and be used as hush money to keep these former 
employees from telling the truth. This was the very reason these 
employees left the agency in the first place, so they could tell the 
truth and not have to lie anymore.
    Last year David V. Aguilar, Chief of the Border Patrol claimed we 
did not have Mexican Military incursions, other than by accident or 
impersonators (testimony before then-Chairman McCall's Homeland 
Security Subcommittee on Investigations), and that the Southwestern 
border is secure. But that was a blatant falsehood and this is well 
known within the Border Patrol. Otherwise, how does one explain Mexican 
Military incursion cards when they continue to be provided to agents in 
Tucson Sector, the very sector that Mr. Aguilar was the Chief Patrol 
Agent of, prior to ascending to his current appointment as national 
chief? We must keep in mind, that if we cannot admit to the Mexican 
Military incursions, though we provide agents instructions in the event 
of an incursion, and we cannot prevent millions of illegal aliens 
consisting of Mexicans, and OTMs (or Other Than Mexican), I guarantee 
we cannot prevent Special Interest Aliens, which potentially include 
terrorists who have obtained IDs and are portraying themselves as 
Mexican or other aliens from Latin American nations.
    Last year, I received a copy of an Officer Safety Report released 
to some Border Patrol agents by the Department of Homeland Security, 
based on FBI reports, dated December 21, 2005, warning ``Unidentified 
Mexican Alien Smugglers Plan To Hire MS-13 (Gang) Members To Kill U.S. 
Border Patrol Agents. However, many Border Patrol agents and other law 
enforcement agencies were unaware of the existence of the document.
    That Officer Safety Report follows a card issued for several years 
by the Tucson Sector that addressed Military Incursions. It states: 
Remember S.A.L.U.T.E. This is based on the long-used Army border policy 
of the same name and intention. On this double-sided card, the 
following is stated:
Immediately communicate the following:
        Size of the unit (Number of personnel)
        Activity
        Location and direction of travel
        Unit (Identify if possible)
        Time (If reporting an earlier encounter)
        Equipment of the personnel

The other side states:

REMEMBER:
    Mexican Military are trained to escape, evade, and counter-ambush 
if it will effect their escape.
        <bullet> Secure detainees and pat down immediately.
        <bullet> Separate leaders from the group.
        <bullet> Remove all personnel from proximity of the border.
        <bullet> Once scene is secure, search for documents.

        Additional Tips:
        <bullet> Keep a low profile
        <bullet> Use cover and concealment
        <bullet> Don't move excessively or abruptly.
        <bullet> Use shadows and camouflage to conceal yourself.
        <bullet> Stay as quiet as possible but communicate!
        <bullet> Hiding near landmarks is easier to locate.

Avoid it!
    So clearly the Border Patrol has identified that the Mexican 
Military will counter-ambush our agents and citizens, and that violent 
MS-13 gang members, drug cartels, and zetas that have been recruited to 
move the drugs and engage Border Patrol agents.
    I would be remiss if I did not bring to your attention the 
following information, which numerous sources have provided during the 
course of our investigation.
    We cannot get a straight answer when it comes to how many Special 
Interest Aliens have been apprehended by CBP or ICE, other than a 
standard response of ``Pending Investigation'' Yet, the Border Patrol 
knows how many teddy bears it gives away, how many cheese crackers it 
has in reserve (I would bet down to the individual cracker), diapers, 
etc., so the fact that it keeps absolutely no statistics on the people 
caught from terrorist countries as a mere accident defies all 
credibility. Obviously, the BP does not keep these statistics as a 
matter of policy and the reason is pretty transparent. Let me also add 
that the media has attempted to gain those very figures as well as the 
dispositions of apprehensions of SIAs that they learn about through 
sources. However, those results are seldom, if ever released, so the 
public has no way to learn if there is any information beyond what has 
been reported by sources.
    Madame Chairman, here are some facts about a few Border Patrol 
Sectors from well-placed sources who asked me to present this 
information to the committee today on their behalf. The reason that 
those sources are unable to do so themselves would be to place their 
careers at risk for retribution by Border Patrol and DHS managers at 
Headquarters in Washington, DC. The reason for their' fears is well 
established and acknowledged as the Compean--Ramos case has 
demonstrated beyond all reasonable doubt.
    The Congress and the American public have been completely misled by 
Border Patrol's managers at Headquarters in DC. The northern border is 
nowhere near secure though Chief of the Border Patrol David Aguilar 
would inform you otherwise. Chief Aguilar was quoted in several 
newspapers, both Canadian and U.S. that ``measures have been taken to 
bolster agent strength in the affected areas to include overtime 
payments.'' According to my sources, the statement by Mr. Aguilar was 
inaccurate and never happened. There was no high alert, no overtime and 
no additional bodies. It is nothing but business as usual, and the 
policy of misinformation regardless of national security.
    As a matter of fact, several networks, both cable and broadcast, 
stated that there are 1,000 agents on the Northern Border. Wrong again. 
No detailers, nada. One Sector on the northern border has not received 
agent attrition replacements in about 2 years now. This same sector is 
currently authorized at 147 agents and, because of details (mandated), 
sick leave, maternity leave, rubber gun squad, etc. etc. This sector 
last I heard was at an actual strength of just over 100. Though, as I 
understand it, this sector has been traditionally ignored for agent and 
support personnel staffing. If you want to put this in percentage 
terms, this sector's personnel, agent-wise is down 31%.
    Let me add that at one particular station in this sector bordered 
by water, they are lucky to have two agents on during a 24-hour period. 
It takes two agents to run a boat. Previously, they have had a total of 
5 agents, with 8 vacancies, obviously not enough to monitor boat 
traffic. Keep in mind that the Canadian City of Toronto was named last 
year as a possible terrorist target and is on the other side of that 
very station's area of responsibility.
    According to sources, Chief Aguilar, and retired Deputy National 
Chiefs Barker and Stevens were personally and repeatedly warned about 
potential threats, and ignored such information. Of course that would 
not be the first time HQ-OBP has ignored intel requests, or that the 
chief's office remained silent on challenges to his inaccurate public 
statements. This type of action is not unprecedented when one recalls 
that one year ago, DHS Secretary Michael Chertoff stated that reports 
on Mexican Military incursions were being overblown. However, I know of 
other incidents including one that took place on Saturday, July 1, 2006 
at 13:10 hours, according to a civilian source in Tucson Sector. This 
incursion included a drug load.
    In 2004, I personally challenged a statement Chief Aguilar made to 
The Daily Sentinel on August 31, 2004, regarding border security, in 
which he declared the southwest border to be secure. His statement was 
countered by numerous sources including Michael Shelby, U.S. Attorney 
from the Southern District of Texas.
    Additionally, in a Washington Times article published October 13, 
2004, entitled ``Chechen terrorists probed'' The article stated,``U.S. 
security officials are investigating a recent intelligence report that 
a group of 25 Chechen terrorists illegally entered the United States 
from Mexico in July. . . . Members of the group, said to be wearing 
backpacks, secretly traveled to northern Mexico and crossed into a 
mountainous part of Arizona that is difficult for U.S. border security 
agents to monitor, said officials speaking on the condition of 
anonymity.''
    In fact, the Border Patrol Sector Chiefs have also been informed 
that they would receive additional agents to fill their numerous 
vacancies and technology holes. I understand that the agents and 
technology often mentioned is to be used to implement a ``virtual 
wall'' would be provided by Secure Border Initiative funding. It is our 
opinion that this is yet another empty promise, or if you will, 
``fool's gold'' to those sector chiefs, and I look forward to 
elaborating on why RVS Camera Systems and Tunnel Detection are 
ineffective during this hearing, leaving our nation wide-open, and also 
why we will not get those boots on the ground promised by the 
administration and DHS.
    They know as we do how the 30:1 ratio it takes to come up with one 
recruit for the Border Patrol, screening process, academy capacity, 
which is grossly inadequate, and difficulties of graduating due to the 
Spanish language requirement, and the ten-month exam that takes place 
after the academy. They also know the actual attrition rate. The 
reports of the high numbers of agents throughout the service seeking 
employment opportunities elsewhere are not just rumors but are fact. 
Even more so today due to the well-publicized Compean & Ramos case as 
well as the others.
    In fact, I'd be remiss if I did not share that each time I speak 
with an agent, Border Patrol and otherwise, they inform me of their 
concern and outright fear as a result of these convictions. I know the 
Border Patrol, and over the past few years, the highest complement an 
agent gives is that they'd take a bullet for this agent or that agent. 
Today, that esprit de corps has been replaced with fear and mistrust 
and everyone looking out for them selves. The Border Patrol is filled 
with stories of tradition but that is the old and honored ``Legacy INS 
Patrol'' not the new patrol of today.
    Many BP Agents deserve an opportunity to tell their facts, and 
expose the truth, which is how DHS has ordered agents to stand down, 
and not report all the facts in order to prevent Congress from learning 
the truth. Outside of an extremely limited few, Border Patrol Agents' 
voices have been silenced. All statements provided, and Congressional 
tours are pre-scripted and approved by Mr. Aguilar's office, as he is 
the ultimate micro-manager. Any Sector Chief you speak with, including 
my friend my friends in management know as I do that they have to 
answer to Mr. Aguilar, as he is the top agent in the chain of command. 
I am certain you would hear the reality if they were authorized to 
provide it, on their own without retribution from Mr. Aguilar. Yet, the 
fact is, under regulations implemented in 2004 by the Department of 
Homeland Security, you will never get anything that strays from the 
official approved script. That is why it is important you have 
witnesses who do not have to worry about being retired by DHS or 
detailed from what is considered a good managerial detail to an outpost 
such as Ramey.
    If you do not believe the extent of the mistrust of many law 
enforcement agencies with the federal government and the Border Patrol, 
then you must not be paying attention to what many border sheriffs have 
been stating for months. Like me, they're not doing it for publicity or 
electoral reasons, they are telling the truth and standing by it 
because they are concerned about our nation's being compromised and 
vulnerable to terrorists entering our borders. In March 2006, I 
witnessed an incident that took place in El Paso Texas during a break 
between meetings of the Border Sheriffs Coalition and Border Patrol. It 
defines the mistrust many have with the Border Patrol, and the 
administration.
    Madame Chairman, if we are to discuss vulnerability along our 
borders, we must not forget the clearly forgotten Ramey Border Patrol 
Sector, located at Aquadilla, Puerto Rico. As badly undermanned as the 
northern border is, our greatest strategic weakness is Ramey due to its 
strategic proximity in the Caribbean Sea near Venezuela, Columbia, and 
Cuba. Here I must thank Congressman Ted Poe who immediately took action 
and took DHS to task when I first informed him about Ramey and what 
agents there confront. While Ramey agents face a better situation 
today, we have a long road to go.
    DHS has begun planning to increase manpower levels, which I cannot 
identify here, due to national security, but there mission will 
continue to be compromised as long as the agency is more concerned 
about appearance than it's mission of protecting the homeland as stated 
in the National Border Patrol Strategy. For the level of staffing being 
planned, it is illogical to call this a Border Patrol Sector, so that 
it will have increases in managerial staffing, when the same command 
structure can be achieved by detailing a Patrol Agent In-Charge (PAIC), 
and would be better served by attaching Ramey as a Border Patrol 
Station to the Miami Sector. This action would save money for Ramey 
consists of one solitary station, not several unlike the other sectors. 
Furthermore, what a waste of taxpayer dollars to pay for these 
additional managers, while agents are still restricted from performing 
enforcement duty beyond Search and Rescue when agents are requested to 
literally ``pick-up'' illegal aliens attempting to incur by sea who 
land on Mona Island, and when their area of operation remains 
restricted to the northwest corner of Puerto Rico.
    Last year the Inland Valley Daily Bulletin of Ontario, CA published 
a number of reports indicating the vulnerability of this strategic 
island, which has dealt with sea incursions using Yola boats for years. 
Their manpower level is so grossly under-strength that it defies all 
logic. I understand that many of the agents want to leave the island 
for other duties or agencies, and regularly see their agents detailed 
to southwestern border sectors or the academy, without being replaced.
    Yet, the irony is that they have nearly as many managers as agents. 
Their manpower is so under strength that they are limited to one corner 
of the island, and has to completely eliminate one shift for lack of 
available personnel. One thing agents have reported is that OTMs, or 
Other Than Mexican illegal aliens actually self-report with their 
flight tickets already in their possession for CONUS (Continental U.S.) 
destinations as the word is out in the region that after receiving 
their documents requesting a return for court appearance they will be 
free to leave the island for other destinations. For the record, the 
USBP agents do not have access to San Juan, where illegal aliens, which 
could include Special Interest Aliens, acquire phony identification 
documents. That is ICE-turf.
    It's obvious that while countless agents have their complaints 
about ``Legacy INS, the current state of the Border Patrol is in dire 
need of the Congress to engage in an immediate overhaul without delay.
    On the northern border, numerous sources have reported that ICE 
regularly requests Border Patrol assistance, as they do not have the 
manpower or resources to apprehend or detain on their own. It is to the 
degree that the Border Patrol is often requested to provide transport 
for illegal aliens detained, and that the Border Patrol can provide 
agents depending on availability due to operations and on a priority 
level.
    Madame Chairman, it is well documented as to the level of 
compliance by Border Patrol managers in Washington, DC with the 
policies and requests by the Mexican Government. Consider the parrot-
like statements of our own government when it comes to Mexico. For 
anything and everything, Mexico provides a declaratory conclusion to a 
matter before even convening more than a surface investigation followed 
by concurrence by our own government. After that, come the so-called 
investigation and more discrediting info.
    Consider that Tucson Sector agents represented by Local 2544 of the 
National Border Patrol Council has gone on record by posting on their 
website as to the level of access and control by the Mexican 
Government, which has placed agents along the southwestern border often 
in dangerous, compromised situations. Also, consider that Border Patrol 
Headquarters continues to deny that Mexican Military incursions 
regularly occur, and that Sector Chiefs provided information about 
civilian border observation locations to the Mexican Government though 
clearly lacking Congressional authority, and clearly exceeding the 
Vienna Convention Treaty. While the Border Patrol denied the Inland 
Valley Daily Bulletin's published report, and attempted to discredit 
reporter Sara Carter after Agent Mario Martinez, their PIO who 
responded to her inquiry, after he initially admitted that such info 
was shared.
    I met with a Border Patrol Sector Chief Patrol Agent one year ago 
who took responsibility, and apologized for the disclosure of a 
property our organization used as a base-camp for border observations 
last summer as he understood my outrage, that our ``secret'' location I 
had personally provided to law enforcement, was provided to the Mexican 
Government. My meetings with a number of Chief Patrol Agents have been 
the only ones between civilians and Border Patrol managers to my 
knowledge. However, the Mexican Government and DHS have both expended 
great energy in attempting to discredit the news coverage in their 
denials and by stating that such locations were self-provided on 
websites, which was not the case of our location, including lying in 
numerous written responses to Congress and news interviews before the 
nation.
    It is interesting to note that Chief Patrol Agent Darryl Griffen of 
the San Diego Border Patrol Sector, a person that I consider to be a 
personal friend, was the sole chief patrol agent mentioned on their 
website though I understand several sectors provided similar 
information about activities and locations of lawful civilian border 
observations to Mexico. The Mexican Government endangered U.S. citizens 
by publishing such information on their website where drug cartels, 
their enforcers, military personnel, and violent gangs could have 
gathered such intel and plotted to harm, or even murder concerned 
citizens, including me. Yet, not one Congressional hearing has been 
conducted by any committee of either the House or Senate to look into 
that serious issue.
    The Mexican Government also attempted to undermine the chief 
personally by solely publishing his name and no others, as he has been 
quite proactive in the fight to secure our portion of the border and 
quite creative. I am certain that by damaging his name and reputation, 
they felt Congress would have seen him removed or reassigned. To me, 
this action demonstrates the level of cooperation by the Border Patrol 
managers at HQ, which undermines their very mission to secure America's 
borders; especially considering that the Mexican Government is long 
identified by its corruption.
    When did the Congress relinquish authorization or control of the 
Border Patrol to Mexico City? Is this why Grupo Beta, previously an 
effective Mexican agency, was reduced to less than security guards, as 
they have been replaced by our own taxpayer financed Border Patrol? 
These are questions that must be answered before we even think to 
consider reconciling bills. Consider that I've scarcely even mentioned 
the failure known as ICE, a completely ineffective agency that should 
be absorbed into the Border Patrol, or Customs whose managers believe 
the best way to secure the border is by securing the ports of entry, 
which has been the mentality of CBP while leaving the borders wide open 
to incursion by violent terrorists, smugglers, and Mexican Military 
personnel.
    Madame Chairman, it is outrageous that there is such coordination 
and cooperation, lest any of us forget about the maps and comic books 
they provide to illegal aliens, which include terrorists. Perhaps the 
Members are unaware but the State Department provided the funding for 
our Border Patrol to train personnel of Grupo Beta and other Mexican 
Government entities along their southern border such as sign-tracking 
and other tactics used by the patrol. With Mexico's record, how can 
this government continue to see them as a partner, when they have done 
absolutely nothing to prevent terrorism?
    Madame Chairman, I would be completely remiss if I did not mention 
to the committee today that such behavior by the Mexican Government 
would not be unprecedented as border residents for years have been 
terrorized for years by violent gangs, bandits, drug cartels, 
smugglers, local Mexican law enforcement officials and even personnel 
of the Mexican Military who assist with smuggling operations.
    Allow me to share a couple of stories with you today about local 
border residents, who are our fellow U.S., citizens. Victoria Hope 
lived in San Diego's East County region. She did what many of us do for 
our neighbors. She was looking after her neighbor's property while her 
neighbors were away. When you live in the border region, it is 
imperative that you work with your neighbors as livestock gets out, or 
bandits and smugglers often trespass your property, which endangers 
one's family and neighbors. Mrs. Hope was viciously murdered by illegal 
aliens who, as if this heinous crime was not nearly enough, these same 
individuals stole her car.
    Madame Chairman, my friends who live along the border and face this 
form of terrorism 24/7 have long concluded that due to the presence of 
the organized crime cartels and gangs who orchestrate the majority of 
the smuggling of drugs, people and contraband here in San Diego, that 
they do not believe that such individuals would hesitate to smuggle 
items that would be used to cause harm to America and her citizens--
especially if the price was right. A concern that many law enforcement 
agencies concur with, as do we.
    However, this is not an isolated story. Over the past two years, I 
have met with and earned the trust, support, and friendship of many San 
Diego border area residents, which is not given, but earned. They have 
dealt with wrong-way drivers of load vehicles, which involve narcotic, 
or human smuggling loads, sometimes both. The load drivers when 
spotted, or they think they've been spotted by law enforcement officers 
including Border Patrol agents cross to the wrong side of the road. 
This practice utilized to evade and escape Border Patrol agents, CHP 
officers, and Deputy Sheriffs happens often along the border. This is 
yet another type of terrorism our fellow citizens face. Imagine the day 
that the load vehicle hits a busload of school children on the way to 
or from school. Deaths have occurred as a result of wrong-way drivers 
and it is completely avoidable if we secure our borders and protect our 
citizens.
    That's a critical point we hope everyone here today considers. 
Terrorism is not limited to people that are members of violent 
terrorist organizations with bombs, sniper rifles, or detonators. 
Terrorism includes those very types of groups and individuals I 
mentioned above that have not been dealt with for far too long. We have 
no business calling groups gangs when they bring chaos, mayhem, 
violence, mayhem, and murder to our cities, neighborhoods, parks, and 
schools. It is pure and simple, they are terrorists, too, and must also 
be broken up and brought to justice for those are the most obvious 
people to recruit here within our own nation and entering our Swiss-
cheese borders. Or does calling people that are terrorizing and 
murdering our fellow citizens terrorists not happen because of the 
propaganda that the War on Terror is in Iraq and Afghanistan and does 
not include our own borders?
    That is something that this committee and the House of 
Representatives must recognize as fact, publicly acknowledge. The 
supporters of open borders in the House and Senate as well as the Bush 
Administration know this, which is why we are inundated with fancy 
slogans or politically correct terminology, the dog and pony press 
events, and the smoke and mirrors about willing workers doing jobs 
Americans won't, which continues to exclude Americans being displaced 
from the labor force. By campaigning in such a way, this is why our 
borders remain vulnerable and why we get such absurd proposals from 
Washington. It is why many people within the Border Patrol and other 
agencies felt it imperative that I appear as a witness, to discuss 
these items publicly that are being hidden from the Congress and 
public.
    Far too many people today are in this nation, and we do not know 
who they are, or their backgrounds, and Mexico will never cooperate 
with U.S. law enforcement requests, though they'll make every demand on 
us to adhere to their demands though they continue to plan protests, 
monitor civilians and public figures alike, and undermine our 
sovereignty.
    This happens because our government does not tell the Mexican 
Government to back off, and mind their' own store. Instead, our 
government parrots their lies, endangers law enforcement officers and 
civilians alike, and allows such behavior to continue, which I consider 
to be open espionage against the United States.
    My active duty sources in the Border Patrol have risked their 
careers and futures in order to provide me the truth, which I, in turn, 
have forwarded to Congressional leaders, and shared with other law 
enforcement agencies or Members of Congress. Each of them deserves an 
opportunity to tell their facts, and expose the truth, which is how 
this administration through DHS has ordered agents to stand down, and 
even lie in order to prevent Congress from learning the truth. But 
their voices, outside of a handful others are being squelched as this 
administration and Chief Aguilar rules his fiefdom with an iron fist. 
All statements and tours Members take are pre-scripted and approved by 
his office. He is the ultimate micro-manager. Any Sector Chief you 
speak with, including my friend Chief Griffen knows as I do that he has 
to answer to Mr. Aguilar, as he is the top agent in the chain of 
command. I am certain you would hear the reality if they were 
authorized to provide it, on their own without retribution from Mr. 
Aguilar. Yet, the fact is, under the new rules and regulations 
implemented since 2004 by the Department of Homeland In-Security, you 
will never get anything that strays from the official approved script. 
That is why it is important you have witnesses who do not have to worry 
about being retired by DHS or detailed from what is considered a good 
managerial detail to an outpost such as Ramey.
    Border Patrol agents want to provide info to Congress but cannot 
make themselves vulnerable to what our sources and many news outlets 
have reported as the ``culture of corruption'' at HQ-OBP that has led 
to such fear and retribution within the agency. As a result, the 
Mexican Government continues to undermine our nation, and people, while 
assisting terrorists. This is how the Chief of the Border Patrol 
continues to put his agents at risk, because nobody under his command 
trusts our Congress to fight for them so they can step forward and tell 
the truth, beyond citizens such as myself who have earned their trust 
and the trust of key leaders here within the Congress knowing that we 
will present the truth on their behalf to Congress. I don't represent a 
corporation or think-tank. I represent real law enforcement agents and 
officers who cannot speak for themselves.
    In 2005, agents were pleased that civilians took action and went to 
the borders to see what was happening themselves. It is a shame that we 
have to depend on civilians staging publicity stunts to take cameras 
out to the desert under horrible conditions in the hopes that something 
will happen in front of the news media so that the truth gets out.
    As I was informed during meetings along the northern border, it is 
a shame that civilians have to provide technology that DHS can easily 
provide for themselves, but refuse to do. But someone has to do it, and 
this particular official as well as numerous others were pleased that 
someone was willing to step forward and do so. Instead we are reduced 
to watching the continuation of the sham being perpetrated by our own 
government who each day looks more like a two-bit dictatorship, as they 
constantly mislead and hide the truth from our citizens.
    If you do not believe the extent of the mistrust that many law 
enforcement agencies with the federal government and the Border Patrol, 
then you must not be paying attention to what many border sheriffs have 
been stating for a couple of years now. Like me, they're not doing it 
for publicity or electoral reasons, they are telling the truth and 
standing by it because they are concerned about our nation's being 
compromised and vulnerable to terrorists entering our borders.
    I encourage the Members to review an interview I did with the New 
American Magazine published in May 2006 in which I discussed an 
incident that took place in El Paso Texas during a break between 
meetings of the Border Sheriffs Coalition and Border Patrol. It 
underscores and exemplifies the mistrust many have with the Border 
Patrol. Sheriff Arvin West and others can tell volumes of stories about 
this problem.
    Until Congress steps up to the plate and fixes by overhauling DHS, 
CBP, ICE, CIS and the Border Patrol, the invasion of our nation will 
continue without anyone to stop it. As a result the quality of life of 
our fellow Americans residing along the borders will continue to 
deteriorate as will the threat against our lives throughout the nation 
for if we ignore terrorists, how long will it take for the next 9-11, 
and as everyone knows, our nation's leaders were targets of that tragic 
days attack, including the Pentagon, World Trade Center, and even you, 
our nation's leaders in Washington, D.C. For the fact remains, the only 
effective agency remaining in the Department of Homeland Security is 
the very one responsible for the protection of the President and Vice 
President of the United States, while the rest of us depend on the 
agents and officers being outgunned and out-manned on our borders and 
in our cities.

THE IMPACT ON AMERICA'S AGENTS--IN THEIR OWN WORDS
    Here is a statement taken from the National Border Patrol Council's 
Local 2544 website. This local represents agents in the Tucson Sector.
``After the recent shooting incident in Naco, managers and 
investigators failed to separate the witnesses, and allowed them to 
``get their stories straight'' before speaking to the Mexican 
Consulate. ``Investigation 10'' mandates that you immediately separate 
ALL witnesses so that they can't conspire. You transport them 
separately. Then, if separated witnesses give wildly diverse stories 
about what happened you know that someone is not being truthful. In 
this case, the Mexican Consulate's star witnesses are all related to 
the alleged ``victim''. Further, while management claims they have 
completed a ``thorough investigation'' into the matter of the Mexican 
Consulate improperly gaining access to witnesses prior to anyone from 
law enforcement, they inexplicably failed to speak with either of the 
rank-and-file agents present that day. The only people they interviewed 
that we're aware of are managers. Again, ``investigation 101'' mandates 
that you speak with all available witnesses, not just those who are 
likely to support your preferred version of events. A short written 
statement from the agents is insufficient in this case. Other questions 
have arisen since the agents originally submitted their statements. 
Those questions require clarification. This isn't brain surgery. Isn't 
it ironic that if management is trying to pin something on an agent, 
they start with ordering the agent and any witnesses to write 
memoranda, then ask for more information, followed by exhaustive 
``interviews''. If they're trying to exonerate a manager, they suddenly 
don't need anything other than the original short written statements to 
complete their ``thorough'' investigation. No follow-up necessary.''

    From a retired Border Patrol manager. . .
    I still get sick thinking about what those idiots in DC have done 
to the outfit. The BP is just a bad dream to me. (Name redacted) is one 
of them, I had serious problems with a Chief, brought it to his 
attention and he ignored me, along with (Name redacted).
    Seriously, I still get sick thinking about the outfit, can't 
believe how Aguilar mentally controls the field leaders..I have no 
respect for them either...they do not have b***s anymore.
    Why doesn't anyone complain? Maybe I just have (had) a bad attitude 
because I couldn't see the big picture.
    Also, from another anonymous Border Patrol agent:
        Maybe the people out there do care? They may not care to hear 
        about border security, but their response to the two jailed 
        agents makes me feel good for once! The Border Patrol leaders 
        didn't support the agents and wonder why they can't recruit 
        enough agents? This coverage will not help recruit quality 
        agents, it will help recruit the wrong people (ie racists and 
        wackos).
    Yeah the agents didn't report the shooting, but shootings are so 
common and the reporting SOP is so overwhelming that if we reported 
every shooting, you would be in the office most of your career just 
typing. The guys in the field are learning from the best, the leaders 
in HQ, hell they hire their buddies without any shame. No more job 
competition within EEO guidelines anymore. They just do what they want. 
. .and the arrogance is spilling down to the field. From yet another 
anonymous Border Patrol agent. . .
    Not only is everything we do wrong, right or wrong is determined by 
inconsistency. What's wrong for one manager or sup is right with the 
next one that comes along moments later. If I had it to do over, I'd 
have stayed a policeman for less money then go through the BS that I do 
here.
    From an agent's spouse:
        Screw up, move up. To get along, you have to go along.
    From an anonymous Customs agent:
        My Senior manager at our Port of Entry tells me and my fellow 
        agents, I'm proud to work for Mexico. How did this guy ever get 
        to be a high-ranking agent if that's his belief? He does not 
        allow us to perform secondary inspections at our port and tells 
        us we are Customer Service, not Law Enforcement. The standing 
        order is you will move everyone. You won't check everyone.
    Another agent points out the following:
They took away our ability to vet our own applications for the 
designated commuter lane, which now goes through Vermont, due to the 
level of corruption involved at our ports of entry. Dopers have been 
able to use the DCL, which is how we lost control of the vetting 
process in the first place.
    From yet another agent:
Every doper tied to the Crawford witch-hunt case is a DCL applicant in 
El Paso. How does Crawford get convicted, yet these publicly identified 
dopers can get through the port while claim to be meeting my own boss 
for lunch?
    From another agent:
As bad as the Ports of Entry in San Diego and Laredo are, the 
corruption is nowhere near as bad as it is here in El Paso. All a 
person has to do is say they're a Friend Of (Name redacted) and they 
get no inspection and are not stopped at all. We get yelled at for even 
talking to them and threatened with our job.
    Yet, another agent:
We once had a student try to cross the bridge with explosives minus the 
detonator. Our managers told us to ignore it and let the person pass. 
We told El Paso PD as the City owns the bridge, and EPPD and the FBI 
showed up, took over the investigation and detonated the explosive on 
the bridge in place. Yah, real improvement in Homeland Security here.
    From a final agent. . .
Incompetent and unqualified cronies of certain leaders run our Ports of 
Entry and the Border Patrol. They moved us to a different Department, 
got rid of everyone, and even got rid of the agency. The reality is 
we're still there, just wearing a different disguise.

Statement from Commissioner Bernie Kerik on U.S. v. Compean & Ramos 
Case
    The criminal prosecution and harsh sentencing last year of two 
border patrol agents convicted of wounding an illegal immigrant trying 
to smuggle some 700 pounds of marijuana over the border has ignited a 
controversy that has people on both the right and left calling for an 
investigation. Well, let the investigation begin. And let's hope that 
it results in a presidential pardon for agents Ignacio Ramos and Jose 
Alonso Compean.
    Yes, the actions of the agents after the shooting in failing to 
report the incident--the suspect ran over the Mexican border and kept 
running, and the agents' say they were unaware that he was hit--merit 
discipline. But the agents' initial actions of challenging the suspect 
and firing when then they thought they were about to come under fire 
themselves, does not warrant the 11 and 12 year sentences each 
received, respectively, at sentencing.
    Why? Because they were doing their jobs protecting the security of 
this country. Consider the fact that since the attacks of 9/11 more 
than 6 million people have been stopped at the borders trying to enter 
the country illegally. Yes, most were likely entering to get work. But 
surely not all and certainly not the illegal immigrant involved in this 
case, who, by his own admission, was hired to run drugs over the border 
to a stash house.
    If this drug runner was, instead, trying to smuggle explosives or a 
dirty bomb, would the two agents then be hailed as heroes? Yes, and 
probably presented with a presidential medal, because border security 
is a vital element in our continuing effort to keep America safe from 
terrorist attacks. Remember that the 19 hijackers of September 11th 
passed through U.S. border security checkpoints a total of 68 times, 
leaving and entering this country as they planned their murderous plot. 
Consider also, in testimony before the U.S. Senate in 2005, James Loy, 
deputy secretary of the Department of Homeland Security, stated; 
``several al-Qa'ida leaders believe operatives can pay their way into 
the country through Mexico and also believe illegal entry is more 
advantageous than legal entry for operational security reasons.''
    And one has to ask what kind of message this trial and conviction 
sends to the thousands of dedicated local and state police, and federal 
agents from the CIA, FBI and DHS who risk danger every day to ensure 
our safety. It's not as if the two agents prosecuted in this case have 
bad records. They are good agents with no disciplinary history. In 
fact, Agent Ramos was nominated for Border Patrol Agent of the year in 
2005. Instead, he sits in jail while the illegal drug runner is suing 
the U.S. Government for millions.
    Prior to their trial last March, the agents were each offered, and 
declined, a one-year plea deal. Had they accepted, they would be out of 
jail today with time served. But that is not the point, because 
although the plea carried less time, it was still recognition that 
their actions were criminal. And that is the real travesty here.
    And now a new furor has erupted over the recent beating of Agent 
Ramos in prison at the hand of other inmates. Investigations are being 
requested, questions are being asked about the type of protection, or 
lack thereof, that was afforded this former federal agent in prison, 
and some are calling for the resignation of the warden of the federal 
facility in Mississippi .
    Questions do need to be asked about the beating. But that should 
not cloud the real question that needs to be asked here. And that 
question is when will Agents Ramos and Compean be freed to return to 
their families and have their conviction wiped clean? Their only guilt 
is that of doing their job defending our country.
    This injustice at the border needs to be righted.

BERNARD B. KERIK
40th Police Commissioner (Retired)
City of New York

FBP Calls for Independent Counsel to Investigate Pattern of Abuse by 
U.S. Attorney
    Friends of the Border Patrol continues our call for the 
terminations of U.S. Attorney Johnny Sutton along with AUSAs Kanof, 
Gardes, Gonzales, and Gregory for their malicious prosecution of Border 
Patrol Agents Jose Compean and Ignacio Ramos. Also, for hiding key 
evidence from, and lying to, the American people, as well as harboring, 
aiding, and providing comfort to a known drug smuggler--Osbaldo 
Aldrete-Davila who illegally entered the U.S. from Mexico, assaulted 
Agent Compean, brandished a firearm towards two federal agents, 
resisted arrest, and transported narcotics across international 
boundaries on multiple occasions.
    Additionally, we continue to call for the resignation of Judge 
Kathleen Cardone who did everything possible to aid the prosecution in 
this witch-hunt, including sealing evidence and testimony that clearly 
would have damaged the credibility of the government's case and their 
alleged ``victim.'' Furthermore, when Aldrete-Davila withheld 
information though given immunity under the terms of his agreement the 
Court should have ordered him taken into custody immediately and 
charged for both narcotic incidents, while immediately ordering Agents 
Compean and Ramos released and terminating the trial.
    It is clear that Judge Cardone abused her power to ensure the 
conviction of Agents Compean and Ramos. Her rulings before, during, and 
after the trial clearly identify this as demonstrated by not only the 
recently released transcripts, but also continuing news coverage. This 
includes her Feb. 13, 2006 ruling that border violence, including 
military incursions, assaults, etc would be taken on a case by case 
basis further denying Agents Compean and Ramos of a fair and just 
trial, and instead chose to provide the type of justice found in the 
courtrooms of Mexico, and the former Soviet Union, while violating the 
civil rights of Agents Compean and Ramos who were not given a fair 
trial.
    Furthermore, we continue our call for all sealed information, 
testimony, and documents including the October 2005 indictment against 
admitted narcotic trafficker Osbaldo Aldrete-Davila to be unsealed and 
publicly provided to the Congress and American people without 
redaction. This includes the testimony of BP Agent Nolan Blanchette as 
listed on Transcript 14 in the index.
    We maintain our call for an independent counsel to be authorized 
with full prosecutorial powers to investigate this case and other 
similar cases in order to determine what other misconduct by the 
government has taken place and has led to innocent officers being 
imprisoned. This administration cannot be trusted to further manage, or 
review this case as they are tainted by the actions of their 
subordinates in multiple departments and agencies.

FBP's Recommendation to Congress
    Madame Chairman, we have several recommendations to make to the 
Congress today, and these are but the beginning.
    First, we call on the Congress to investigate and conduct full 
committee oversight hearings on the War On Law Enforcement perpetrated 
against our agents and officers by the administration starting with 
Compean and Ramos. The pattern of abuse is there and DOJ and DHS 
officials must be held accountable. Each case I mentioned in my 
testimony must be looked at as one case maybe, two well. . .but 
approaching 10 is more than a mere coincidence and demands oversight. 
When you cannot trust justice to get it right, and instead they 
repeatedly withhold evidence by sealing and preventing law enforcement 
from a fair and just trial, we become another two-bit 3rd world 
dictatorship in the worst traditions of the former Soviet Union, or 
what people originally left behind when they came to America.
    Second, we call on this very committee to overhaul the Firearms and 
Pursuit Policies used by the Border Patrol so that the travesty that 
took place in the Compean & Ramos case will never happen again.
    Third, that this committee bans the humiliation tactic known in the 
Border Patrol as the Rubber Gun Squad. It serves no purpose other than 
to get people in line and trains monkey boys and robots, as they are 
known in the patrol.
    Fourth, don't just accept the pre-scripted guided tour approved by 
HQ-OBP, do what Congressman Steve King did and go out and see it for 
yourselves, or call me, and we'll give you a tour of Southern 
California so you can see it for yourself, just as Mr. Poe did.
    There are many others, but I'll close on this critical point as 
this Congress plans on addressing so-called Comprehensive Immigration 
Reform.
    Based on our information via numerous sources in law enforcement 
and from numerous citizens residing along our borders, the worst thing 
the Congress can do would be to compromise and assent to the Senate's 
amnesty bill. DHS would promptly certify that the border is under 
control. DHS is the fox guarding the henhouse considering agreements 
now in place, and the fact that Border Patrol Sector Chief Patrol 
Agents along the Mexican border overstepped Vienna Convention mandates 
for co-signers by providing the location of civilian border 
observations to the Mexican Government, though that's been justified in 
the name of a good neighbor policy, and by agreements not made public 
between the Department of Homeland Security and Mexico's Secretariat of 
Governance, which was signed on March 3, 2006.
    Sources of ours report that DHS and CBP have been informing the 
public through the media that the Border Patrol has achieved 
``operational control'' of the borders and that crossers had a 
``substantial probability of apprehension''. If the House falls for 
this type of conditional provision, DHS will immediately certify that 
the border is secure, which ensures that amnesty can go ahead. DHS is, 
after all, run by the most incompetent group of handpicked bureaucrats 
our government has ever seen rise to such positions. We, at Friends of 
the Border Patrol, often refer to this as a FEMA syndrome. In one case, 
one such agency head is the most unqualified choice of them all whom 
could not even pronounce Nuevo Laredo at her first press conference. Of 
course she recommended herself to the president though numerous leaders 
were both qualified and available.
    It is our position after investigating the insecurity of our nation 
and regular contact with our law enforcement sources that we are 
vulnerable to Mexican Military incursion, smugglers, drug cartels, and 
violent gangs. To be perfectly honest, the only thing that DHS and the 
Border Patrol have excelled at is convincing America that the border is 
secured and they certainly wouldn't suddenly decide to tell the truth 
with so much at stake. Hopefully Congress recognizes what a con game 
this would be and declines any amnesty.
    Ask Chief Patrol Agent Bill King (USBP retired), a mentor, friend 
and the sole living director who administered the previous amnesty of 
1986. He and other friends including retired Agent Michael Cutler who 
worked the fraud squad for over 30 years will tell you it cannot work 
and would be an even greater failure than it was in 1986.
    I respectfully will remind the committee that it is impossible to 
even talk about such things as amnesty/guest worker programs as no bill 
authored over the past few years addresses the greater problem.
    I am declaring the Border Patrol to be a broken organization in 
dire need of an overhaul. This was an agency whose headquarters motto 
used to be ``serving the field.'' Now you have over 200 personnel at 
HQ, when we need boots in the field. It is imperative that Congress 
overhauls the Border Patrol, remove the manager who rules by fear and 
you'll find countless witnesses who will appear before you and provide 
the facts, upon which you'll know the truth and begin to win the war on 
terror. Want to stop terrorists? Fix DHS and the USBP first and tell 
Mexico to fix their own house and stop exporting terrorists, criminals, 
and narcotics illegally across our borders while conducting espionage 
in our house.
    The Bush Administration needs to cease and desist from providing an 
incentive for illegal aliens to come to America. They need to put the 
American worker first, not those whose nations of origin are 
responsible for providing for their own people. President Bush 
repeatedly speaks of ``good hearted people doing jobs that Americans no 
longer do.'' Since when do Americans not work in construction, fast 
food, and other service industries? The fact remains that Americans do 
every last one of those jobs that are no longer being offered to 
Americans, and especially not at slave wages, which is also why so many 
employers have outsourced jobs to other parts of the planet. It's all 
about cheap labor, and profits, over American citizens, jobs, and 
public safety.
    The American people are opposed to guest worker/amnesty and have 
made that point very clear though it's not needed as the Border Patrol 
are currently prohibited from interior enforcement operations under 
2004's National Border Patrol Strategy and Memo of Understanding 
between Customs and Border Protection and ICE released to the agencies 
on November 16, 2004. It's time to put America and our security first, 
by restoring funding, cutting off the job magnet, and letting the 
agents enforce the laws. Elected officials from both parties primary 
job is to support and defend the Constitution, not undermine 
immigration laws as they have done, and continued to do.
    This administration is noted for its slogans, so I've got one for 
them. How about calling this attempt to ``reform immigration'' by the 
Bush Administration what it really is, ``No backroom deal with Mexico 
(or good hearted-doper reduced to trafficking drugs to help buy 
medicine for his poor sick mother)--left behind. . .''

    Ms. Sanchez. Thank you, Mr. Ramirez.
    And I thank all the witnesses for their testimony.
    And I will remind each of the members that he or she will 
have 5 minutes to question the panel.
    And I will now recognize myself for such questions.
    First, the doctor from San Diego, thank you for traveling 
from California to appear at this hearing.
    In this testimony, you made the case for enhanced 
collaboration with the federal government, Canada and Mexico 
and collaboration between local entities on border communities.
    What type of leadership have you seen coming out of the 
federal agencies or the federal government to do this type of 
collaboration? And what do you think we could do to improve 
that collaboration so that we do catch more bad guys at the 
border, we do stop more drugs from being smuggled in, or 
people, et cetera?
    What do you see that is good? Are we taking the lead? And 
what can we do to improve that?
    Mr. McIllwain. Thank you, ma'am.
    I can speak authoritatively with regard to what is going on 
in San Diego. In San Diego, we have a very unique environment, 
in that we have what is called the San Diego Association of 
Governments, which works very well in terms of working across 
jurisdictions; not just local and county level governments, in 
Orange County and Imperial County and others, but also with 
tribal governments and also with representatives of the Mexican 
government as well.
    These relationships are things that took a long time to put 
together and took a long time to build. A lot of it dealt with 
interpersonal and institutional collaborations on the 
individual level or the institutional level that have then now 
branched out into the larger regional task forces that deal 
with things like infrastructure development or environmental 
concerns or public safety.
    Customs and Border Patrol have actually now joined that 
entity as of this last November, and so--
    Ms. Sanchez. So those federal agencies are now part of 
SanDAG?
    Mr. McIllwain. They are now actually working with SanDAG, 
exactly. And so, they are now part of that structure. So they 
are attending the meetings. And it is actually a very 
positive--I just spoke with the coordinator of the borders 
committee there for the San Diego Association of Governments. 
My testimony will have links to their Web sites and other 
reports that they have put together.
    But in all of these areas, homeland security, if it is 
infrastructure, if it is environmental or other issues, 
homeland security is actually mandated to be part of the 
proactive thinking that goes into the regional collaboration 
between the entities on both sides of the border.
    Border Patrol and Customs has their role in that process as 
well. I cannot speak as to whether or not they have similar 
arrangements in other parts of the country, but I know at least 
in San Diego there is a very positive environment that has 
taken place.
    Ms. Sanchez. Thank you.
    Mr. Wermuth, you stressed the need for long-term planning 
at the Department of Homeland Security. What are the essential 
items we need to have in order to structure that at the 
Department of Homeland Security? Why do you believe it is not 
really in place, this long-term view?
    Mr. Wermuth. Well, the biggest problem for the department 
since its formation just a little over 4 years ago now, almost 
4 years to the day, has been in what we would call dealing with 
the inbox, or dealing with the current crisis.
    And not a lot of thought has yet been given, perhaps 
understandably, bringing so many entities together into this 
new department, not a lot of emphasis has been placed on long-
term planning: planning for all of the operational entities 
within DHS, long-term planning with the other entities--and 
there are a number of other federal agencies, as I am sure all 
of you know: Department of Justice, Department of Defense, 
Department of Commerce, Department of Agriculture. So many 
different parts of our federal government have some piece of 
border responsibility.
    So something akin to the long-term planning that the 
Department of Defense does in their combatant commands may be a 
good approach. I mentioned the Quadrennial Defense Review and 
taking into consideration long-term investment strategies, 
longer-term operational plans, longer-term plans for 
cooperation with our border friends in Canada and Mexico and, 
for that matter, other international partners, because this is 
not just something that is peculiar to the United States.
    We also have competing interests, of course, between the 
security issue and economic considerations. Having the right 
amount of security but trying not to impede the flow of 
commerce that is so vital to our economy.
    So all of these issues need to be addressed in a more 
strategic, more long-term mean than is currently being 
accomplished, as the department simply tries to deal with what 
a good friend and colleague of mine calls the crisis du jour.
    So we have to move beyond that and at least have a 
component in the Department of Homeland Security that is 
looking over the horizon at all of these various issues that 
have some impact on border security.
    I want to ask you gentlemen one last question. It really 
has to do with all this information management or databases, 
because one of you brought it up in particular.
    I am just always astounded at how much information we 
really do collect. And somebody talked about having a database 
that you could punch in, Google in, and you could look at what 
the other police departments might have on a particular person.
    I have a database of, I don't know, maybe 15,000 donors in 
my campaign, and it took me 4 years and 15 different vendors to 
be able to figure out how to finally be able to pull up a 
simple report of the way I wanted it whenever.
    So it just seems like every database takes such an effort, 
to continue to update it, to continue to put into it, and to be 
able to pull off what you want.
    I mean, why is it that we can't--aside from some of the 
privacy issues that might occur, why is it that we can't seem 
to have these types of systems work in a government where we 
are spending billions sometimes to make a new database and a 
new system?
    Do any of you have thoughts on this?
    Mr. O'Hanlon. I will give a couple of quick thoughts.
    I am not sure I understand, myself. But I do think that 
when you recognize the difficulty of building information 
systems that really are effective on the first try or anytime 
soon, you should be wary of trying to create the giant perfect 
database for all time.
    And, in general, in homeland security and on intelligence, 
what you want to do is allow different databases to speak with 
each other and be cross-searched, rather than trying to create 
the one perfect new system that is going to solve all the 
problems. Because that hardly ever happens, and, of course, 
there is a several-year time lag involved in even trying.
    So that is the one conclusion I would draw, not explaining 
the problem that you mentioned, Congresswoman, but agreeing 
with you and then saying, well, what do we do about it in a 
practical sense.
    Ms. Sanchez. Anyone else? Yes?
    Mr. McIllwain. Actually, there are some areas where we can 
actually see examples of this occurring, once again occurring 
largely on the regional level. San Diego, for example, has a 
strong model for regional cooperation and for data fusion 
related to the Sector Command Center-Joint, otherwise known as 
JHOC, which is based in the San Diego Bay.
    In that facility, you would have members of the United 
States Navy, U.S. Coast Guard, Border Patrol and other entities 
that are engaged in securing the borders and the port 
facilities. Some of them maintain their stovepipes in terms of 
intelligence and what is coming in there, as they rightfully 
should to make sure that certain information doesn't get out.
    But by keeping people in this same facility and keeping 
them wired and having the physical infrastructure of being able 
to look at imagery and visualize certain problems, see what is 
going on in the port and the border in real-time using aerial-, 
land-and sea-based assets, that is a very positive step in the 
right direction.
    Additionally, we have the federal law enforcement 
coordination centers that are popping up. In San Diego, San 
Diego State University has been heavily involved, the lab that 
I work with at my university, in helping wire these things so 
that the data that does come in from the fusion capacity is 
actually done more efficiency and handled more efficiently and 
also visualized in such a way that makes it easier for the 
decision-maker to sit back and actually make decisions that are 
making the best use out of that data.
    So I think there are some examples going on out there. It 
is just a matter of basically trying to build upon those 
examples on a national level.
    Ms. Sanchez. Did you have a comment on--
    Mr. Wermuth. I agree with both of my colleagues. The 
problem here is that we have so much data that people at the 
local level--the sheriff of Orange County--can't possibly 
determine on his own how to go and find particular pieces of 
data that might be useful in the law enforcement arena.
    We have to find ways--and the technology is here; it is 
just something that somebody needs to take on as a program, as 
a project--to segment the data in ways that, regardless of who 
the particular official is--it could be public health, it could 
be fire, it could be law enforcement--can find information 
easily, find current information, hopefully real-time or near-
real-time information, in a relatively user-friendly way.
    I like Michael's idea of Google. Perhaps there are other 
ways to actually display--buttons that you can push that will 
take you to information that is particularly applicable to your 
discipline, regardless of what level you are, whether you are 
government or private sector or ordinary citizens, for that 
matter.
    Ms. Sanchez. Great. Thank you.
    Mr. Ramirez. On the general terms, I absolutely agree with 
my fellow panelists. But when it comes to the internal side--
and we are talking the law enforcement side--you can't share a 
lot of those details.
    For example, Border Patrol in El Paso hadn't, for the 
longest time, detailed agents to EPIC, the El Paso Intel 
Center. Border sheriffs report that they basically had to come 
together as an organization in order to find the information, 
because it wasn't being shared by the Border Patrol.
    And there were a number of issues I could cite but I 
wouldn't be able to do it publicly.
    But that is a lot of the problem: They can't talk about 
everything with that. And some of it becomes so cumbersome that 
it doesn't work for agents in-house.
    Ms. Sanchez. Okay, we have four votes on the floor. There 
is a 10-minute bill. I would love to have the ranking member 
ask his questions. I think then we will recess, go over and 
take the four votes, and come back and start with Ms. Harman I 
believe.
    No, was Mr. Green here first? Okay, great.
    Mr. Souder. First I would like to say to Dr. O'Hanlon, I 
agree with what you said basically. If you don't have a secure 
I.D., if you don't have an entry-exit program, then you get 
visa overstay questions. If you don't have a secure border, 
everything else is just chatter. And that we need to understand 
that that is fundamental, and if you can't get the border 
secure, it is pretty tough to do the rest of it.
    I also want to say, with Mr. Wermuth, part of the reason 
that we are moving ahead without a comprehensive plan is we 
can't sit around and wait until there is a comprehensive plan. 
So we are putting fences up, we are hiring more agents, knowing 
that will be part of any comprehensive plan that is there.
    But it is so frustrating, working with narcotics over the 
last few years, in the reauthorization of ONDCP last December 
when we finally got the bill through, we mandated that they 
have a southwest border strategy for narcotics. It is 
inconceivable that we have never had a southwest border policy, 
even for a sub-category of narcotics.
    So, to some degree, we have to keep moving. And we 
micromanage because we can't sit here and diddle around 
forever, but it would be helpful and absolutely essential to 
have a full plan.
    But I want to make sure I get a question in to Mr. Ramirez, 
because I have been increasingly concerned that as we achieve 
increasing, not full success, but marginal success along the 
border, it is only logical that violence is going to increase. 
I just talked to our National Guard commander. In Indiana we 
have soldiers along the border who aren't allowed to have guns. 
Well, they are not on the border, but they are working on the 
road right near the border.
    As the narcotics groups come through, as we put any real 
tension--I mean, one way we can tell, quite frankly, whether we 
are being successful is whether violence increases. The cost of 
whether it is illegal contraband of any kind--chemical, 
biological, nuclear, narcotics, stolen goods, whether it is 
high-value people--that if you are successful, one way you 
measure, in Colombia and elsewhere, is whether violence 
increases.
    The question to you is, we understand from our staff that 
the Border Patrol hasn't changed their force policy since they 
have become part of DHS--whether you agree, from what you have 
seen on the ground, that violence is increasing; what the 
Department of Homeland Security is doing in relation to the 
Border Patrol, other than, ``If you see somebody armed, get out 
of their way.''
    Mr. Ramirez. I am glad you asked that because that is one 
of the biggest problems.
    Again, we look at Ramos & Compean as the example. Since 
that case happened, violence against not only agents but the 
National Guard--and I don't know if members are aware, but the 
National Guard on the border is under the operational control 
of the U.S. Border Patrol and Chief Aguilar. That is not a 
recipe that is going to work.
    Violence has increased. The bandits, the dopers, the 
cartels, even the Zetas, they will come across our border. They 
will tear after Border Patrol agents. They will have standoffs, 
if you will, with firearms raised. They will chase after our 
Guardsmen. There have been at least six to eight incidents that 
I am personally aware of involving Guardsmen just sitting 
there, on duty, being approached by bandits, and then engaging 
in a chase to get away, to escape with their lives, because 
they are not being allowed to engage.
    Now, think of how frustrating that is for soldiers who have 
just been in Iraq and Afghanistan and know that they have to 
stand down and cede territory to armed bandits.
    Violence has increased. When I travel anywhere through the 
southern border--in fact, I will recount a personal story. We 
took Congressman Ted Poe out to the San Diego area; Colonial 
Libertad was what we were overlooking. Within 20 minutes, 15 
minutes, shot rang out. We had to get him out of the vicinity, 
because we weren't going to allow a member of Congress to be 
there in danger.
    On our side of the border we have to fear taking members of 
Congress out there because it is too dangerous. And I would 
invite members, if they are interested, we will provide a 
border tour so you can see for yourselves what we find is 
happening. Violence has increased, and agents are absolutely 
terrified.
    I have had a number of agents call me and tell me, as 
firearms instructors, ``Andy, I have had trainees ask me a 
question, and the question is, 'Sir, what do I do if a bandit 
pulls out a gun or picks up a rock to throw it at me? Am I 
allowed to take out my gun and defend myself?' '' This is the 
question that our Border Patrol agents and Customs agents are 
now asking.
    Mr. Souder. And won't the violence increase if they know 
they are supposed to not engage or to back up? Doesn't that 
just increase the risk of people coming in armed? Because it 
is, in effect, saying the message, ``If you come after us, we 
just back off. So whatever you have, whoever you are 
protecting, whatever you are smuggling, come on in.''
    Mr. Ramirez. That is absolutely the case. And Ramos & 
Compean only exemplified it. Because as soon as they heard 
about that south of the line--and we are talking the cartels, 
the smugglers, both human and narcotic, and other types of 
traffickers--they heard this, they got the word, and the 
violence increased.
    Mr. Souder. Mr. Wermuth was going to say something earlier 
on the plan.
    Mr. Wermuth. Recognizing the frustration that Congress has 
with not having a strategy against which to measure progress, 
we still suggest that is it an appropriate time now for 
Congress to act and require such a plan.
    An additional element of that process could be Congress 
considering establishing a national commission, and one, in 
this case, that would bring in some of our other partners in 
this process--representatives of state governors, 
representatives of the private sector, people who are operators 
or who have been operators in ports and along the border--and 
help to inform a process of establishing this comprehensive 
border control strategy. We should have it.
    And I fully recognize what you were saying about not having 
a southwest border strategy for drug control. Back in the days 
when I did drugs in the Pentagon--
    [Laughter.]
    I always pause at this. I always laugh at that.
    I was the first deputy assistant secretary of defense for 
drug enforcement policy back in the late 1980s and early 1990s, 
at a time when so many of these federal agencies were butting 
heads.
    And you are exactly right, some of the same issues apply 
here. We need to get on with that kind of discussion.
    Ms. Sanchez. Thank you.
    And thank you to the ranking member.
    I would just remind the committee members, I just asked 
staff, and in fact, if you are a law enforcement officer on the 
southern border and you believe your life is in immediate 
danger, of course you can draw your gun.
    We have four votes on the floor. I am told that one of them 
is a recommittal, which means, gentlemen, that it will probably 
take at least 50 minutes before we come back and finish those 
four votes. So I will recess this committee.
    The subcommittee stands in recess, and maybe you will go 
get something to eat or drink. And I hope you can all make it 
back in about 50 minutes or so, and we will try to make it back 
ourselves.
    Thank you.
    [Recess.]
    Ms. Sanchez. The committee is back.
    The chair will now recognize other members for questions 
that they may wish to ask of the witnesses. And in accordance 
with our committee rules and practice, I will recognize members 
who were present at the start of the hearing based on seniority 
on this subcommittee, alternating between majority and 
minority. And those members coming in later will be recognized 
in the order of their arrival.
    And I believe, at this point, I will recognize Mr. Green 
for 5 minutes.
    Mr. Green. Thank you, Madam Chair.
    And I thank the witnesses for appearing today.
    Mr. Wermuth, sir, you mentioned a comprehensive security 
plan, I believe. And I tend to believe that this is the correct 
approach, because, without a comprehensive security plan, the 
superficial security analyst will have the opportunity to make 
meaningful minor security issues of paramount importance.
    A fence is important. So let me just ask a few questions, 
if I may, of the panel.
    If you believe that we should fence the entire southern 
border, as opposed to 850 miles--that would be 2,000 miles--
would you kindly just raise your hand? This way, I won't have 
to go to each person.
    If you think that we should fence the entire southern 
border. The entire southern border.
    If you think that we should fence the 850 miles of the 
southern border that has been proposed, would you raise your 
hand if you think so? The 850 miles.
    Mr. Ramirez. Where physically possible.
    Mr. Green. Eight-hundred-and-fifty, okay.
    Now, Mr. Ramirez, let me ask you this: Would you fence the 
northern border?
    Mr. Ramirez. Well, that is something that--
    Mr. Green. Excuse me, Mr. Ramirez, sometimes when people 
finish I don't know whether they have said yes or no.
    [Laughter.]
    And so, if you would be so kind just to cooperate with me 
and start with ``yes,'' and perhaps we will go into some 
greater detail.
    But would you fence the northern border?
    Mr. Ramirez. I would review it, certainly.
    Mr. Green. You have not drawn conclusions about the 
northern border?
    Mr. Ramirez. I have met with Border Patrol sector chiefs 
along the northern border. For example, you can't put a fence 
along the waterways--
    Mr. Green. Where you can fence the southern border, you 
would fence it. When you can fence the northern border, would 
you fence it?
    Mr. Ramirez. If, after taking a look at it to see that it 
is going to prevent a type of traffic--
    Mr. Green. Let me go to my next question, if I may.
    Mr. Ramirez. Sure.
    Mr. Green. With reference to persons who want to hurt us, 
that we have empirical evidence of their intent, the 9/11 
hijackers, did they come in through the southern border?
    Mr. Ramirez. No.
    Mr. Green. The so-called millennium bomber, Ahmed Ressam, 
did he come in through the southern border?
    Mr. Ramirez. No, sir.
    Mr. Green. Do we, by focusing to the extent that we do on 
the southern border, cause persons to develop a false sense of 
security from terrorism to the extent that they believe that 
fencing the southern border is going to do what was not done to 
prevent the 9/11 hijackers, the millennium bomber, and others 
who are sophisticated enough to enter the country without 
crossing the Rio Grande?
    Mr. Ramirez?
    Mr. Ramirez. Well, sir, first, it has been my experience--
and I have seen the intel reports--where they are coming 
through both the northern and the southern border--
    Mr. Green. Excuse me, Mr. Ramirez, let me share this with 
you now. We would like, if we can, to have empirical data, not 
speculation. We know how the 9/11 folk got in. We know how the 
millennium bomber got in. I have heard the rumors of documents 
found on the ground which can lead to speculation. I have heard 
the rumors of possible entry.
    But what I am interested in is empirical evidence that has 
been substantiated by credible intelligence agencies. Do you 
have any empirical data of this type?
    Mr. Ramirez. If you are referring to specific numbers--
    Mr. Green. Specific incidents.
    Mr. Ramirez. Yes. I don't have any of those documents with 
me.
    Mr. Green. Okay.
    Now, here is where we are, it seems to me. A comprehensive 
plan--Mr. Wermuth, I would like for you to comment, if I may--
seems to provide the best opportunity to prioritize and utilize 
resources most efficaciously. Would you comment on this, 
please?
    Mr. Wermuth. You are absolutely right, Congressman.
    As I said in the written testimony and hopefully reinforced 
in the oral remarks, no single security measure by itself is 
likely to be the silver bullet that we are looking for, if you 
will. And unless we consider a suite of security options as 
part of a comprehensive plan, our own personal opinion is that 
a border fence by itself may do nothing more than you suggest, 
give people a false sense of security.
    As I said in the testimony, you can put up barriers at one 
point, and the likelihood is that people who want to come here, 
whether they are intent on doing us harm or whether it is just 
the masses of people that we have seen coming here for economic 
reasons, are just going to find a way to go around the fence.
    The fence itself is not necessarily a bad thing. There are 
other examples you could give. But unless you can consider all 
of these options, fully analyzed for the cost benefit, looking 
at the entire suite of security options in a comprehensive way, 
I don't know how we could make the kinds of judgments that we 
are suggesting about the prioritization of resources.
    Mr. Green. Madam Chair, I thank you, and I yield back the 
balance of my time.
    And, Madam Chair, may I be excused? I have persons waiting 
on me in my office.
    Ms. Sanchez. Certainly, of course--
    Mr. Green. Thank you.
    Ms. Sanchez. --Mr. Green.
    The chair now recognizes Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much.
    Dr. O'Hanlon, you stated the United States should speed up 
efforts ``to track exits of visa holders,'' a statement which I 
completely agree with.
    In that regard, do you believe that implementing a 
functioning entry and exit system is a prerequisite to 
establishing a temporary guest worker program?
    Mr. O'Hanlon. Congressman, I think it is a prerequisite to 
doing a number of things. I think you are probably right in the 
guest worker program area. My focus is really on 
counterterrorism. And, in that sense, that was the context in 
which I endorsed the idea.
    Mr. Bilirakis. Can we enforce time limitations on such 
guest workers or for other visa holders in the absence of such 
an exit program, in your opinion?
    Mr. O'Hanlon. There is a huge loophole. I don't know to 
what extent it is currently being exploited. I am not sure it 
is our most important current problem, but it could become an 
increasing problem over time, especially if we plug other 
loopholes. So for that reason, I would like to get ahead of the 
game and build a better system now.
    Mr. Bilirakis. Thank you.
    Mr. Ramirez, thank you for coming and testifying today.
    According to your written testimony, you did not agree with 
the comments of the secretary, Secretary Chertoff, or Chief 
Aguilar, made before this committee several weeks ago, that 
Border Patrol agents have the necessary authority and resources 
to do their job safely and effectively. Is that correct?
    Mr. Ramirez. Yes, that is absolutely correct.
    Mr. Bilirakis. How do you believe the Border Patrol 
policies on pursuit and the use of force are hindering the 
ability of agents to do their jobs? I know you touched on it a 
little bit earlier. Elaborate, please.
    Mr. Ramirez. Well, as an example, the firearms policy. One 
of the biggest problems they have--and, again, Ramos & Compean, 
the case, really shows this blaring problem. Agents are only 
allowed to submit an oral report to their supervisor, not a 
written report.
    Now, let's say, for instance, you have a supervisor who 
suddenly develops a case of amnesia or is ordered to develop a 
case of amnesia. If that happens, that agent who may have 
reported is hung out to dry. And that is a big problem.
    The only way we can fix this problem is by agents being 
able to submit that report. Yes, it adds more paperwork. Yes, 
agents may or may not like it. But it also could protect them 
from a problem that Ramos & Compean clearly identifies. By 
being able to submit that written report, now it is not on 
Supervisor Richards, as an example in this case, to corroborate 
an oral report. Now the onus is on the agent. And in doing 
that, we are able to better assist them.
    Pursuit policy: You have agents who are trained for 19 
weeks at FLETS. In every which variety, it is the most 
strenuous academy that is out there. Of course they are trained 
in many other facets.
    Well, when you have an agent who has been out in the field 
2 years, 5 years, 10 years, 20 years, I think that agent, 
between his training and his experience, is more than able to 
make a call about a pursuit in the field, rather than a 
supervisor who hasn't been in the field for maybe 2 years, 5 
years, 10 years.
    You know, you have a lot of sector chiefs, and I have a lot 
of respect for them, but they are sitting in sectors, they are 
meeting with other commanders of other agencies. When is the 
last time any of them have been able to go out there in a 
vehicle and just talk to the agents out in the line, let alone 
engage in a pursuit? They are not in a position to determine 
that public safety. Only the agent that is out in the field.
    I think if we are able to give that back to the agents in 
the field--but, unfortunately, what agents report, retired and 
active duty, is the agency seems to be more concerned with 
civil actions rather than that aspect of safety.
    And I have had an agent, a retired assistant chief, who had 
told me a year ago that they have the training, as an a-chief, 
that their line agent in the field doesn't have, because it is 
the additional professional training.
    I think the agent in the field can make a better assessment 
than somebody at headquarters.
    Mr. Bilirakis. How long does it take to get authorization 
to pursue a fleeing vehicle--
    Mr. Ramirez. You call--
    Mr. Bilirakis. --the agent?
    Mr. Ramirez. Well, you call it in, and it depends on the 
sup. Some sups will immediately tell you to break off. I have 
heard incidents where agents will call other agencies on their 
cell phones, such as sheriffs and what have you. In fact, I had 
a county sheriff in Texas report to me that he gets calls from 
Border Patrol because his sups aren't allowing him--but he is 
not engaged in a pursuit. The Border Patrol agent who is 
following closely behind, he calls the sheriff so that the 
sheriff can continue with the pursuit. And they are just there 
as backup.
    They have been prevented from enforcing the laws. And this 
is coming directly from headquarters, from their command, from 
their supervisors. You can be out on the line, have one sup 
tell you one thing. He leaves the scene; 5 minutes later, the 
next sup is telling you the complete opposite that you were 
just ordered.
    Mr. Bilirakis. In your opinion, could these policies be--
oh, okay. All right, okay. I can talk to him privately. Thank 
you.
    Ms. Sanchez. Thank you very much.
    The chair now recognizes for 5 minutes the gentleman from 
Texas, Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chairman.
    What is the role of universities and researchers in helping 
Homeland Security come up with strategies and ideas on how we 
can protect our border?
    Because, personally, I think it is an area that we need to 
work more with our universities. I mean, there is a certain 
sphere of influence that universities have, especially the ones 
that have experience with border dynamics.
    Mr. McIllwain. I guess that would be me.
    Once again, I will go from a case study standpoint, and I 
will share with you, kind of, the approach we have taken at San 
Diego State.
    Border universities in general have a very unique 
relationship, given the fact that many of their students and 
many of the community members that they serve of course live on 
both sides of the border and consider themselves citizens of a 
border region.
    San Diego State University, its approach has always been to 
support our local stakeholders in terms of dealing with the 
actual ground-level problems that are coming along, with regard 
to homeland security.
    One of the problems that we tend to find is that, because 
of the way the budget process works and because of the way 
technologies are slow to be implemented in the field, people 
who are actually in the business of doing the deliverables of 
that service, of providing that security, do not have, in a 
sense, a chance to act in real-time against the various 
challenges that they are facing.
    But those that are working on the criminal side or the 
terrorist side or other sides have that ability. They have more 
resources, they have more--their organizational capabilities 
are better, because they are more diffuse. They can take 
advantage of these things.
    The university, then, can become, in a sense, an R&D 
function, to work on the ground, particularly on a regional 
level, because different problems occur in different regional 
areas. The questions about the Canadian border, the questions 
about the Mexican border--El Paso is different than, you know, 
San Diego; there are different concerns.
    Local universities are in a position to capitalize upon the 
human capital at their own disposal. They have existing 
relationships with port officials, border authorities, et 
cetera. They have the relationships with Mexican authorities 
particularly, or Canadian authorities on the northern border. 
So I think they are strategically placed to deal with these 
things very well.
    The problem deals with, in a sense, the way the existing 
structure goes toward research in the area of homeland 
security. The centers for excellence idea is a good start. 
However, as I say in my written testimony, it would be like 
trying to go on a war against HIV or a war against cancer and 
dedicating $3 million to one institution that subcontracts with 
other universities.
    Mr. Cuellar. What suggestions would you have to get the 
universities--because I am a big supporter of that and think we 
ought to use our universities, because every university has 
that little, what I call, sphere of influence and understands 
the dynamics.
    So what would be your thoughts--
    Mr. McIllwain. There are many approaches one can take to 
this. The one I talk about in my written testimony is the idea, 
for example, of tying the research expenditures perhaps to the 
funds that are coming in through a certain port.
    For example, Los Angeles-Long Beach, you know, how many 
billions of dollars come through, in terms of real revenue to 
the U.S. Treasury? In a sense, you have this major port with 
over 44 percent--is it 44 or 46 percent?--of the actual 
containers coming into this country. There are no guarantees, 
not a single university in that local area with local contacts 
has any revenue fund to help those local clients that they have 
as universities to actually achieve these objectives.
    There needs to be a way of basically trying to find a 
structure in which that can be done. And if those monies do 
exist, to make sure they are getting to those organizations, 
universities and others, that are in the business of providing 
those deliverables on a local, regional basis.
    Mr. Cuellar. I don't want to go over my time, but could you 
provide the committee some sort of structure of how we can use 
the universities more effectively, how Homeland can use the 
universities--
    Mr. McIllwain. Absolutely, sir. I would be happy to follow 
up. Part of that is in my testimony, but what I can maybe do is 
talk to you or a member of your staff afterwards to find 
specifically what you would like, and I would be happy to get 
that to you and to the committee.
    Mr. Cuellar. All right.
    Mr. McIllwain. Thank you, sir.
    Mr. Cuellar. Thank you.
    Thank you, Madam Chair.
    Ms. Sanchez. The chair now recognizes a fellow Californian, 
Ms. Jane Harman.
    Ms. Harman. I thank the chair. And I think this is an 
excellent hearing. And I just want to make a couple of personal 
comments about two of the witnesses and then ask a question.
    First of all, I have been channeling Michael O'Hanlon for 
years. He speaks out, I think, brilliantly on this subject but 
many others, and I would commend to everyone his recent book on 
``Hard Power,'' co-authored with Kurt Campbell, formerly of 
CSIS.
    It is also the case, for me, that the RAND Corporation, 
which is about 100 feet outside my congressional district--I 
know Ms. Sanchez knows it well too--is an amazing place for 
work on security subjects. And homeland security is one of its 
best, at the moment, products. And I want to commend Michael 
Wermuth and Jack Riley, who is hiding behind a post, for the 
work that they have done a variety of homeland-related 
subjects.
    Both of you said very important things today.
    Michael number-one was talking about the role of 
prevention; it is much better than consequence management. He 
is right. And he talked about tightening terrorist watch lists, 
the Google-like capability, more C.T. cells, biometric I.D.s 
and so forth.
    Michael number-two talked about the need for a risk-based 
strategy. We can't do this just on an individual basis. We 
really have to know what we are going to target and hopefully 
find the bad guys before they cross the border and also find 
the homegrown cells inside.
    But here is my question, and it is for the whole panel, and 
it is: How do we do this effectively and protect our civil 
liberties?
    Michael Wermuth mentioned in his top six things to do that 
there are critical privacy considerations. I think there are 
too. And I agree with Ben Franklin, who said basically, to 
paraphrase, we either get more security and liberty or we get 
less. It is not a zero-sum game. It is a positive-sum game or a 
negative-sum game.
    So I think there is a broad, law-abiding community out 
there wanting us to catch bad guys but not wanting us to 
surrender our Constitution and our core values. And I would 
like to put this question to the panel, maybe starting with the 
two Michaels, but I would ask the other witnesses to comment: 
How do we get both?
    Mr. Wermuth. As I mentioned in the oral remarks and in 
written testimony, these issues really are critical. And what 
we should learn to do, and unfortunately we haven't in other 
programs, even some specific ones related to border security, 
particularly in the commercial airline industry, is that we 
don't start thinking about these issues until after the fact.
    That is why we tried to make the point very clear that this 
needs to be an upfront part of the checklist when you are 
developing a program. What are the key privacy and other civil 
rights implications of a program like this? We are seen too 
many false starts on programs. We have got to build it in 
upfront.
    We all know that we can handle people who are not U.S. 
persons, in that legal definition, who are coming into country, 
we can handle them differently than we do U.S. persons. But we 
ought to strive toward handling everybody the same to the 
extent that we can.
    And most importantly, applying the prevention techniques, 
particularly intelligence, as far out as we can get it, to 
identify the bad guys and be able to segregate them from the 
good folks.
    Mr. O'Hanlon. Thank you, Congresswoman. Just a couple of 
quick thoughts. And here, of course, I am again borrowing from 
my friend Jim Steinberg, who was the lead person on 
intelligence and civil liberties in our work. And, again, this 
is familiar kind of thinking to you.
    One principle is that there have to be ways to know who has 
accessed databases within the federal government, and you have 
to have rules on who gets access to what information, and 
electronic records, essentially, of who has accessed. In other 
words, you have to have a way to both limit access and then, 
where there are violations, to go back and punish people for 
infringements.
    So this is beyond my expertise to map out in detail, but a 
lot of the new developments in data security and in recording 
access to various databases are the way you do this.
    And, in fact, we could actually improve, Jim argues, we can 
improve protection of civil liberties, because right now we 
have done so little of this sort of thing that most 
organizations don't have data czars and don't have clear rules 
on how they limit access. So if something is in a database, you 
can go look at it. And if it is not, of course you can't. But 
it is sort of a free-for-all.
    And if you increase the ability of one agency to look at 
another's database, you have to have rules on who gets to see 
what, and you have to have some way of knowing who has 
accessed. And that becomes, then, your basis for enforcing.
    I think that is the main answer.
    Another answer I would quickly offer, though, on the 
specific issue of driver's licenses, which I know is so 
important right now in the debate, with apologies to those who 
want to argue that civil liberties are the only real priority 
here, I would simply remind people of the obvious: that driving 
is a privilege, it is not a constitutional right. They didn't 
have cars back in the 18th century.
    And if the state is going to grant you the right to operate 
a vehicle that can hurt people and yourself on the roads, there 
is potentially a bargain there being established between the 
citizen and the state. And if the state is asking you, for the 
good of national security, to allow us to verify your identity 
through a biometric, I don't think there is any constitutional 
issue with that whatsoever. The argument is squarely on the 
side of the state having the right to do that, in my judgment.
    Ms. Harman. My time is up, Madam Chair, but I would welcome 
the opportunity to let the other two witnesses comment.
    Ms. Sanchez. Of course. We will be asking a couple more 
questions here. You can certainly finish yours.
    Ms. Harman. Thank you.
    Do you two have something to add?
    Mr. Ramirez. One of the problems--and then this is dealing 
with a lot of investigators in a multitude of agencies. For 
example, what may work in ICE is not compatible at the Border 
Patrol. None of that stuff is easily transferred over.
    One of the things we learned through Ramos & Compean, as an 
example, where you have an agent from Arizona trying to access 
information, it just doesn't work. We need to find a way to be 
able to do that, but then that leads to the problem that has 
come up when it comes to some of the agencies, of the 
corruption issues. Like my colleague said, you have to have 
protocols.
    And, of course, you also have to make sure that local law 
enforcement is able to access, because, at least at the sheriff 
level or the chief deputy or the under-sheriff, if they can 
access some of this intel, it will help all of them be able to 
share the same information.
    Ms. Harman. Thank you.
    Mr. McIllwain. Couple thoughts.
    In speaking about this issue with regard to practitioners, 
one of the things that becomes clear is in the priority in 
terms of training and education for people in this field, in 
terms of ethical training. This is something I know Chief 
Bratton in L.A. and other folks have constantly talked about.
    But it is very important to show the intersection between 
one's professional responsibility and one's ability to take 
care of their community. And that, in a sense, has the positive 
aspect of bringing back information flows to the policing 
structures or the other structures that are dealing with this.
    The idea of an ombudsman: This is being done on local 
levels in police departments. I used to do a lot of work on 
use-of-force cases and other things for police. The idea of an 
ombudsman that is basically set up by a jurisdiction--a city, a 
state, or somewhere else--that is responsible for investigating 
those complaints free of the normal procedures, that is 
something that has, from a research standpoint, been shown to 
meet the interests not only of the unions that are engaged in 
this but the citizens and the management.
    And then finally, the idea of accountability for state 
actors if they do abuse this authority, that there is, in a 
sense, that accountability that can exist. The idea of having a 
data czar is an excellent idea, having people that are in 
charge of knowing where those flows are.
    But your Achilles' heel in all these cases will always be 
the human element. And you have got a second Achilles' heel, 
which is the technological element. The same information that 
states will have pales in comparison, oftentimes, to what is 
available in the private sector.
    So, in a sense, we have seen cases where, you know, bad 
guys have better intel on the eating habits of, you know, our 
officers, based upon their credit card records, than we do of 
any possible terrorists that might be out there ourselves.
    Ms. Harman. I thank you for that answer.
    I know I have gone over time. I won't ask any more 
questions. If I could just sum up by saying we have got to get 
this right on the front end; I agree with that comment. Because 
if we don't, there won't be protection left, should we have 
another attack.
    Second point, we have got to have databases with all the 
material we need in them, but they can't be abused. And that is 
your point. We need training and protocols. And they exist. 
Something I hope we can do in this committee is to provide more 
funds for local law enforcement to train people on how to put 
together and use these databases.
    And finally, there is a lot of learning on just the 
compilation of bases. The Markle Foundation, based in New York, 
has done enormous, ground-breaking work on this. And when we 
passed the Intelligence Reform Act of 2004, they were helpful 
to us in a lot of what that law says, which builds databases 
and keys to databases that have just the right information on 
them, and they converge at a point and then they disperse, so 
that we don't create a Big Brother with information on our 
eating habits rather than on whether or not we are terrorists.
    So I thank you for letting me go over my time. I think this 
panel is really a very valuable panel.
    Ms. Sanchez. It has been very instructive. And I thank my 
colleague from California.
    I guess I have one question left that I would really like 
to ask of you all.
    You know, it is not because my name is Sanchez or because 
my parents came from Mexico, but I think we concentrate a lot 
of our efforts on the southern border. And I think that there 
is a real outrage going on in our nation with respect to people 
coming without the right documents to our country. 
Unfortunately, it seems to really be slanted at people coming 
from Mexico. And I think that is one of the bigger reasons why 
we spend so much time, at least politically, worrying about the 
southern border.
    But, you know, it is my feeling that we are a sovereign 
nation and we should have a say in who comes in and out of our 
country.
    And it has been my experience over time, my lifetime, that 
when you plug one hole, the water goes to wherever it is not 
plugged up. And, you know, our country is a big country. It has 
a long border at the northern border that doesn't have much 
fencing or many agents up there to watch who is coming across. 
And we have coastal access, not only to our continent but 
Puerto Rico or some of our territories. We have a lot of coasts 
where people can come in through. Once you get to Puerto Rico, 
there you come.
    So my question is--and I have all the statistics about how 
many border patrols we have at the northern border, et cetera. 
And we were up at the northern border this past August, taking 
a look and talking to the Border Patrol agents there.
    But my real question is, you know, I am worried about this, 
because I believe we need to close the entire circle. I don't 
mean fence everything. I live on the California beach. I don't 
want a fence running there either. But close it, so we can have 
a pretty high level of confidence that we do have a say in who 
is coming in and going out.
    And I think that is one of the things that America's people 
really want. They want to believe that we have control, that we 
have a say in who is coming in and going out.
    So my question for you is, one, what do you think about the 
northern border? Are we really ignoring it? If we really put 
these miles at the southern border in particular, will we see 
more people coming in from the north? Are a lot more coming in 
but since we are not there--you know, if the tree falls but no 
one is in the forest, did it really fall, or did someone hear 
it fall?
    And lastly, do you believe that our Coast Guard and other 
agencies who work the coastline have enough resources for the 
future? Because if we clamp down someplace, they will come in 
another way.
    And why don't we just go down the line and finish up here.
    Mr. McIllwain. Beginning with the topic of the northern 
border, there has been a lot of academic research looking at 
the history of the issue of smuggling as it deals with both the 
southern and the northern frontier--not just contemporary 
research, but historical research.
    One of the big conclusions that comes out of that is 
something I am sure the committee, this subcommittee in 
particular, is familiar with, which is, the issue is Canada is 
not Mexico. So there is a consistent rule of law, there are 
different standards and other issues that are going on there 
that, in a sense, allow for a full partnership to be realized, 
where the cooperation has a tangible result. The challenge is 
much more severe in Mexico itself.
    The problem that we have with our northern border deals 
with the one that we saw evident in the recent Toronto arrest 
that occurred with the possible bombings up in Canada, where 
you had people going back and forth across the border as part 
of that conspiracy. A couple of the members of that conspiracy 
were actually stopped on the Friendship Bridge going back up 
into Canada. Two other members were caught in the Georgia area, 
alleged members, that were part of this larger conspiracy.
    We, in a sense, have that homegrown aspect, both in Canada 
and the United States, where individuals, in a sense, can 
already be within our borders, can go back and forth meeting 
with like-minded people. And that is a difficult thing, 
particularly when they are homegrown. They were either born in 
this country or they came here at an early age. They have their 
citizenship. There is nothing on their records.
    Canada has another issue, as well, which is the fact that, 
as part of the former British empire, people from other 
countries, as part of that empire, have direct access into 
Canada. I have been to Canada many times, and my Canadian 
colleagues at the University of Montreal and other 
universities, this is something that their whole nation is 
struggling with, in terms of how to handle their own 
immigration procedures.
    And I guess the best way of looking at this is in the same 
model I talk about in my written testimony. There are good 
people trying to work on these problems in these countries, 
both Mexico and in Canada. The idea of identifying who these 
people are, the processes that they are trying to get heard in 
their own country, as other people here are doing good jobs of 
trying to work really hard, how do they find ways to deal with 
these same issues? There is common ground here. Mexico is 
dealing with the same thing. I have many of my friends that 
have received death threats, they have lost members of their 
family because of the fight they had against the cartels. I 
mean, these are real-world things.
    Being able to identify those people, capitalize upon that 
human capital, that human element that you are talking about, 
provides a tremendous amount of--I don't want to use the word 
``intelligence''; I don't think that is the right word--but 
provides us with a lot of intelligence in terms of how to use 
our limited resources in such a way that we don't have to have 
a mutually exclusive view of, you know, what comes, in terms of 
trade flows or people flows.
    If we use it smarter, more effectively, by tapping into 
that human resource, we are doing a service to all our 
constituencies. The Mexican government is doing it for theirs, 
the Canadian for theirs, and we for ours.
    And I think that that is a very strong structure. And there 
are models for doing this. And so, we just need to basically 
talk about what those models are. And I have some of them 
listed in my testimony. I would be happy to give a lot more to 
the committee as well.
    Ms. Sanchez. Great.
    Doctor?
    Mr. O'Hanlon. Very quickly, Congresswoman, I think what I 
try to think about is, what is the likelihood that a Mohamed 
Atta would come through Mexico or Canada? You know, bring it 
back to that kind of a scenario.
    And I think, on balance, I wind up concluding that that 
kind of a person is not too likely to go through either place, 
thankfully, because of the risk of having to get into the 
country in the first place, go across hundreds of miles of open 
territory, great across the land border, and then re-establish 
himself in the United States before being able to carry out a 
terrorist attack.
    As you know, I am in favor of a much tighter before because 
I worry about that scenario some. But I don't think it is 
super-likely, especially in Canada where you do have relatively 
good procedure for visas and so forth.
    But they are not airtight. They are not as good as ours. 
The Canadians do have this commonwealth issue. There are a lot 
of would-be terrorists who live in Britain, not to mention 
Pakistan and south Asia. And so I do think we have to be at 
least a little nervous.
    So if I am creating a spectrum of nervousness, in terms of 
the terrorism problem, the overall issue we are addressing 
today, the border, causes me some level of nervousness. And I 
think we should tighten things up quite a bit.
    I am not losing sleep over it, but I think there is a 
chance that Al Qaida could try to use our borders in the future 
in a way they probably haven't attempted so far. So I am very 
happy the committee is focused on this. And so, I have a 
certain amount of worry about the Mexican border. A little less 
about the Canadian border, but not zero.
    So that is a long way of saying that we should improve it 
even if it is not our top priority. And we should always keep 
an eye on what the Canadians are doing with their immigration 
controls and their visa policies. Because if they get sloppy or 
their civil liberties concerns get even more paramount in their 
own thinking, we may need to worry about tightening up that 
border even more.
    Ms. Sanchez. Right.
    Mr. Wermuth?
    Mr. Wermuth. The two borders are different, and fairly 
dramatically different in the dynamics that apply to the 
border, and particularly to border security.
    Of course, a lot of focus on the southwest border has to do 
with sheer numbers, the vast number of people who come across 
the southern border, many of them illegally. The flow of drug 
traffic across that border for a long time now that has caused 
additional focus on that border for law enforcement purposes 
has probably brought the southern border more attention because 
of that.
    But the northern border does have to be a concern. The 
simple fact that so much international trade with Canada is so 
important to both our economy and theirs, and if there were any 
incidents that were to disrupt that trade, it would have huge 
economic implications.
    So we can't ignore the northern border. I don't think we 
are ignoring it. It is just a different set of dynamics.
    And finally, on your last question, clearly the waterways, 
the international ports, all of those huge numbers of places 
between major commercial ports where bad guys could enter our 
country, on the Pacific coast, on the Atlanta coast, across the 
Great Lakes, in the Gulf of Mexico.
    As we get better with security along land borders, I said 
in the testimony it is probably going to move out around the 
edges. And that is why we have got to be cognizant of the 
dynamics of changing threats, of emerging threats, and 
recognize, as we implement other security procedures, that the 
mission of the Coast Guard could, for example, get dramatically 
bigger if, in fact, some of the efforts on the land borders 
actually do start to show some real success.
    Ms. Sanchez. Thank you.
    Mr. Ramirez?
    Mr. Ramirez. I recently had a chance to discuss this with 
Commissioner Bernie Kerik, the retired commissioner of the New 
York City Police Department, and of course we all know the 
impact that his department felt because of 9/11. One of the 
things in the correspondence he reminded me was that, in 2005, 
James Loy, then deputy secretary of DHS, stated, ``Several al-
Qa'ida leaders believe operatives can pay their way into the 
country through Mexico and also believe illegal entry is more 
advantageous than legal entry for operational security reasons. 
Knowing that, that is something we can't ignore.''
    When you look at the Canadian border, it is vulnerable. It 
is extremely vulnerable. You have between 200 and 240 agents on 
duty at any time. You have to look at rubber gun squad, people 
that are on leave, people that are on vacation, people that 
have been detailed elsewhere around the country, to cover 4,000 
miles.
    You have projects, such as Project Athena, which is a 
Raytheon-developed project which proved that you could monitor 
at least the Great Lakes and all water entries along the 
northern border. The chiefs of Detroit and Buffalo sectors 
begged Chief Aguilar to implement this type of operational 
program that worked. It was ignored by the headquarters office 
of Border Patrol.
    You have senior managers who have told me that they have 
contacted Chief Aguilar repeatedly and other senior managers at 
headquarters, pointing out operational issues of concerns. 
Chief Stevens was notified, Chief Barker--numerous chiefs of 
headquarters have been notified; it was ignored.
    In my testimony you will find some examples of this. We 
talk about the maritimes. Ramey Border Patrol Sector was the 
most ignored sector in the entire U.S. Border Patrol. You had X 
amount of agents, which was very small. You have a whole sector 
there, when you can have a PAIC agent running it, patrol agent 
in charge.
    And instead, when you look at the drug trade that comes 
through that region, Border Patrol agents are operationally 
restricted to a small corner of the island. They are not 
allowed to do much. They are basically there for show.
    So you look at some of the operational problems that are 
part of your question. You can look at Ramey as the glaring 
example of what is wrong. You could look at the northern 
border. We are ignoring the northern border.
    Yes, we need to focus on the southern border because of a 
card that I would like to point out and share for the record. 
This was given to me by a Border Patrol agent who served in the 
Tucson Sector, and it goes back and it was given out to agents 
during Chief Aguilar's tenure as sector chief. And it states, 
``Remember, Mexican military are trained to escape, evade, and 
counter-ambush if it will effect their escape.'' And this card 
was given to agents along the Tucson Sector. Yet we hear 
reports from DHS that we don't have Mexican military incursions 
and that such reports by the media and public have been 
overblown.
    Well, we don't have those issues along the Canadian border. 
The Canadian military doesn't engage in incursions and support 
the cartels as they are bringing narcotics into this country.
    So when we look at the northern border, that is one of the 
glaring differences. But we have equal dangers on both borders 
that must be addressed, starting with this committee.
    Thank you.
    Ms. Sanchez. Thank you, Mr. Ramirez.
    And I think my ranking member has a question to ask of you 
all before we finish this hearing.
    Mr. Souder. I have a couple of questions that, if the 
answers can be relatively short, may be things we can pursue a 
little later.
    But I want to make a couple of notes on the north border.
    Clearly, south border is mass and quantity; north border is 
a little bit different challenge. On the other hand, British 
Columbia is starting to take on variations of the south border, 
with the B.C. bud. We have the first officials arrested who 
were corrupted by the amount of dollars, the sheer quantity of 
guns and cocaine going back across the other direction. That is 
now their number-one export is marijuana, not timber, not even 
tourism. And so, we have signs that this can happen even in 
Canada, and they need to be on top of it.
    I think that there are--another challenge is the meth 
precursors and the Canadian pharmacies. We don't know whether 
they are really Canadian or not. But clearly this is--FedEx, 
UPS, DHL--a challenge in how this type of thing moves. If you 
can move drugs, you can move pieces of chem, bio, all sorts of 
things. It is the same trafficking networks that can be used. 
And we have to watch the north border.
    Yes, the cooperation is different, the pay levels are 
different, the legal system is different, but these are the 
challenges.
    Now, first question for Dr. O'Hanlon. I am just curious, 
because I should know this answer. Maybe I have heard you say 
it before, but if you don't think it is the borders, what are 
you most afraid of? Latent cells, people who are being 
converted, or outside attack?
    Mr. O'Hanlon. Well, I will be quick. I do think the borders 
are an issue. But I think I am still most worried, for example, 
about the British citizen who wants to do something like they 
were trying to do last August, whether on the airliners as they 
are coming across the ocean or sneaking in with a legitimate 
British passport.
    Mr. Souder. Then let me get to my next question. I am 
exasperated at the slow pace that we are moving to the I.D.s 
and the resistance that we are running into on the borders, 
which, to me--look, if this is a low-income problem, then let's 
address tax credits for the cost of it, some kind of an 
economic address. Because, clearly, entrance and exit and 
having a secure I.D. with fingerprints is essential.
    My understanding is that we are looking at 2009 for 
airports, 2014--ports maybe it is, and 2014 for airports. And 
there is not even a plan to have this fully at the borders.
    How can we be discussing all these other bills? What do you 
think the resistance here is, that why we aren't accelerating 
this? Because it is the linchpin of a secure border strategy, 
of you just described of visa overstays and manipulation of 
people who have E.U. passes or Canadian citizen immigration.
    It is the linchpin, because if you don't know who the 
person is--not to mention, if anybody goes to an immigration 
desk at the Pakistani Embassy, there are like 15 names of 
people there, whether they are State Department or DHS, they 
are having a terrible time figuring out whether it is exactly 
the person.
    Why isn't this the number-one focus?
    Mr. O'Hanlon. My quick answer, or an attempt at an answer, 
would be that we have been a little too confused in--''we,'' 
the broader community of security specialists and elected 
officials--on what the top priorities are.
    And you do hear people out there writing books or making 
speeches about how either we have made no progress at all since 
9/11--and that creates a sense of fatalism among the public--or 
how we have to spend many tens of billions of dollars in all 
these different areas, including preparing every first 
responder with a chemical protective suit and a new radio. And 
the number of things that are mentioned in the context of 
``unmet homeland security challenges'' is so great the public 
gets swamped by this.
    And even our fellow members of Congress and fellow members 
of think-tanks get overwhelmed by homeland security. It is a 
hard thing to get your arms around. I think that is why we want 
to really focus, in our Brookings work, on prevention as the 
key thing.
    Mr. Souder. Because we talk about getting information to 
local cops, but even if they pick up somebody we don't know 
whether it is really the person. I mean, it is like step one is 
to know that who you have is who you were trying to get. It 
just dumbfounds me, and I know that part of this is civil 
liberties.
    Mr. Wermuth, you made an allusion in your testimony to the 
fact that you had some skepticism about screening every piece 
of cargo and suggested there were other innovative 
technologies. What would some of those be? Were you thinking of 
Singapore or what? I mean, Long Beach-Los Angeles, we are 
already screening for nuclear.
    Mr. Wermuth. We are focused, you know, right now on 
containers and trying to do screening on nothing but cargo 
containers. A lot of things come into this country every day 
that don't come in containers. We have got, of course, oil and 
natural gas imports that come in in tankers. You have still got 
huge amounts of break-bulk cargo that don't get stuffed in 
containers, depending on where they come from.
    Beyond that, the idea that terrorists who might be able to 
develop some kind of radiological device--and I am not talking 
about necessarily a thermonuclear device, but just a dirty bomb 
device or a set of materials--aren't likely to put it in a 
container.
    So shouldn't we be worried about something other than 
containers? And if we invest all of our security resources in 
100 percent cargo-container inspections, are we missing perhaps 
other measures that should be taken to provide security against 
smaller vessels or different kinds of vessels or different 
means of bringing something into this country other than 
containers.
    It is easy to think about containers as being the solution 
to security problems when you talk about nuclear or 
radiological material. But I would guess that the bad guys are 
not going to want to put something in a container and let it 
move through commerce without any control over it. They are 
going to want to keep their hands on it. And that means it is 
probably not going to come in in a container.
    Mr. Souder. Dr. McIllwain, Mr. Ramirez, do you have any 
comments on my questions?
    Mr. McIllwain. I was trying to get my thoughts together.
    You mentioned the issue with regard to identifications, 
which I think is a positive step, particularly as it is tied to 
biometrics and other issues, the civil liberties concerns which 
of course have to be ironed out.
    The other issue, though, is the human intelligence side of 
that. Because, as you mentioned before, if you have somebody 
coming from Europe--I mean, when the bombings went off in 
London, I spent a heck of a lot of time on that subject. I was 
actually in one of the same tube stations, the Underground 
stations, right before that, and left a couple weeks before.
    And so, right when it happened, I was like, ``Okay, 
Finsbury Mosque, oh yeah,'' and then my mind goes through the 
list of folks who are attending those things. And then, how 
does one couple that information with that identification? 
These are things, obviously of major diplomatic import between 
the United States and its allies abroad.
    And then you go to the European Union and look at what they 
are dealing with, in terms of privacy issues and how privacy 
commissions bureaucratically have now intervened in the 
security aspect, with no expertise in the security concerns.
    So these are some serious issues that need to be dealt 
with, largely from a diplomatic issue, because without those 
intelligence in-flows, those identifications, with somebody 
with a clean record you know nothing about, they are still 
going to be able to pass through day or night.
    So, in my mind, that is something that--I don't know what 
Congress's role would be in this, given that it is the role of 
the executive, in a sense, to be negotiating those treaties and 
those protocols--
    Mr. Souder. Do you agree that if you don't know the 
persons--
    Mr. McIllwain. Oh, yes. Oh, I am not disagreeing with that.
    Mr. Souder. --any intel questions become huge.
    Mr. McIllwain. Oh, yes.
    Mr. Souder. What do you do? What do you have? Do you stop 
them? Do you watch them? Is it privacy? How do you match up, 
you know, they gave money to a cousin, they were at a mosque, 
but does that mean they were actually guilty of anything?
    Mr. McIllwain. And those information flows--and you are 
right--
    Mr. Souder. You don't know who it is. All that is wasted.
    Mr. McIllwain. Those information flows go both ways.
    I will give you a perfect example. A few weeks ago, we were 
in Tijuana, meeting with the police chief down there. And you 
would be amazed at how technologically advanced their 
capabilities are, in terms of things like public surveillance 
as well as biometric, facial recognition, et cetera.
    They asked a question, they said, ``We have been trying to 
get basic information on what the people on your terrorist 
watch list look like.'' Because if we have our resources here, 
if you know folks that have been at training camps in Sudan or 
somewhere else, if you have information like that, we can 
process that, because we don't want these guys here either.
    And basically we can have these things at our airports and 
other facilities, not that, you know, like I said, al-Qa'ida 
gives--Atta or somebody else would not be going across the 
border, but the lower-level functionaries that are currently 
off the radar may. But yet, we don't have that information flow 
going the other way as well.
    So, you know, we need to consider ways that we can probably 
do business better, getting information to allies who want to 
help us in this area, just as I think they need to be doing a 
better job of trying to help us be able to prevent these sort 
of threats from emerging on our own shores.
    Ms. Sanchez. Mr. Ramirez, you will have a short response.
    Mr. Ramirez. Okay, and I will be as brief as possible.
    Ms. Sanchez. You are very long-winded sometimes, so--
    Mr. Ramirez. I haven't heard that since--
    Ms. Sanchez. --I will gavel you.
    Mr. Ramirez. I haven't heard that since my grandmother was 
alive.
    No, but to get to the three biggest things here, corruption 
is one, because you have corruption going on at the ports of 
entry, you have a number of port directors who are now serving 
in prison because, of course, somebody got to them.
    As bad as, you know, they say the San Diego port and the 
Laredo port is, look at El Paso, and go back to what I said at 
the beginning. You have planning and re-planning, but no 
implementation by the Department of Homeland Security. They 
plan everything--they have great things that are set and ready 
to go but will never be implemented.
    And finally, Congress is being run around in circles. DHS 
tells them one thing. Then they come back and tell them 
something else. Often is it the truth? That is a question many 
people have to answer for themselves. You need to talk to the 
agents in the field. This is what I have done for 4 years. So 
basically nothing gets done, as a result.
    Ms. Sanchez. Great. Thank you, Mr. Ramirez.
    And I thank the witnesses for all of their valuable 
testimony and the members for their questions.
    And the members of the subcommittee may have additional 
questions for you all, and we will ask you to respond, quickly 
I hope, in writing back to those questions.
    And, hearing no further business, the subcommittee stands 
adjourned. Thank you, again.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
